No. 20In the

Supreme Court of the United States
KIMBERLY HANZLIK,
Petitioner,
v.
SUPERINTENDENT JOSEPH JOSEPH, BEDFORD HILLS
CORRECTIONAL FACILITY,
Respondent.
On Petition for Writ of Certiorari to the United States
Court of A ppeals for the Second Circuit

PETITION FOR A WRIT OF CERTIORARI

Irving Cohen
Counsel of Record
230 West 79th Street, Suite GRB
New York, New York 10024
(212) 964-2544
icohenlaw@msn.com
Counsel for Petitioner

299846

A
(800) 274-3321 • (800) 359-6859

QUESTION PRESENTED FOR REVIEW
1. Was the Second Circuit’s denial of Petitioner’s application for a certificate of
appealability unreasonable based on the standards for certificate of appealability to
issue as set forth in Miller-El v. Cockrell, 537 U.S. 322 (2003), where Petitioner
demonstrated a substantial showing of a denial of a constitutional right about which
reasonable jurists can disagree?

i

LIST OF PARTIES
The Petitioner is Kimberly Hanzlik. The Respondent is Joseph Joseph.

ii

RELATED CASES

Hanzlik v. Joseph, 17 Cv. 6577 (SDNY 2020) (federal habeas corpus),
February 12, 2020

Hanzlik v. Joseph, 20-694 (2d Cir. 2020) (certificate of appealability application),
July 14, 2020

iii

TABLE OF CONTENTS
Page
QUESTION PRESENTED FOR REVIEW .................................................................... i
LIST OF PARTIES ........................................................................................................ ii
RELATED CASES ........................................................................................................ iii
TABLE OF CONTENTS ............................................................................................... iv
INDEX OF APPENDICES ........................................................................................... vi
TABLE OF AUTHORITIES ........................................................................................ vii
PETITION FOR A WRIT OF CERTIORARI ................................................................ 1
OPINIONS BELOW ...................................................................................................... 1
JURISDICTION............................................................................................................. 1
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED ....................... 1
STATEMENT OF THE CASE ....................................................................................... 2
PROCEDURAL BACKGROUND .................................................................................. 7
STATEMENT OF FACTS ............................................................................................. 9
A.

EVENTS OF MARCH 21, 1999................................................................. 9

B.

THE NEW YORK POLICE DEPARTMENT’S
INVESTIGATION OF JOSEPH BROWN’S MURDER PRIOR
TO KIMBERLY HANZLIK’S ARREST .................................................. 11
Eileen Brown .......................................................................................... 11
First Thiong Interview ........................................................................... 12
Second Thiong Interview ....................................................................... 13
Third Thiong Interview .......................................................................... 13
Fourth Thiong Interview........................................................................ 14

C.

TRIAL....................................................................................................... 15
Trial Attorney’s Failure to Cross-Examine David Thiong.................... 17
Weak Corroborating Testimony by Brown’s Wife ................................. 18
Other Facts Demonstrating Kimberly Hanzlik’s Innocence ................ 20

iv

Applicable Law Regarding Granting a Certificate of
Appealability ................................................................................. 21
REASONS FOR GRANTING THE PETITION .......................................................... 22
I.

Petitioner Demonstrated a Substantial Showing of a Denial of
a Constitutional Right About Which Reasonable Jurists Can
Disagree: There is a Constitutional Basis Permitting a District
Court to Grant a Writ of Habeas Corpus Solely on the Grounds
of Actual Innocence .................................................................................. 22

II.

Kimberly Hanzlik Is Actually Innocent Of The Crime For
Which She Is Serving A Life Sentence ................................................... 28

III.

The Courts Below Incorrectly Concluded That Trial Counsel’s
Admitted Ineffectiveness Did Not Warrant Overturning The
Conviction Nor The Granting Of A Writ of Habeas Corpus.
District Court, Therefore, Rendered A Decision Which Was An
Unreasonable Application Of Federal And State Constitutional
Law And Involved An Unreasonable Determination Of The
Facts ......................................................................................................... 33

CONCLUSION............................................................................................................. 40

v

INDEX OF APPENDICES
APPENDIX A – DENIAL OF REHEARING OF THE UNITED STATES COURT OF
APPEALS FOR THE SECOND CIRCUIT, FILED JULY 14, 2020
APPENDIX B – ORDER OF THE UNITED STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF NEW YORK, FILED FEBRUARY 12, 2020
APPENDIX C – DECISION AND ORDER OF THE SUPREME COURT OF THE
STATE OF NEW YORK, COUNTY OF BRONX, DATED APRIL 8, 2019
APPENDIX D – OPINION AND ORDER OF THE UNITED STATES DISTRICT
COURT FOR THE SOUTHERN DISTRICT OF NEW YORK, FILED
MAY 18, 2018
APPENDIX E – DECISION AND ORDER OF THE SUPREME COURT
OF THE STATE OF NEW YORK, COUNTY OF BRONX, DATED
DECEMBER 8, 2016
APPENDIX F – DECISION AND ORDER OF THE SUPREME COURT OF THE
STATE OF NEW YORK, COUNTY OF BRONX, DATED AUGUST 24, 2016
APPENDIX G – DECISION AND ORDER OF THE NEW YORK SUPREME COURT,
APPELLATE
DIVISION,
FIRST
DEPARTMENT,
DATED
APRIL 9, 2015
APPENDIX H – DECISION AND ORDER OF THE SUPREME COURT OF THE
STATE OF NEW YORK, COUNTY OF BRONX, DATED FEBRUARY 2, 2014
APPENDIX I – CONSTITUTIONAL AND STATUTORY PROVISIONS

vi

TABLE OF AUTHORITIES
Page(s)
Cases

Buck v. Davis,
580 U.S __ (2017), 137 S. Ct. 759 (2017) .................................................... 22, 39

Ford v. Wainwright,
477 U.S. 399 (1986) ........................................................................................... 27

Furman v. Georgia,
408 U.S. 281 (1972) ......................................................................................... 5, 6

Goldblum v. Klem,
510 F.3d 204 (3d Cir. 2007) .............................................................................. 32

Herrera v. Collins,

506 U.S. 390 (1993) ................................................................................... passim

House v. Bell,
547 U.S. 518 (2006) ........................................................................................... 39

In Re Davis,
565 F.3d 810 (11th Cir. 2009) ....................................................................... 2, 28

In re Troy Anthony Davis,
557 U.S. 952 (2009) ................................................................................. 2, 24, 26

In re Winship,
397 U.S. (1970) .................................................................................................. 27

Jackson v. Virginia,
443 U.S. 307 (1979) ..................................................................................... 23, 24

Kuhlmann v. Wilson,
477 U.S. 436 (1986) ........................................................................................... 28

Kyles v. Whitley,
514 U.S. 419 (1995) ........................................................................................... 39

Miller-El v. Cockrell,
537 U.S. 322 (2003) ..................................................................................... 21, 22

Murray v. Carrier,
477 U.S. 478 (1986) ..................................................................................... 36, 39

People v. Hamilton,
115 A.D.3d 12 (2d Dep’t 2014) .......................................................................... 30

Robinson v. Dinwiddie,
2009 WL 2778657 (W.D. Okla. Aug. 31, 2009) ................................................ 28
vii

Rochin v. California,
340 U.S. 165 (1952) ........................................................................................... 27

Schlup v. Delo,

513 U.S. 298 (1995) ................................................................................... passim

Slack v. McDaniel,
529 U.S. 473 (2000) ..................................................................................... 21, 39

Strickland v. Washington,
466 U.S. 668 (1984) ..................................................................................... 34, 35

Tomlinson v. Burt,
509 F. Supp. 2d.............................................................................................. 2, 28

Townsend v. Sain,
372 U.S. 293 (1963) ........................................................................................... 23

United States v. Biaggi,
909 F. 2d 662 (2d Cir 1990) .............................................................................. 35

United States v. Nixon,
418 U.S. 683 (1974) ........................................................................................... 27
Statutes and Other Authorities
U.S. Const. amend. VI ................................................................................................... 1
U.S. Const. amend. VIII ............................................................................................ 1, 3
U.S. Const. amend. XIV ................................................................................................. 1
Article I, § 9 of the Constitution .................................................................................... 2
28 U.S.C. § 1254 ............................................................................................................. 1
28 U.S.C. § 2252(c)(2) .................................................................................................. 21
28 U.S.C. § 2253(c)(2) .................................................................................................. 39
28 U.S.C. § 2254 ............................................................................................................. 1
CPL 440 .................................................................................................................. 7, 8, 9
F.R.E. 401..................................................................................................................... 35
New York State Criminal Procedure Law § 60.22 ..................................................... 18
New York State Criminal Procedure Law § 440.10 ............................................... 1, 17
Penal Law § 125.25 .................................................................................................... 1, 7

viii

PETITION FOR A WRIT OF CERTIORARI
Petitioner Kimberly Hanzlik prays for a writ of certiorari to review the order
of the United States Court of Appeals for the Second Circuit in this case.
OPINIONS BELOW
The United States Court of Appeals for the Second Circuit, in a motion order
dated July 14, 2020, denied a certificate of appealability from the denial of a 28 U.S.C.
§ 2254 motion in the United States District Court for the Southern District of New
York. See Appendix A. The relevant opinion and order of the District Court, which is
unreported, is reprinted in the appendix at Appendix B.
JURISDICTION
The order of the Court of Appeals was entered on July 14, 2020. This petition
for a writ of certiorari is being timely filed within one hundred fifty days of the entry
of that order, in compliance with Rule 13.3 of this Court’s rules and the Order of this
Court dated March 19, 2020 providing an additional sixty days. The jurisdiction of
this Court is invoked under 28 U.S.C. § 1254.
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Petitioner refers this Honorable Court to the following constitutional and
statutory provisions: U.S. CONST. amend. VI; U.S. CONST. amend. VIII; U.S.
CONST. amend. XIV; New York State Criminal Procedure Law Section 440.10; New
York State Penal Section 125.25, which are reprinted in the appendix at Appendix
I.

1

STATEMENT OF THE CASE
This case raises an issue that has been discussed by this Court and other
Circuit and District Courts but never fully clarified. Specifically, does a district court
have the authority to grant a writ of habeas corpus from a state court conviction solely
on a freestanding claim of actual, factual innocence? In 1993, three Justices of this
Court explicitly recognized that authority while the balance of the Court, in several
different opinions, assumed that to be the case. Herrera v. Collins, 506 U.S. 390
(1993).
Citing Herrera, this Court, in 2009, sent a case back to the District Court in
Georgia specifically to hear facts relating to the claim of innocence. In re Troy

Anthony Davis, 557 U.S. 952 (2009). As no lower court had heard the underlying
facts, this Court directed the District Court to hold a testimonial hearing in order to
intelligently rule on the petitioner’s claim. Consistent with In re Troy Anthony Davis,
the United States Court of Appeals for the Eleventh Circuit ruled that such an
innocence claim can be made and granted pursuant to a writ of habeas corpus. In Re

Davis, 565 F.3d 810 (11th Cir. 2009). In several decisions rendered by district courts,
the availability of this remedy to correct an unjust conviction has also been
“assumed.” See, e.g., Tomlinson v. Burt, 509 F. Supp. 2d (N.D. Iowa, 2007).
A decision by this Court to settle any ambiguity surrounding the availability
of this remedy would, therefore, not be one that expands the law regarding the
purpose and scope of a writ of habeas corpus. Rather, it would simply be a
continuation of the recognition that the Founding Fathers had incorporated the

2

“Great Writ” into the body of the Constitution specifically to address cases in which
an innocent person remains imprisoned. Later, the writ was approved to address
violations of constitutional rights in cases emanating from state court convictions.
One of those rights is delineated in the Eighth Amendment’s proscription
against the imposition of cruel and unusual punishment. The Founding Fathers
approved that amendment regarding its proscription as fundamental to the moral
and just system they were creating and inscribed the writ of habeas corpus into the
Constitution as the vehicle by which that right would be enforced.
Indeed, the writ of habeas corpus was hardly a novelty when it was codified in
Article I, Section 9 of the Constitution. Five hundred years earlier, the “Great Writ”
was one of the principle features of the ferment in England that also produced the
Magna Carta. The Founding Fathers, recognizing that the King of England had
treated his enemies, especially the colonists clamoring for independence, as if they
were criminals, responded by ingraining the writ as a fundamental check on the
power of the state, ironically relying on the centuries old principle of the very nation
from which they were seeking to separate. That check was affirmed and strengthened
years later in the Habeas Corpus Act of 1679.
In the Ratification Debates, the founders recognized that the writ was essential
to the establishment of a government that, in principle, sought to prevent the
arbitrary abuse of authority. Indeed, there was virtually unanimous agreement that
the writ of habeas corpus was so critical that it should never be suspended. See James
Madison and William Randolph, The Debates in the Several State Conventions of the

3

Adoption of the Federal Constitution vols. 2-3, available at https://oll-resources.s3.useast-2.amazonaws.com/oll3/store/titles/1906/1314.02_

Bk.pdf

and

https://oll-

resources.s3.us-east-2.amazonaws.com/oll3/store/titles/1907/1 314.03_Bk.pdf.
Therefore, by the use of habeas corpus as incorporated in the Constitution,
prisoners across the nation have challenged their imprisonment as contemplated by
the drafters when adopting and continuing what had been the law, accepted by all for
centuries before the founding of the United States. An innocent prisoner’s only
recourse after exhausting state remedies is to petition for a writ of habeas corpus.
Yet, at the present time, there is agreement that a plausible claim of actual
innocence only serves as a “gateway” to the presentation of a claim that some other
Constitutional violation had occurred. However, if a petitioner received a “fair” trial
but is actually innocent, there currently is no agreement – rather, there is still some
ambiguity – that he or she can be exonerated by a district court. It is not even clear
that a district court can hold a testimonial hearing. Such an anomalous unfair status
quo is inconsistent with the long-held moral position that an innocent person should
not suffer the consequences as if he or she were guilty. Yet, the District Court below
held that, even if Ms. Hanzlik could prove her innocence, she had no remedy – not
even pursuant to the ancient writ of habeas corpus.
This District Court and others have ignored the clear meaning and rationale
of this Court in rulings going back at least a century. In Herrera v. Collins, a
landmark case, each of the nine justices held that an innocent person facing a death
sentence is entitled to have his conviction overturned through the granting of a writ

4

of habeas corpus. While three of the justices recognized that the writ should be
available to an innocent state prisoner regardless of the crime of conviction and the
sentence imposed, the majority opinion did not reach that issue as that circumstance
was not before them. In other words, such a ruling for the majority would have been
considered dicta. Even Justice Scalia, concurring in the denial of the writ, commented
on this circumstance: there is “no legal error in deciding a case by assuming,

arguendo, that an asserted constitutional right exists…” Herrera 506 U.S. at 428
(underline supplied).
The instant case presents that issue squarely. It is the perfect vehicle for this
Court to recognize that the Court’s heretofore unanimous assumption is the law.
Surely if, as the Herrera Court ruled, the Constitution prohibits the imposition of the
death sentence on the grounds of actual innocence and authorizes a district court to
grant a habeas petition solely on that ground, then the same constitutional
underpinnings cited in Herrera must also apply to one serving a mere life sentence.
In addition, such an unfair outcome should also be barred by application of the
Fourteenth Amendment’s guarantee of due process of law. Both procedurally and
substantively, the continued incarceration of an innocent person is, in one word:
unfair. Though Justice Brennan assumed “no State today would inflict a severe
punishment knowing that there was no reason whatever for doing so”, in that very
same case Justice Marshall emphasized the fact that “Our ‘beyond a reasonable
doubt’ burden of proof in criminal cases is intended to protect the innocent, but we
know it is not foolproof.” Furman v. Georgia, 408 U.S. 281, 366 (1972).

5

Plainly, “it is unfair to inflict unequal penalties on equally guilty parties, or on
any innocent parties, regardless of what the penalty is.” Id. at 248 citing Hearings
before Subcommittee No. 3 of the House Committee on the Judiciary, 92d Cong., 2d
Sess., Ernest van den Haag, testifying on H.R. 8414 et al. To be sure, how could any
rational human being believe otherwise? In the instant case, neither the state courts
nor the District Court even felt it necessary to hold a testimonial hearing to test the
claim of actual innocence. If there was any doubt that Ms. Hanzlik was innocent
despite the overwhelming support for that fact in the record, as will be easily
recognized post, then the witnesses whose testimony was instrumental at the trial
should have, at minimum, been heard – by some court. Yet, what is clear, is that the
District Court felt bound by the law that, at that time, did not give him clear authority
to grant the writ solely on the claim of actual innocence; there would be no point to
holding a hearing if the District Court felt that there was nothing he could do.
Therefore, both substantively and procedurally, Ms. Hanzlik’s constitutional right to
a fair hearing was violated.
Also at issue herein – and for which a Certificate of Appealability should have
also been ordered – is that the conceded ineffectiveness of counsel clearly resulted in
the conviction of an innocent person. There is no doubt – as the record is absolutely
clear – that trial counsel did not understand the rules of impeachment. The star
witness, upon whom the conviction rested, had given a statement to a prosecutor and
three detectives with his lawyer present in which he exonerated Ms. Hanzlik six
months after the murder. The statement, memorialized in notes, provided a

6

completely different set of facts from that which he testified at trial when he
implicated her. Incredibly, trial counsel did not impeach him nor in any other way
present to the jury this accomplice’s statement that Ms. Hanzlik was not present, was
not involved at all, and was therefore actually innocent. Trial counsel admitted in an
affidavit that he would have cross-examined the accomplice with the written
statement but misunderstood the law of impeachment: he believed he could not
confront the accomplice-witness because he did not know which detective wrote the
notes. Yet, as the law makes clear, he had a good faith basis to do so.
I.

PROCEDURAL BACKGROUND
Petitioner, Kimberly Hanzlik, was charged, along with co-defendant, Joseph

Meldish, with Murder in the Second Degree in violation of New York State Penal
Section 125.25. Both were indicted for this crime eight years after the incident which
resulted in the death of Joseph Brown. Ms. Hanzlik was released on bond; Meldish
was not. The trial was held three years later in the Supreme Court of the State of
New York, County of the Bronx. Both were found guilty. Ms. Hanzlik was sentenced
to twenty years to life; Meldish to twenty-five years to life, the maximum under the
law. Ms. Hanzlik filed a direct appeal to the Supreme Court, Appellate Division, First
Department. Her conviction was affirmed and an application for leave to appeal to
the Court of Appeals of the State of New York was denied. Meldish has yet to perfect
his appeal.
A post-conviction motion pursuant to New York State Criminal Procedure Law
Section 440.10 was brought by new counsel on behalf of Ms. Hanzlik. It alleged, as

7

the sole ground, the ineffective assistance of counsel. The motion pointed to the
uncontroverted fact that Ms. Hanzlik’s counsel had not impeached the State’s star
witness – the accomplice to the murder and the only one with incriminating, although
false evidence – with his prior inconsistent statement that exonerated Ms. Hanzlik.
This statement, contained in handwritten notes, was made to an Assistant District
Attorney and three detectives six months after the murder. The trial court judge
denied the motion on the grounds that – using an objective standard – it could have
been a “strategy” decision by some defense lawyers. However, as indicated, that was
not the reason provided by trial counsel who had confirmed his ignorance of the law.
This first CPL 440 motion was denied and counsel obtained permission to appeal that
denial. Once again, the Appellate Division affirmed the conviction. Importantly,
neither the CPL 440 court nor the appellate court was aware that trial counsel had
admitted in an affidavit (that the prosecution withheld from them) his ignorance of
impeachment law and that his failure was not a strategy decision.
Petitioner, then, through new counsel, the undersigned, brought a second CPL
440 motion. This new motion revealed for the first time that the aforementioned
affidavit by trial counsel obtained by the prosecution in connection with the first CPL
440 motion had not been revealed to the trial judge nor provided to counsel. The
prosecutor withheld that affidavit from the court because it established that counsel’s
failure to impeach the accomplice witness with his prior statement was due to his
ignorance of the law. In other words, it was a sworn admission that he had not

8

provided the effective assistance of counsel – and the prosecutor knew that so he hid
it from the judge and counsel.
This second CPL 440 motion also raised for the first time that the court must
grant the motion on the separate and permissible ground that Ms. Hanzlik was
actually and factually innocent. Another ground was prosecutorial misconduct which
was later amplified by a third CPL 440 motion. Although such misconduct
contributed to the verdict and the later denial of the first CPL 440 motion, it is not
alleged as a basis for this application. Ultimately, that second and third CPL 440
motions were denied. Permission to appeal was likewise denied, exhausting all state
remedies. A petition for a writ of habeas corpus was then filed.
II.

STATEMENT OF FACTS

A. EVENTS OF MARCH 21, 1999
On March 21, 1999, at approximately 2:00 a.m., Joseph Brown was shot and
killed while inside Frenchy’s, a crowded bar in the Bronx. On that date Joseph and
his wife, Eileen, after attending a birthday party, decided to go to Frenchy’s Bar on
East Tremont Avenue in the Bronx (“Frenchy’s”), where Eileen’s friend Josephine
had told her earlier that day she was planning to go with her new boyfriend. (Tr. 5455, 149) 1. When the Browns arrived at Frenchy’s at about 12:15 a.m., the bar was
very crowded and a bouncer was collecting a cover charge at the door for the live band
performance. (Tr. 56-57).

1

References preceded by “Tr. __” are to the trial transcript.

9

The Browns made their way through the crowd to the back of the bar and joined
Josephine at a round table with two stools. (Tr. 57-59). Joseph leaned against one of
the stools near the back wall. (Tr. 61, 186). Michael Hangan, a bartender, did not
notice the gunman when he entered, but first observed him at the corner of the bar
behind which he was working. (Tr. 934, 940) As the man neared Hangan, Jason Fox,
who was collecting money at the door, yelled “get that clown,” and Hangan began to
approach him from behind the bar (Tr. 946, 951).
Around 1:30 a.m., as Hangan approached the shooter (approximately 45
minutes after Josephine and her boyfriend left) the shooter approached the Browns,
drew a gun, said “This is for you, motherfucker,” and, from approximately twenty feet
away, started firing at Joseph. (Tr. 59-61, 65, 68, 130-131, 135-36). The shooter was
dressed all in black, wore a black ski mask or something that had a brim, and that
was covered by a black hood. (Tr. 63). Ms. Brown described the shooter as
approximately five foot eight, and, based on what she could see through his mask,
could tell only that he was white. (Tr. 63-64).
After the first shot, Joseph pushed Eileen against the door of the women’s
restroom. Eileen entered the restroom and remained inside until the gunshots
concluded. (Tr. 61-66). When the man stopped shooting, he pointed his gun at Hangan
and walked out of the bar. (Tr. 941-42). As Hangan moved toward Joseph, Ms. Brown
exited the restroom. (Tr. 958). As she emerged, she saw Joseph’s body on the floor,
wounded by gunshots and surrounded by blood. (Tr. 62, 67, 840-55).

10

B. THE NEW YORK POLICE DEPARTMENT’S INVESTIGATION OF
JOSEPH BROWN’S MURDER PRIOR TO KIMBERLY HANZLIK’S ARREST
The New York Police Department (“NYPD”) responded promptly to calls that
a male was shot at Frenchy’s and began interviewing patrons. Of the approximately
one hundred people in Frenchy’s Bar in the early morning hours of March 21, 1999,
NYPD interviewed at least twenty.
Not one of these twenty individuals indicated that Ms. Hanzlik was at
Frenchy’s on March 21, 1999. The bouncer, Jason Fox, did not identify Ms. Hanzlik
to law enforcement. It was Fox’s responsibility to collect money from every individual
entering Frenchy’s that night, yet he did not see Ms. Hanzlik.
Similarly, neither Thomas Silverberg nor Michael Hangan, the bartenders
working at Frenchy’s the night of the homicide, identified Ms. Hanzlik. Not once did
the bartenders state that another individual could have been involved in the murder.
Despite the immediate investigation by the NYPD, there was absolutely no physical
evidence, no forensic evidence, and not one statement by a Frenchy’s patron or
employee linking Ms. Hanzlik to the crime.
Though Frenchy’s was crowded on March 21, 1999, and though law
enforcement interviewed numerous possible witnesses, the investigation centered
around two individuals: Eileen Brown and David Thiong.
Eileen Brown
Eileen Brown spoke to detectives on the night of the shooting, as well as the
following day. (Tr. 69-70). Ms. Brown did not place Ms. Hanzlik at Frenchy’s in either
of these meetings. In fact, Ms. Brown did not mention Ms. Hanzlik or describe any

11

woman unknown to her. Ms. Brown’s next contact with law enforcement authorities
with regard to the shooting occurred in 2006, seven years later, when Detective Kevin
Tracy, of the “cold-case” squad, left a card in her mailbox indicating that he had been
assigned to the re-opened investigation and wanted to interview her. (Tr. 71-73). At
that meeting, which lasted over three hours, Ms. Brown did not say she saw a woman,
let alone Ms. Hanzlik, at the bar.
Then, quite surprisingly, at a second meeting with Detective Tracy on August
14, 2006, seven and a half years after the shooting, she, for the first time, told him
that, while she and her friend Josephine were washing their hands in the bathroom
at Frenchy’s, she looked in the mirror and saw the reflection of a woman behind her
“who did not look like they fit in the bar.” (Tr. 755, 666).
First Thiong Interview
After an unrelated arrest on April 14, 1999, three weeks after the murder,
David Thiong was questioned by the police about the Joseph Brown homicide. At that
time, he did not claim to have any information about Joseph Meldish going to
Frenchy's or being involved in a homicide. (Tr. 438-59, 485-86, 538-41). Rather,
Thiong told police that, on March 21, 1999, he took Meldish briefly to the Half Crowne
Bar, then to Ms. Hanzlik’s house. Thiong and Meldish waited for Ms. Hanzlik to come
outside with Meldish’s laundry. Thiong then drove Meldish and Ms. Hanzlik to
Crosby Cab between 2:00 and 3:00 a.m.

12

Second Thiong Interview
David Thiong was interviewed a second time about the Joseph Brown homicide
on August 12, 1999 after being arrested on another unrelated charge four months
later. Similar to his first interview, he told law enforcement that he had driven
Meldish and Ms. Hanzlik to the Half Crowne and then to Ms. Hanzlik's house, but
said nothing about taking them to Frenchy's. (Tr. 441-43, 487-88).
Third Thiong Interview
On September 14, 1999, almost six months after the Brown homicide, David
Thiong was interviewed a third time – this time at the Bronx District Attorney’s
Office. Assistant District Attorney Thomas D. Kapp, Detectives Torrellas and Ronda,
Sergeant Powers, and Thiong’s defense attorney were present.
In that interview, Thiong stated, inter alia, that on March 21, 1999, in the early
morning hours, he met with Joseph Meldish at Skinny Donny’s house. After Thiong,
Meldish, and Ms. Hanzlik briefly went to the Half Crowne Bar, they dropped Ms.
Hanzlik off at home. After dropping Ms. Hanzlik off at home, only Thiong and Meldish
drove to Frenchy’s Bar on Tremont Avenue. Meldish got out of the car and went into
the bar. Thiong then heard about five shots and saw Meldish leave the bar. Meldish
had a gun. He got back in the car and the two went back to Ms. Hanzlik’s house.
Thiong picked her up and dropped her and Meldish at a cab company on Crosby and
Westchester Avenues. Thiong then drove away. No charges were brought against
Meldish or Thiong as a consequence of this interview.

13

In that account, in direct contradiction to his trial testimony thirteen years
later, Thiong completely exonerated Ms. Hanzlik in the crime. He specifically said
that Kimberly Hanzlik was not at the scene and had nothing to do with the murder.
Detective Torrellas had taken clear, legible notes of this interview. The names of the
participants appear at the top of his notes. Thirteen years later, at the trial, these
notes were turned over to defense counsel, Jonas Gelb. They were denoted “Exhibit
G for identification.” Three weeks after this interview, on October 11, 1999, a
typewritten report of that interview was prepared and signed by Detective Torrellas.
Mr. Gelb swore that he had not been provided with that official report, just the
handwritten notes.
Fourth Thiong Interview
In 2007, Thiong was incarcerated in Westchester following his arrest for a drug
sale that was charged as a B felony, as well as a violation of his previously imposed
lifetime parole. Thiong, therefore, faced a new prosecution that could send him back
to prison for the rest of his life. While incarcerated, Thiong was visited by Detective
Tracy. (Tr. 448-53, 477-83). Now, when Thiong was questioned about the Brown
murder case, he gave a different version of the events of March 21, 1999. This time
he implicated both Meldish and Kimberly Hanzlik.
Subsequently, Thiong met with the prosecutor at the Bronx County District
Attorney's Office and agreed to testify against the defendants in the present case. In
exchange, he was given total immunity in connection with the Joseph Brown murder,
in which he now claimed to have been involved, and was permitted to plead guilty to

14

a misdemeanor rather than a felony on his pending drug charge. He did so, and
received a sentence of time served, which represented a term of eleven months'
imprisonment for the drug sale, plus ninety days for the parole violation. (Tr. 450-51,
480-83). As a result of this deal, he testified before the grand jury and an indictment
for murder was filed against both Meldish and Ms. Hanzlik. Almost three years later,
the trial commenced.
C. TRIAL
The critical witness at the trial, twelve years after the murder of Joseph
Brown, was David Thiong. Thiong was thirty-four years old at the time of his
testimony but had begun selling marijuana, crack, heroin, cocaine, and prescription
drugs in the Northeast Bronx as a teenager, earning $500 to $1000 per day. (Tr. 40911). From 1997 to 1999, he had owned several guns including a Tec-9, a Mac 10, and
a nine-millimeter shotgun, and, without being fired on himself, he had shot at
approximately six rival drug dealers in 1998. (Tr. 435-36, 518). At the time of trial,
he had been convicted of four drug-related felonies. (Tr. 446-47). After his release,
Thiong again returned to selling drugs, was arrested in Putnam County, and was
sentenced in 2010 to a five-year term of imprisonment, which he was serving at the
time of his testimony for the prosecution in the present case. (Tr. 331-32, 456-57).
Thiong testified that, beginning in approximately 1990, he regularly supplied
drugs to addicts at a Bronx crack house. (Tr. 333). In 1998 and 1999, one of his
customers was Kimberly Hanzlik, who purchased crack from him daily. (Tr. 334-36).
He identified her in court, but noted that she looked more "together" now than in

15

1999. (Tr. 335). Thiong testified that, in 1999, Ms. Hanzlik appeared "strung out" on
crack and was so emaciated that her skull was visible through her face. (Tr. 395).
Thiong testified that “[w]e used to call her Skeletora," a reference to a cartoon
character with a visible skull. (Tr. 396-97, 509).
According to Thiong's testimony, he met Meldish a few months after meeting
Ms. Hanzlik, and became his crack supplier as well. (Tr. 336-38). In 1998 and 1999,
Thiong often took Meldish to various bars so that he could borrow or demand money
with which to pay for crack. (Tr. 420-21, 587-88). Thiong testified that he would
occasionally drive Meldish and Ms. Hanzlik to various locations, but that he had a
falling out with Meldish because of things Meldish had said about him. (Tr. 339-42).
According to Thiong, on March 20, 1999, he was asked to go to the home of a
mutual acquaintance named Skinny Donny, and he saw Ms. Hanzlik and Meldish
there. (Tr. 341-43). Following a conversation during which Meldish apologized to him,
Meldish told Thiong that he needed to go to the Half Crowne Bar on Crosby Avenue
in the Bronx, and Thiong drove Meldish and Ms. Hanzlik there. (Tr. 343-44). Meldish
needed to go to Half Crowne Bar to get money with which he would pay Thiong for
drugs Thiong had given him earlier. (Tr. 520-21). After less than a minute in the bar,
Meldish returned to the car without any money and told Thiong to drive to Ms.
Hanzlik's house. (Tr. 344-45).
According to Thiong, Ms. Hanzlik went into her house. (Tr. 346-47). In this
altogether different version of the events, the three then drove to Frenchy's. (Tr. 347).

16

Upon arrival, Meldish nudged Ms. Hanzlik from the back seat and they whispered to
one another, but Thiong did not hear what was said. (Tr. 348).
Thiong testified that Ms. Hanzlik went into Frenchy's, returned to the car no
more than two minutes later, and told Meldish which stool “Brown” was sitting on.
(Tr. 348-49, 432).2 Meldish then put on a mask and went into the bar with a gun;
Thiong did not recall the color of the gun, but testified that it was a semiautomatic.
He recalled that Meldish was wearing a black "hoodie" and black jeans, and that the
mask was "dark blue" with a visor, and that it did not cover Meldish's eyes or the
bridge of his nose. (Tr. 348-53, 433).
Thiong testified that he heard approximately six gunshots. He asserted that
Meldish returned to the car, pointed the gun at him, and told him to drive to the
Crosby cab company. (Tr. 349-50). Thiong testified that, after he drove Meldish and
Ms. Hanzlik there, they took the gun and bag and exited his car. (Tr. 354-55).
According to Thiong, about a week later Meldish threatened to kill him or his family
if he ever spoke about the homicide at Frenchy’s (Tr. 356-57).
Trial Attorney’s Failure to Cross-Examine David Thiong
Defense counsel Gelb, who was in possession of the handwritten account of the
interview of Thiong at the District Attorney’s office in 1999, did not cross-examine
Thiong at trial with these prior interview statements that completely exonerated Ms.
Hanzlik. Thiong’s new version of the occurrence was not attacked by Mr. Gelb in any
way. Those prior inconsistent statements went to the very heart of the case against

On cross examination, Thiong testified that Hanzlik told Meldish where “Joseph Brown” was sitting;
when asked if he remembered clearly hearing her say that, he answered, “I believe so, yes.” (Tr. 433).
2

17

Ms. Hanzlik as it was a factual account that exonerated her. It also bears noting that
the defense at trial was prevented from probing any inconsistencies between Thiong’s
trial testimony and the statements he made to authorities after he agreed to
cooperate because the lead investigator, Detective Tracy, in defiance of standard law
enforcement protocol, intentionally “made it a point to prepare no notes.” (Tr. 757).
Weak Corroborating Testimony by Brown’s Wife
The sole “corroboration” of career criminal David Thiong’s testimony was the
belated testimony of Mr. Brown’s wife. Although Ms. Brown did not know Ms.
Hanzlik, Ms. Brown testified at trial that she saw, for a few brief seconds, Ms.
Hanzlik’s reflection in the bathroom mirror. This belated “identification” was the
only so-called evidence that connected Ms. Hanzlik to the crime. Without it, New York
State law would not permit a prosecution solely on the word of Thiong.

3

It was

attacked as the product of suggestion by Detective Tracy who, admittedly neglected
to take notes of his interview with Thiong – the government’s star witness.
Ms. Brown testified at trial that there were only two toilet stalls in the
bathroom and only the two sinks that she and Josephine were standing in front of
when she made this observation. (Tr. 133-34). She did not see the woman enter or
leave the bathroom. (Tr. 134-35). This observation occurred while she was with
Josephine, whom she acknowledged had left Frenchy's forty-five minutes before the

New York Criminal Procedure Law § 60.22 provides “A defendant may not be convicted of any offense
upon the testimony of an accomplice unsupported by corroborative evidence tending to connect the
defendant with the commission of such offense…. A witness who is an accomplice… is no less such
because a prosecution or conviction of himself would be barred or precluded by some defense or
exemption, such as infancy, immunity, or previous prosecution…” (emphasis added).
3

18

shooting. (Tr. 130-36). Ms. Brown was not sure how long Josephine had remained at
Frenchy's after the two of them had gone to the bathroom together. (Tr. 186).
Josephine was never found nor interviewed by the state.
Based on her brief observation of the face in the mirror, Ms. Brown described
the woman as having a “[h]eavy-set face." Thiong, on the other hand, had testified
that Ms. Hanzlik was “emaciated” and was called “Skeletora”, meaning that one could
see the bones in her face; therefore, not “heavy-set.” Importantly, Ms. Hanzlik herself
was arrested shortly after the shooting on March 22, 1999 on an unrelated
misdemeanor drug charge later disposed of by community service and her arrest
photo depicted her as in fact emaciated, thereby contradicting completely Ms. Brown’s
supposed identification. When the prosecutor asked Ms. Brown if anyone in the
courtroom "looks familiar to you," she responded that she was "unclear." (Tr. 75). The
prosecutor subsequently said, "Now you indicated that you weren't sure of an
individual that you may recognize in this courtroom" (even though that had not been
Ms. Brown's earlier testimony), and then asked where "that person" was. Although
an objection to that question was sustained, the prosecutor continued: "explain to us
who you were talking about when you made that statement." Ms. Brown responded,
"the defendant" and pointed to Ms. Hanzlik. (Tr. 77).
The prosecution was then permitted to show Ms. Brown a photograph taken in
2002 (People's Exhibit 1), which Thiong subsequently identified as a picture of Ms.
Hanzlik, and Ms. Brown testified that she recognized it as a photograph of the person
she saw in the bathroom mirror. (Tr. 87-89, 401).

19

Other Facts Demonstrating Kimberly Hanzlik’s Innocence
Other than Ms. Brown, the People did not call any witnesses who had been
present at the time of the shooting. Two different witnesses present at the time of the
shooting, however, were called by Joseph Meldish’s attorney: Michael Hangan, a
bartender at Frenchy’s, and Jason Fox, a bouncer at Frenchy’s. Like Ms. Brown,
Hangan testified that the shooter was dressed all in black and wore a ski mask that
covered all of his face other than the bridge of his nose; he recalled that the mask was
made of a "shiny material" and was of a style that was popular at the time. (Tr. 93749). Hangan could tell that the shooter was white. (Tr. 950). Hangan knew Meldish,
and testified that he had been at the bar as recently as a day or a week before the
shooting, but he did not identify him as the shooter. (Tr. 947-48, 962-65).
Jason Fox, who also testified as a defense witness, was working as a bouncer
and collecting the five-dollar cover charge at the door of Frenchy's on March 21, 1999.
He confirmed that the bar was very crowded that evening, confirmed by the fact that
he collected over $1000. (Tr. 970-72, 985). Fox recalled that, at roughly 2:30 a.m., a
man walked past him without paying and Fox followed him into the crowd. When the
man swung at him, Fox yelled to Hangan and pointed at the man. As Hangan began
to step out from behind the bar, the man drew a gun, took a few steps, went straight
to the end of the bar, and began to shoot. (Tr. 973, 981).
The jury was not made aware that Ms. Hanzlik was also offered immunity if
she would testify against Meldish. She was innocent and, therefore, would have had
to commit perjury to conform her testimony to Thiong’s; she had no choice but to reject

20

the offer. Ms. Hanzlik took and passed a polygraph examination wherein it was
confirmed that she was not at Frenchy’s Bar and, therefore, completely innocent.
Kimberly Hanzlik was convicted of murder in the second degree.
Applicable Law Regarding Granting a Certificate of Appealability
28 U.S.C. § 2252(c)(2) authorizes a court to grant a Certificate of Appealability
(“COA”) upon a “substantial showing of the denial of a constitutional right.” As
enunciated by this Court in Miller-El v. Cockrell, 537 U.S. 322, 330 (2003), a
“substantial showing” is when a petitioner demonstrates that “another court could
resolve the issues differently,” and that they are “debatable among jurists of reason.”
In the instant case the previous courts denied a COA. However, just as in Miller-El,
this Court should now reverse the circuit’s denial and thereby give the petitioner the
opportunity for appellate review of the District Court’s denial of the writ of habeas
corpus. The Miller-El decision followed this Court’s ruling in Slack v. McDaniel, 529
U.S. 473, 484 (2000) in which the Court held that if reasonable jurists could disagree
on the resolution of the constitutional claims and conclude that the issues presented
are adequate to deserve encouragement to proceed further, a COA should be granted.
Importantly, a COA need not be granted only when the deciding court determines
that there is merit to the claim; but only that the issue decided below substantially
demonstrates a denial of a constitutional right about which reasonable jurists can
disagree.
In making this determination, the court can review and analyze the facts in
the attempt to discern whether that substantial showing has been made. Justice

21

Scalia, concurring in Miller-El, made an extensive review of the record established at
the trial level regarding the reasons provided by the prosecution in striking six black
venirepersons. He concluded, as did the majority, “there is room for debate as to the
merits of Petitioner’s Batson claim.” Miller-El v. Cockrell, 537 U.S. at 350. It is the
strength of the claim and the fact that reasonable jurists could disagree as to its
merits that informs the decision whether to grant the COA.
Recently, in Buck v. Davis, 580 U.S __ (2017), 137 S.Ct. 759 (2017), this Court
reaffirmed this analysis. The Court made clear that a petitioner need only show that
the decision of the District court was “debatable.” Id. at 774. In addition, the
petitioner need not demonstrate “extraordinary circumstances” or that he or she
would succeed on the merits. As Chief Justice Roberts pointed out, debatable is
different than meritorious. Id. at 774 (“that a prisoner has failed to make the ultimate
showing that his claim is meritorious does not logically mean he failed to make a
preliminary showing that his claim was debatable.”)
REASONS FOR GRANTING THE PETITION
I.

Petitioner Demonstrated a Substantial Showing of a Denial of a
Constitutional Right About Which Reasonable Jurists Can Disagree:
There is a Constitutional Basis Permitting a District Court to Grant
a Writ of Habeas Corpus Solely on the Grounds of Actual Innocence.
In Herrera v. Collins, 506 U.S. 390 (1993), three Justices categorically held

that an actually innocent person should have his or her conviction overturned solely
on that ground regardless of the nature of the conviction and the sentence imposed.
This Court unanimously gave innocence a central role in habeas jurisprudence. The
majority made an “assumption” that such an innocence claim is cognizable, and went

22

so far as to label it as the “gateway through which a habeas petitioner must pass to
have his otherwise barred constitutional claim considered on the merits.” Id. at 404.
All of the Justices agreed that executing an innocent person would be a constitutional
violation and warrant federal habeas relief. Id. at 417.
The various opinions in that case shed clear light on the subject although
expressed in different terms by the Justices. One thing emerges, however. The Court
was not prepared to go all the way beyond an “assumption” to a definitive ruling
because it did not have to. The overwhelming proof that the petitioner was guilty
afforded the Court the opportunity to affirm the denial of the petition without
definitively articulating the holding of the three dissenters that a district court can
grant a writ of habeas corpus solely on a claim of actual innocence.
The Herrera Court’s assumption of such a right was based on a legion of prior
decisions containing opinions that support that conclusion. For instance, in Jackson

v. Virginia, 443 U.S. 307, 318-19 (1979), this Court articulated the standard when
reviewing the record: “whether any trier of fact could have found “that the essential
elements of the crime could be proven.
What is required, therefore, is an analysis of the facts. In Townsend v. Sain,
372 U.S. 293, 297 (1963), Chief Justice Warren, recognizing that an innocence claim
must be heard, wrote, “Where newly discovered evidence is alleged in a habeas
application, evidence which could not reasonably have been presented to the state
trier of facts, the federal court must grant an evidentiary hearing” (emphasis
supplied). Therefore, based upon the sufficiency of the petition in establishing a

23

substantial basis for the claim of innocence, the district court can grant the writ if
the facts in the petition clearly support innocence but, at minimum, must hold a
hearing. After listening to the witnesses, the district court can then rule on whether
any rational jury could find the petitioner guilty beyond a reasonable doubt. In the
instant case, as noted below, not one reviewing court has heard any witness testify

regarding actual innocence. This is especially egregious here since there really was
only one witness that inculpated Kimberly Hanzlik and he gave a prior inconsistent
statement to a prosecutor in which he exonerated Ms. Hanzlik – a statement that the
jury never heard due to the incompetence of trial counsel.

Herrera contemplated the necessity of a hearing and this was affirmed in the
Supreme Court’s later decision in In re Troy Anthony Davis, 557 U.S. at 952. Justice
O’Connor, in Herrera, pointed out the difference that was later to be revealed between
the two cases. First, she remarked as a foregone conclusion that executing an
innocent person is inconsistent with the Constitution. In concluding what was
obvious – that petitioner Herrera was undoubtedly guilty – she noted that the
majority merely exercised “restraint” by simply “assuming” that the right exists. Id.
at 420. Indeed, she and Justice White assumed that if the petitioner were to make an
exceptionally strong showing of actual innocence, execution would not go forward. In
fact, in Jackson, Justice White held that a writ should be granted if the petitioner
shows that he (or she) is “probably innocent.” Jackson, 443 U.S. at 314.
Justice O’Connor confirmed that the District Court did not hold a hearing
specifically because there was no doubt of the petitioner’s guilt. In her words, a

24

hearing would have been “futile.” Herrera, 506 U.S. at 424. She went on: “If the
federal courts are to entertain claims of actual innocence, their attention, efforts, and
energy must be reserved for the truly extraordinary case…” Id. at 427. The instant
case is so clearly an extraordinary one as Point II will plainly demonstrate. Justice
O’Connor wrote that the Supreme Court in Herrera reserved the ultimate question
for a later case in which it could be answered. “That difficult question remains open.”

Id. at 427. This petition for certiorari is surely that later case.
Indeed, three Justices did not have to wait. Justices Blackmun, Stevens, and
Souter, in dissent, viewed a habeas petition as an available remedy when an
innocence claim is made by a state petitioner. There need be no other constitutional
claim for a District Court to grant such a petition. As Justice Blackmun wrote: “In
other words, even a prisoner who appears to have had a constitutionally perfect trial
retains a powerful and legitimate interest in obtaining his release from custody if he
is innocent of the charge for which he is incarcerated.” Id. at 438. While Ms. Hanzlik
did not receive a constitutionally perfect trial – as demonstrated so clearly by her
lawyer’s ignorance of the law – she should at least be permitted to present witnesses
at a hearing so that the District Court can make an informed and intelligent decision
by finding, at minimum, that she is “probably” innocent although there will be, in the
end, no doubt that she is.
Indeed, such a hearing has been authorized by this Court. The unquestionable
significance of innocence in habeas jurisprudence was underscored when the
Supreme Court instructed the United States District Court for the Southern District

25

of Georgia to “receive testimony and make findings of fact as to whether evidence that
could not have been obtained at the time of trial clearly establishes petitioner’s
innocence.” In re Troy Anthony Davis, 557 U.S. at 952.
In this nation, thousands of convicted persons have been exonerated. The

National Registry of Exonerations, http://www.law.umich.edu/special/exoneration/
Pages/about.aspx. This is so despite the fact that, in many of these cases, they
otherwise received a fair trial. While the District Court below did not find a
constitutional violation emanating from the woeful inadequacy of trial counsel that
required a new trial – a decision that is difficult to justify – and, therefore, that Ms.
Hanzlik’s trial was “fair” (enough), that simply does not mean that she was actually
guilty. It is time for this Court to recognize the seemingly obvious conclusion that
incarcerating an innocent human being is cruel and unjust and, therefore, clearly in
violation of the Eighth Amendment as applied to the states through the Due Process
Clause of the Fourteenth Amendment.
“Concern about the conviction of an innocent person has long been at the core
of our criminal justice system.” Schlup v. Delo, 513 U.S. 298, 325 (1995). Though
there are procedural safeguards in the attempt to protect the innocent, the system
sometimes fails and innocent people are convicted. To date, DNA testing has led to
the exoneration of more than 375 individuals, and “[m]istaken eyewitness
identifications contributed to approximately 69%” of those overturned convictions.
Innocence Project, Eyewitness Identification Reform, http://www.innocenceproject
.org/eyewitness-identification-reform/.

26

Perhaps the most obvious demonstration of fallibility in the criminal justice
system is the recent creation of conviction integrity or review units, focusing on
“identifying and correcting past errors in convictions.” Over twenty-five of these units
exist in prosecutors’ offices across the country demonstrating that, contrary to the
confidence in criminal trials and Constitutional protections afforded to defendants,
even prosecutors’ offices concede that innocent individuals are sometimes convicted.
John Holloway, Conviction Review Units: A National Perspective, Univ. of Penn.
Law

School

Faculty

Scholarship,

http://scholarship.law.

Upenn.edu/faculty_scholarship/1614 (April, 2016).
Kimberly Hanzlik’s continued incarceration also violates the Due Process
Clauses of the Fifth and Fourteenth Amendments, which provide that no state shall
deprive any person of life, liberty or property, without due process of law. The
Supreme Court has held that due process proscribes the government from engaging
in conduct that is arbitrary, “shocks the conscience,” Rochin v. California, 340 U.S.
165, 172 (1952), or is “contrary to contemporary standards of decency.” Ford v.

Wainwright, 477 U.S. 399, 406 (1986). While “the twofold aim [of criminal law] is that
guilt that shall not escape or innocence suffer.” United States v. Nixon, 418 U.S. 683,
709 (1974), the “[c]oncern about the injustice that results from the conviction of an
innocent person has long been at the core of our criminal justice system.” Schlup v.

Delo, 513 U.S. at 325 (quoting In re Winship, 397 U.S. at 372 (1970) (Harlan, J.,
concurring)). Does it not “shock the conscience” to imprison an innocent person?

27

Similar to the Supreme Court’s continuous assumption that a freestanding
innocence claim exists, Schlup v. Delo, 513 U.S. 298 (1995) and House v. Bell, 547
U.S. 518 (2006), many lower federal courts assume the claim is cognizable. The
Eleventh Circuit “recognized that possibility of freestanding actual innocence
claims,” In re Davis, 565 F.3d 810. 817 (11th Cir. 2009). The Western District of
Oklahoma stated “[e]ven if a freestanding actual innocence claim in a non-capital
case were cognizable in a federal habeas action, a review of the record demonstrates
that Petitioner failed to make the required extraordinarily high showing.” Robinson

v. Dinwiddie, 2009 WL 2778657, at *5 (W.D. Okla. Aug. 31, 2009) See Tomlinson v.
Burt, 509 F.Supp. 2d at 776. Even after a procedurally fair trial, “a prisoner retains
a powerful and legitimate interest in obtaining his release from custody if he is
innocent of the charge for which he was incarcerated.” Kuhlmann v. Wilson, 477 U.S.
436, 452 (1986) (plurality opinion).
With that authority, based upon the facts and circumstances in this case, it is
clear that the State Court’s denial of Ms. Hanzlik’s innocence claim was unreasonable
and wrongly decided. It was contrary to, or involved an unreasonable application of,
clearly established federal law and was based on an unreasonable determination of
the facts in light of the evidence presented in the State court proceeding.
II.

Kimberly Hanzlik Is Actually Innocent Of The Crime For Which
She Is Serving A Life Sentence.
The record below makes it crystal-clear that Kimberly Hanzlik is completely

innocent of this crime. The critical witness was an accomplice to the murder who had
every reason to lie about Ms. Hanzlik’s involvement. His account of the murder

28

contradicts every other witness including the deceased’s wife who provided the only
other “evidence” that tended to connect her to the crime. To be sure, Ms. Brown’s
account, given over eight years later after multiple questioning by the cold-case
detective intent upon “clearing” the case, is totally unreliable. Claiming to have seen
Ms. Hanzlik’s face in the bar’s bathroom mirror for a few brief seconds, Ms. Brown’s
account – and especially her description of the woman she claimed to have seen – is
directly contradicted by David Thiong, the accomplice. Ms. Brown described the
woman as “full-faced” despite, as Thiong confirmed since he knew her, that Ms.
Hanzlik was so skinny in the face that she was called “Skeletora.” In addition, Ms.
Brown said it was at least about forty-five minutes after the bathroom sighting that
the shots were fired that killed her husband. Yet, Thiong, who should know, said it
was only minutes later.
Most critically, several weeks before the trial, the prosecutor presented an offer
to Ms. Hanzlik. If she would conform her testimony to Thiong’s – meaning admitting
she was present at Frenchy’s Bar and “fingered” Joseph Brown – she, like Thiong,
would also receive total immunity. Ms. Hanzlik could not do so as she would have
been committing perjury. Eleven years had passed after the murder during which
time she had had no contact with Meldish. If she were guilty, there was absolutely no
reason for her to have turned down the prosecutor’s offer. Indeed, even some innocent
defendant facing such a trial with life penalty implications might plead guilty and
avoid the possibility of a wrongly rendered guilty verdict.

29

Kimberly Hanzlik is completely innocent of the crime of murder of which she
was convicted. At minimum, pursuant to People v. Hamilton, 115 A.D.3d 12 (2d Dept.
2014), a landmark New York case, its progeny, and the Constitutions of the United
States and the State of New York, as reflected in decisions assuming such a freestanding claim of innocence is cognizable in a habeas petition, Justice April
Newbauer was required to and should have ordered a hearing in order to decide the
issue of innocence. And this is what United States District Court Judge Alvin
Hellerstein should have ordered and held as well. Clearly, there was sufficient, and,
indeed, overwhelming proof and documentation of innocence to support the holding
of a hearing. Such proof included: the deal made by Thiong to avoid prosecution, his
prior statement exonerating Ms. Hanzlik, the questionable testimony of Ms. Brown
which came out for the first time almost seven years later, the fact that Ms. Hanzlik
did not know Mr. Brown (so how could she “finger” him?), and the statements made
by Ms. Hanzlik to the polygraph examiner that she did not go to Frenchy’s that early
morning. Importantly, the second 440 Motion also brought out that Ms. Hanzlik had
been offered immunity if she would have testified against Meldish.
At such a hearing, Justice Newbauer or Judge Hellerstein would have had the
benefit of exploring the credibility of the critical witnesses involved in this unjust
prosecution. Unlike the trial, David Thiong would be finally questioned to explain his
exoneration of Ms. Hanzlik when speaking to the District Attorney only six months
after the murder. Because trial attorney Jonas Gelb failed to bring out that earlier
statement and cross-examine Thiong about this turnaround, no court, nor jury, has

30

yet had the benefit of this explanation. Such a hearing would allow the court to
explore issues that had never been dealt with before regarding critical facts that
support Ms. Hanzlik’s claim of innocence – the purpose and reasoning behind the

Hamilton decision and Supreme Court precedent. The circumstances herein, viewed
objectively, indicate the overwhelming likelihood – if not certainty – that a person
has been convicted of a crime that she did not commit.
Justice Newbauer denied the motion without a hearing on innocence. Judge
Hellerstein continued the injustice by also refusing to order a hearing despite
Supreme Court law – as noted above – that authorized such a fact-taking proceeding.
Indeed, those unpresented facts – Thiong’s prior exoneration and the offer and refusal
to accept immunity – are uncontroverted. They are not minor nor inconsequential –
especially compared to the weakness inherent in the State’s case.
Judge Hellerstein noted those deficiencies although denying the petition. As
he wrote, there are “weaknesses in the government’s case, ranging from Eileen
Brown’s delayed identification of Petitioner, to discrepancies as to the exact timing of
the shooting, to the testimony of Frenchy’s employees having not seen Petitioner on
the night of the murder, to the absence of physical evidence.” (Appendix B at 21).
And, without question, especially in light of these weaknesses, a hearing is
necessary where the proffered new evidence raises additional significant doubts
about the defendant’s guilt. Here, the proffered evidence – Thiong’s exoneration of
Ms. Hanzlik made in statements to the District Attorney and Ms. Hanzlik’s rejection
of immunity – are conceded to be true.

31

Throughout the recent history of countless exonerations of innocent
individuals, appellate courts had originally-and even on many occasions-upheld the
conviction until the new information was tested at a hearing after which the
defendant was finally exonerated. In Goldblum v. Klem, 510 F.3d 204 (3d Cir. 2007),
a case ironically cited by Justice Newbauer, in which a hearing was conducted, the
Third Circuit wrote about the court’s function when considering an innocence claim
which requires a probabilistic analysis:
a court must consider all of the evidence, old and new,
incriminating and exculpatory, without regard to whether it
would necessarily be admitted under rules of admissibility that
would govern a trial and assess how reasonable jurors would
react to the overall, newly supplemented record.

Goldblum v. Klem, 510 F.3d 204, 225-26 (3d. Cir. 2007) (internal quotations omitted).
Therefore, the only way for a court to come to a reasonable conclusion as to what the
jury would have done if they had heard all of the circumstances – some of which would
have come directly from the mouth of David Thiong – the critical witness whose
credibility was the only real issue in the case - is for that court to hear it all for itself.
It would then be in an informed position to put his complete testimony in perspective
and consider it with all the other evidence – old and new.
This notion, therefore, that Thiong’s prior statement to the District Attorney
was “half-consistent, half-inconsistent” is simply irrelevant and, in any event, not
accurate as it applies to Ms. Hanzlik. While it is true that Thiong maintained in all
his statements that Meldish was a guilty party, that was not the case with Ms.
Hanzlik. As to her, his prior statement was totally inconsistent. But, in any event,

32

whether one calls Thiong’s prior statement “half-consistent” or not, is based solely on
the statement itself and not a full-blown exploration of the reasons behind its making
and the nature of the man who made it. Without a hearing, a court’s judgment on its
impact can only be educated guesswork, not an evidentiary-based meaningful
assessment.
Without question, Justice Newbauer and Judge Hellerstein abused their
discretion in denying a hearing on the actual innocence claim. That is why their
decisions are constitutionally infirm. As a result, there has been an additional delay
in freeing Kimberly Hanzlik from prison where she is serving a life sentence for a
crime of which she is innocent. There should no longer be any delay.
This is not to suggest, of course, that in every case where a defendant moves
for post-conviction relief on the grounds of actual innocence, a court is obligated to
hold a hearing. Some will be very obviously frivolous. This, however, is not one of
those cases.
III.

The Courts Below Incorrectly Concluded That Trial Counsel’s
Admitted Ineffectiveness Did Not Warrant Overturning The
Conviction Nor The Granting Of A Writ of Habeas Corpus. District
Court, Therefore, Rendered A Decision Which Was An Unreasonable
Application Of Federal And State Constitutional Law And Involved
An Unreasonable Determination Of The Facts.

Kimberly Hanzlik was convicted on the testimony of David Thiong. Apart from
the most unreliable of testimony from Mrs. Joseph Brown, the deceased’s wife,
nothing presented at the trial in any way connected Ms. Hanzlik to the crime. But
this is not just a case of reasonable doubt. Kimberly Hanzlik is factually innocent of
the crime. (See Section II above). She was not at Frenchy’s. No witnesses who worked

33

or were present at the bar testified to her presence there. In addition, Ms. Hanzlik
rejected the prosecutor’s offer of immunity. David Thiong said she was innocent when
interviewed by a prosecutor in the presence of his own lawyer.
In the decision below, the District Court accepted that trial counsel, Jonas
Gelb, was ineffective for failing to bring before the jury that Thiong had exonerated
Ms. Hanzlik at that meeting in the District Attorney’s Office. Mr. Gelb’s
“explanation,” – that he did not know the identity of the author – as Judge Hellerstein
recognized, is “contrary to New York and Second Circuit law, which provide that
counsel need only have a “good faith” basis for posing a question on crossexamination.” (citing cases). Nevertheless, the Court ruled that the jury would not
likely have rendered a different verdict had they heard that Thiong had earlier stated
to law enforcement that Ms. Hanzlik was innocent. Judge Hellerstein’s view is a
totally unreasonable application of the law to the undisputed facts herein.
The law mandates that the undisclosed exculpatory evidence must be
examined in the context of the weakness of the prosecution’s case. Here, this was an
extremely thin case with a single witness whose credibility was as low as could be
imagined. In addition, Thiong lied at the trial when he claimed that he could not even
remember that noteworthy meeting with the District Attorney. In this case, the
unheard evidence was from this sole eyewitness who told a prosecutor: Kimberly
Hanzlik was not there.
Judge Hellerstein simply, but blatantly, misapplied the standard in Strickland

v. Washington, 466 U.S. 668, 694 (1984). He should have granted the writ as “there

34

is a reasonable probability that, but for counsel’s unprofessional errors, the
proceeding would have been different.” Indeed, how could a jury not entertain a
reasonable doubt once hearing that the only essential witness gave a completely
different factual account of the incident – one that left Ms. Hanzlik entirely out of the
crime – especially when considering all of the other indicia of his mendacity? Simply
stated, Thiong’s prior statement was not just additional impeachment that cast doubt
on the witness’s credibility. It was a complete exoneration of Ms. Hanzlik.
In addition, despite being aware that Ms. Hanzlik had been offered immunity,
the District Court did not even mention this circumstance as a factor in coming to his
decision. No guilty person would have ever turned down such an offer from the
prosecution in which her future freedom was guaranteed. Clearly, had the jury been
apprised of Ms. Hanzlik’s rejection of the offer, an acquittal would have been the
virtually certain verdict. See United States v. Biaggi, 909 F. 2d 662, 690-92 (2d Cir
1990) (“…a jury is entitled to believe that most people would jump at the chance to
obtain an assurance of immunity from prosecution and to infer from rejection of the
offer that the accused lacked knowledge of the wrongdoing… Where evidence of a
defendant’s innocent state of mind, critical to a fair adjudication of criminal charges,
is excluded, we have not hesitated to order a new trial.” (citing cases)); see F.R.E. 401.
Despite the powerful nature of this excluded exculpatory evidence, the District
Court decided that the verdict would not have likely changed even if the jury had
learned of it. That conclusion simply defies common sense and, indeed, the law. It is
almost guesswork. Rather than unwarranted speculation, the way in which to

35

determine what a jury will do if they hear this exculpatory evidence is to grant the
writ and have a new trial where – with effective counsel – the jury would finally hear
Thiong’s testimony that he had, clearly and specifically, once told the truth to law
enforcement – that Ms. Hanzlik was innocent because she took no part in the murder.
And they will also hear – which they did not because of the prosecutor’s misconduct
in not correcting the record – that Thiong did have a third meeting during which he
exonerated Ms. Hanzlik.
The standard, per Schlup v. Delo, 513 U.S. 298 (1995), put as a question is: is
it more likely than not that no reasonable juror would have convicted the defendant
in light of the new evidence? Murray v. Carrier, 477 U.S. 478, 487 (1986). In Schlup,
this Court recognized that the newly presented evidence – here the exoneration of
Ms. Hanzlik by the only real witness, David Thiong, – calls into question the
credibility of that witness. 513 U.S. at 330. Yet, although we have argued that the
uncontroverted statements omitted from the trial are alone sufficient to order a new
trial, Petitioner asked the District Court – if he felt it appropriate – to order a hearing
at which Thiong and others could testify. This is the procedure suggested by thenChief Justice Rehnquist despite his dissent in Schlup. Recognizing that a habeas
court must make credibility determinations, in appropriate cases, a district court
should conduct a limited evidentiary hearing to put the court in “as good a position
as possible to make the determination.” Id. at 342.
Indeed, no judge has ever heard any testimony regarding the taking and
implications of Thiong’s statement to law enforcement exonerating Ms. Hanzlik.

36

While Petitioner still strongly maintains that a hearing was not necessary in order
for the District Court to have granted the writ, at minimum, the petition should not
have been denied without at least having one.
However, it is clear that no hearing is really necessary because the undisclosed
evidence considered in comparison to the weak and contradictory so-called evidence
of guilt mandates a new trial for Ms. Hanzlik. First, as indicated, Ms. Brown provided
the most unreliable evidence one could imagine concerning the “identity” of a woman
who was purportedly in the bathroom the morning of the shooting. Yet, nowhere in
his opinion did Judge Hellerstein refer to – or even consider – that Ms. Brown’s
description of the woman she saw was completely at odds with the facial
characteristics of Ms. Hanzlik at the time; “heavy-set face” is totally the opposite of
one described as “skeletora.” In addition, if the jury had heard that Thiong had told
a prosecutor only months later that Ms. Hanzlik was not involved in the homicide, it
would have caused them as well to more likely reject Ms. Brown’s purported
“identification.”
Second, none of the other evidence before the jury pointed to Kimberly Hanzlik.
In fact, it pointed to her innocence. Both the bouncer, Jason Fox, and the bartender,
Mike Hangan, were in positions to see and monitor all who entered. Neither saw any
woman who came into the bar, stayed for a few short minutes, and then left. And
certainly no one in the bar – at any time – matched the description of Ms. Hanzlik.
The only way, we are told, that Meldish was able to get to Mr. Brown was by rushing

37

past the bouncer – an act that no woman also did a few minutes earlier. The District
Court gave short shrift to this important exculpatory evidence.
As the cases make clear, whatever so-called evidence inculpated a defendant must be
considered in comparison with the evidence that was not presented that exculpates a
defendant. Schlup, 513 U.S. at 332.
This Court’s precedents make it clear that many other conclusions arrived at
by the District Court were both unreasonable applications of clearly established
federal law and involved an unreasonable determination of the facts. For instance,
the District Court also incorrectly concluded that Thiong’s statements that the jury
did not hear were “entirely duplicative” of the impeachment evidence adduced at the
trial. See Appendix B (emphasis supplied). This is simply not the case. They were not
duplicative at all – apart from being entirely duplicative. If evidence duplicates other
evidence, it means that the nature of it is the same. The statements Thiong made six
months after the murder were not the same as his non-statements made in the two
previous interviews by law enforcement. At no time did the jury hear Thiong say that
Ms. Hanzlik was not at Frenchy’s – in other words – innocent! In a complete
turnaround, Thiong finally admitted his own involvement and left Ms. Hanzlik out.
The District Court also made the completely unwarranted conclusion that the
unheard testimony would have had no effect upon the jury since it would have
duplicated arguments already put before them. How could that be? Defense counsel
Gelb never argued in closing – because he could not have – that which he himself
knew but failed to bring out at the trial – that Thiong in a third statement had

38

exonerated Ms. Hanzlik. Concomitantly, he also could not – and did not – argue to
the jury that Thiong had committed perjury by not admitting that he actually had a
third meeting with law enforcement where he had made that statement.
It is abundantly clear that there are overwhelming factors in Kimberly
Hanzlik’s case that “undermine confidence in the verdict.” Kyles v. Whitley, 514 U.S.
419, 435 (1995). Without question, had the jury been apprised of the undisclosed
evidence – that David Thiong had told a prosecutor that Ms. Hanzlik was innocent
and that he lied at the trial about that statement – it is more likely than not that the
jury’s verdict would have been different. Kyles at 433; House v. Bell, supra at 538;

Murray v. Carrier, supra at 487; Schlup v. Delo, supra at 321 (“a constitutional
violation has probably resulted in the conviction of one who is actually innocent.”).
Therefore, this is clearly a case in which a Certificate of Appealability must be
granted. It is not simply a situation in which reasonable jurists could disagree that
there is “a substantial showing of the denial of a constitutional right.” 28 U.S.C. §
2253 (c)(2); Slack v. McDaniel, 529 U.S at 484. That is a given. Here, it is clear that
virtually most, if not all, reasonable jurists would disagree with the conclusion that
the exonerating evidence – whose absence was caused by a Fifth Amendment
violation of the right to the effective assistance of counsel – would not have had a
critical impact upon the jury’s verdict. Without question, at minimum, it certainly is
“debatable.” Buck v. Davis, 580 U.S. __, 137 S.Ct. at 774 (2017). In effect, Judge
Hellerstein held that, even if the jury had heard that the only actual witness had,
soon after the murder, completely exonerated Ms. Hanzlik, it would not have caused

39

a juror to have a reasonable doubt. Such an unwarranted conclusion constituted an
unreasonable application of the facts to the law.
CONCLUSION
The petition for a writ of certiorari should be granted and a Certificate of
Appealability should be issued.
Respectfully submitted,
IRVING COHEN

Counsel of Record
230 West 79th Street, Suite GRB
New York, New York 10024
Tel.: (212) 964-2544
Email: icohenlaw@msn.com

40

APPENDIX

APPENDIX A

Case 20-694, Document 40, 07/14/2020, 2883787, Page1 of 1

S.D.N.Y. – N.Y.C.
17-cv-6577
Hellerstein, J.

United States Court of Appeals
FOR THE

SECOND CIRCUIT
_________________

At a stated term of the United States Court of Appeals for the Second
Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 14th day of July, two thousand twenty.
Present:
José A. Cabranes,
Richard J. Sullivan,
Steven J. Menashi,
Circuit Judges.
________________________________________________
Kimberly Hanzlik,
Petitioner-Appellant,
v.

20-694

Superintendent Joseph Joseph, Bedford Hills
Correctional Facility,
Respondent-Appellee.
________________________________________________
Appellant moves for a certificate of appealability. Upon due consideration, it is hereby
ORDERED that the motion is DENIED and the appeal is DISMISSED because Appellant has not
“made a substantial showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c); see also
Miller-El v. Cockrell, 537 U.S. 322, 327 (2003).
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

APPENDIX B

Case 1:17-cv-06577-AKH Document 42 Filed 02/12/20 Page 1 of 24

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
------------------------------------------------------------- X

KIMBERLY HANZLIK,

ORDER DENYING HABEAS
PETITION

Petitioner,
17 Civ. 6577 (A~::..--=--..
,."!)(" "J} \1

v.

"==-=======;,

JOSEPH JOSEPH, Superintendent, Bedford
Hills Correctional Facility. ,

' )( I

'1"'./'f

Respondent
------------------------------------------------------------- X

ALVIN K. HELLERSTEIN, U.S.D.J.:

Petitioner Kimberly Hanzlik, currently incarcerated at the Bedford Hills
Correctional Facility in New York, was convicted in 2011 of second-degree murder, in violation
ofN.Y. Penal Law§ 125.25(1), and sentenced to an indeterminate term oftwenty-years-to-life in
prison. Thereafter, Petitioner brought two rounds of challenges to her conviction under N.Y.
C.P.L. § 440.10, both ofwhich were rejected by the New York state courts. Petitioner filed the
instant petition in 2017, seeking a writ of habeas corpus pursuant to 28 U.S.C. § 2254. After
this petition was fully briefed, the parties notified the Court of then-newly unsealed plea minutes
covering the 2007 guilty plea of one David Thiong- a central prosecution witness in Petitioner's
murder trial- to unrelated drug possession charges. Petitioner contended that the plea minutes
showed that Thiong's plea deal provided more incentive for him to testify against Petitioner than
was disclosed at her trial. I stayed the matter to enable Petitioner to pursue an additional statecourt challenge based on the minutes. See May 2018 Order, ECF No. 23. Petitioner' s motion
premised on the minutes was denied in April 2019 by the Bronx County Supreme Court, and the
First Department denied Petitioner leave to appeal that July. The parties then filed supplemental
briefing to address this most recent round of state court decisions, and I lifted the stay. For the
reasons set forth herein, the petition is denied.
1

Case 1:17-cv-06577-AKH Document 42 Filed 02/12/20 Page 2 of 24

Background

This petition concerns the murder of Joseph Brown, who was shot and killed
while out with his wife at Frenchy's Bar in the Bronx ("Frenchy's). Petitioner and her alleged
accomplice, then-boyfriend Joseph Meldish, were both convicted of the murder. The following
background, presented to the extent relevant to the disposition of this matter, is taken from the
records of Petitioner's trial and Petitioner's posttrial§ 440 motions.
A. The Murder Investigation

Joseph Brown was shot and killed at around 2:00a.m. on March 21, 1999 at
Frenchy's by a male shooter wearing a mask that hid the shooter's face. The New York Police
Department promptly began an investigation. The police interviewed several persons of
interest, including Eileen Brown, the wife of the late Joseph Brown, and David Thiong, an
acquaintance of both Mel dish and Petitioner who had, on occasion, provided Meldish and
Petitioner with drugs. In an interview conducted the night of the attack, Eileen Brown told the
police that the deceased's brother, Thomas Brown, had recently had an altercation with someone
by the name of"Meldish," but Ms. Brown did not at that time identify Petitioner as having been
present at Frenchy's.
On April1 4, 1999, Thiong was questioned by the police. Thiong denied having
any information about the homicide, and told the police that, on the night of the murder, he had
driven Meldish and Petitioner to the "HalfCrowne Bar." On August 12, 1999, Thiong was
questioned again by the police. Thiong again denied having any knowledge of the murder. On
September 14, 1999, Thiong was questioned for a third time, and this time related a different
story. Thiong told the police that on the night of the murder, Thiong had driven Meldish and
Petitioner to the Half Crowne Bar; that, thereafter, Thiong and Meldish had driven Petitioner to
her home; that Thiong and Meldish, without Petitioner, then drove back to Frenchy's, at which
2

Case 1:17-cv-06577-AKH Document 42 Filed 02/12/20 Page 3 of 24

time Meldish entered the bar, Thiong (still in his car) heard five gunshots from inside, and
Meldish returned to Thiong's car with a gun in his hand. This third interview was memorialized
in the handwritten notes of a detective present at the interview and in a typed "DDS" report. See
State Record ("SR") 231 (Interview Notes); SR 34 (DDS Report). 1 The parties agree that the
handwritten notes were produced to Petitioner before trial.
The homicide was not actively prosecuted for several years. In or around 2006,
Detective Kevin Tracy was assigned to Joseph Brown's cold case file. Detective Tracy
reviewed the case file and re-interviewed a number of individuals, including Eileen Brown and
Thiong. In August 2006, Detective Tracy met with Eileen Brown, at which time she recalled
that, on the night of the murder, she had seen a woman in the restroom who "did not look like
[she] fit in." In January 2007, Thiong was arrested on drug charges and for violation of his
parole, and was imprisoned in Westchester County. Detective Tracy visited Thiong in jail and,
during this meeting, Thiong changed his a~count of the events surrounding the murder. Thiong
told Tracy in relevant part that on the night of the murder, Thiong had driven both Meldish and
Petitioner to Frenchy's, and that Petitioner had participated in the murder by scouting Joseph
Brown's whereabouts in the bar and relaying that information to Meldish.
On August 16, 2007, Thiong attended a meeting with officials from the Bronx
District Attorney' s ("DA' s") office and Westchester DA' s office, including Bronx Assistant
District Attorney ("ADA") Christine Scaccia, the assistant who was to prosecute the case against
Petitioner through trial. Thiong agreed to testify against Meldish and Petitioner before a grand
jury and at trial, in exchange for immunity as to Joseph Brown's murder. Later on the same day
(August 16), (a) Thiong pleaded to a lesser drug offense in Westchester County and (b) Thiong' s

1
References to "SR" correspond with the "State Record" submitted as an attachment to the government's
answer, available at ECF Nos. 14-l through 14-5.

3

Case 1:17-cv-06577-AKH Document 42 Filed 02/12/20 Page 4 of 24

pending parole violation was withdrawn. The parties dispute whether Thiong's reduced drug
plea was the result of a three-way plea deal among the Bronx DA's office, the Westchester DA's
office, and Thiong, or whether the Westchester DA's office acted itself, in its own discretion, to
allow Thiong to plead to lesser charges. This claim is discussed in more detail, infra.
In November 2007, a Bronx County grand jury charged Petitioner with seconddegree murder, in violation ofN.Y. Penal Law §125.25(1).
B. The Trial
1. The Prosecution
The trial began on January 20,2011, almost 12 years after the homicide. The
prosecution theory was as follows. A few months before Joseph Brown was shot, Meldish and
Thomas Brown-Joseph's brother-got into an argument regarding Thomas's refusal to lend
Meldish money. Meldish, looking to exact revenge, planned to go to Frenchy's with the intent
to shoot Thomas. Thiong drove Meldish and Petitioner to Frenchy's. Petitioner entered the
bar, surveilled the clientele, and saw a man she believed to be Thomas Brown, but was in fact the
brother, Joseph. Petitioner returned to Thiong's car, told Meldish where in the crowded bar he
could find "Thomas," and then Meldish walked into the bar and shot Joseph, killing him.
Thiong was the central witness and testified to the following. Thiong had, prior
the murder, often supplied Meldish and Petitioner with crack cocaine. The night of the murder,
Thiong gave Meldish drugs, which Meldish and Petitioner consumed. Later that night, around
2:00a.m., Thiong drove the trio to Frenchy's at Meldish's direction. Thiong testified that, once
the car was parked nearby Frenchy's, Meldish and Petitioner began to whisper to each other:
We get to Frenchy's and Kim (Petitioner] is taking forever to do what she
supposed to do. So we sitting there. Like two, three minutes go by, I'm like,
Joey [Meldish], what's going on? And he nudges her like go ahead, go ahead
Kim. Do what you gotta do. They start whispering.
4

Case 1:17-cv-06577-AKH Document 42 Filed 02/12/20 Page 5 of 24

Trial Tr., ECF No. 14-9, at 348. Eventually, Petitioner exited the car, walked inside Frenchy's,
returned minutes later, and told Meldish where a man, a man thought by Petitioner to be Thomas
Brown, was sitting. 2 Meldish then entered Frenchy's to carry out the shooting:
[Petitioner] comes out and she says that Brown is in there sitting, somewhere
sitting on a stool. She said the exact stool . . . . Joey then puts the mask on, and
the gun. He gets out, he goes inside. The shots went off. I'm ducking in the
car because I didn't want anybody to identify me. . . . I almost pulled off. I'm
getting real nervous. . . . Kim tells me to wait, and eventually Joey comes out
within a minute and he points a gun at me, told me to drive.

ld. at 349. About one week after Joseph Brown's murder, Thiong spoke with Meldish, and
Meldish warned him that "he would kill [Thiong] or [his] family if [he] spoke up against the
Frenchy's homicide."
Eileen Brown was called by the prosecution to corroborate Thiong' s account. 3
She testified to the following. On the night of the murder, Eileen and Joseph Brown arrived at
Frenchy's, which was "very crowded" and noisy, and found a few "bar stools" in the back where
it was quieter. At some point, Eileen Brown went to use the women's restroom, and while there
saw a woman in the mirror "who did not look like [she] fit in th[e] bar" and appeared to be ''very
heavily on drugs." At trial, Eileen Brown was shown a photograph of Petitioner taken in 2002
and identified the person in the photograph as the woman from "the bathroom in Frenchy's."
Around 2:00a.m. the night of the murder, Eileen Brown heard a "commotion" and saw a man
wearing all-black clothing and a ski mask approach. The man pulled out a gun, said "This is for
you, Motherfucker," and started firing at Joseph Brown. Eileen Brown fled to a restroom for
2

The prosecution introduced several pieces of evidence to show that Thomas Brown and Joseph Brown
looked alike. For example, a photograph of Thomas and Joseph standing next to one another was introduced
as an exhibit, and both Thomas Brown and Eileen Brown testified that the brothers were similar in age, height,
and appearance.

3

Under New York Jaw, "[a] defendant may not be convicted of any offense upon the testimony of an
accomplice unsupported by corroborate evidence tending to connect the defendant with the commission of
such offense." N.Y. C.P.L. § 60.22.

5

Case 1:17-cv-06577-AKH Document 42 Filed 02/12/20 Page 6 of 24

cover; when she returned, she found Joseph Brown shot dead.
2. The Defense
The defense focused principally on discrediting Thiong and Eileen Brown.
Petitioner's trial counsel cross-examined Brown and Thiong, and introduced the testimony of
others present at Frenchy's the night of the murder.
On direct examination, the defense examined Mike Hangan, a bartender working
at Frenchy's the night of the shooting, and Jason Fox, a bouncer working at Frenchy's that same
night. Hangan testified that the bar was very busy that night and that a man with a mask fired
several shots at Joseph Brown. Hangan did not recall seeing Petitioner at Frenchy's that night.
Fox testified that the bar was crowded and that he was responsible for collecting entrance fees
from patrons. Fox testified that around 2:30a.m., a man walked by him without paying; that
Fox chased after the man into the crowd; and that the man then pulled out a gun and began to
fire. Like Hangan, Fox did not recall having seen Petitioner that evening.
On cross examination, defense counsel pressed Eileen Brown on the details of her
memory. Eileen Brown confirmed she had not mentioned seeing Petitioner in the restroom until
meeting with Detective Tracy, years later. Defense counsel asked Eileen Brown if, on the night
ofthe shooting, she had given "all the names of people" she recognized at Frenchy's, and she
responded that she had not, because she "was a nervous wreck." Eileen Brown conceded she
could not recall the exact time that she went to the restroom. Defense counsel also drew out on
cross that Eileen Brown remembered the shooting as taking place approximately 45 minutes after
seeing Petitioner in the restroom, which counsel later contrasted with Thiong's testimony that the
shooting had taken place within minutes of Petitioner returning to his car.
Defense's cross-examination ofThiong was extensive, spanning nearly 300 pages
of trial transcript. Defense counsel brought out to the jury, inter alia, that Thiong was a career
6

Case 1:17-cv-06577-AKH Document 42 Filed 02/12/20 Page 7 of 24

drug dealer; that Thiong's Westchester county drug arrest was serious and entailed a substantial
potential term of imprisonment; that Thiong had, in the two 1999 interviews, lied to authorities
. by saying that he did not have knowledge of the Frenchy's murder; and that Thiong had entered
into a plea deal (or deals) with the police that resulted in immunity for any conduct relating to the
murder and a sentence of time-served for the Westchester drug charges. Thiong made clear that
he understood that his testimony against Petitioner obtained for him (a) immunity for the murder
of Joseph Brown, and (b) a favorable disposition of the Westchester drug charges:
Q: Now, when you met with Ms. Scaccia, you are telling this Jury that the only
deal you got was immunity from prosecution on this homicide, correct?
A: Incorrect.

Q: Is that correct?
A: That's incorrect.
Q: It's incorrect, you got another deal, what other deal did you get?
A: Time served.

Q: You got the misdemeanor as part ofthe deal with Ms. Scaccia and the
Westchester County District Attorney's Office?
A: And immunity.
Q: And immunity. So, the misdemeanor was part of the deal, it wasn't just

immunity, correct?
A: Correct.
Trial Tr. at 480:18-481 :24. The Defense did not question Thiong on the 2007 interview with
law enforcement, in which Thiong had said that Meldish had carried out the murder on his own.
In the defense closing, counsel argued to the jury that Detective Tracy seemed to
have a "magical" effect on the ability of witnesses to remember details of the murder:
7

Case 1:17-cv-06577-AKH Document 42 Filed 02/12/20 Page 8 of 24

It seems that whenever he appeared, all of a sudden, he had this magical effect
and everything was put together. Witnesses remembered, the case was made and
we move on. He closes the case, which is limited for your consideration,
essentially, as far as my client, Kimberly Hanzlik, is concerned, to two people.
Trust David Thiong, rely on his testimony. Rely on the memory and accuracy of
Eileen Brown. If you have questions that are reasonable then you can't. Then
you have to find them not guilty.
Trial Tr., ECF No. 14-13, at 1083. Counsel contended that Thiong's plea deal amounted to a
"purchase of his testimony" against Petitioner:
Was this a purchase of his testimony? Well, nobody paid money for it, but there
are other ways to purchase testimony, aren't there? There [are] other ways to
purchase things. There is bartering: I give you something, you give me
something. In this particular case, instead of facing the ... felony, many, many
years in prison, he's out in eleven months [on time served], and what's the
condition for that? Tell us that Joey and Kim did it.

!d. at 1070.
3. The Verdict and Sentence
On February 16, 20 ll, the jury convicted Petitioner of second-degree murder.
On March 9, 2011, Petitioner was sentenced to a term of incarceration oftwenty years to life.

See Sentencing Tr., ECF No. 14-15, at 12:3-4. The First Department of the Appellate Division
unanimously affirmed the conviction on May 15, 2012, People v. Hanzlik, 945 N.Y.S.2d 229 (1st
Dep't 2012), and the New York Court of Appeals denied Petitioner's application for leave to
appeal on August 20, 2012, People v. Hanzlik, 19 N.Y.3d 997 (2012).
B. Posttrial Proceedings
1. First § 440 Motion
On June 25, 2013, Petitioner, via new counsel, moved pursuant to N.Y. C.P.L.

§ 440.10 to vacate her conviction on the ground that trial counsel, Jonas Gelb, was ineffective.
See SR 20, 39. Petitioner contended that Gelb's failure to impeach Thiong with the statements
made in his third interview with police- reflected in the handwritten notes and DDS report and

8

Case 1:17-cv-06577-AKH Document 42 Filed 02/12/20 Page 9 of 24

which inculpated Meldish but exculpated Petitioner-rendered Gelb ineffective. Gelb claimed
to have never received the DDS report (although a private investigator hired by Petitioner' s new
counsel claimed to have found the DDS report in Gelb's files, see SR 29).
The Bronx County Supreme Court denied Petitioner's motion on February 20
2014, reasoning in part that, whether or not Gelb had been given the DDS report, Petitioner had
not demonstrated that Gelb's failure to question Thiong was prejudicial:
[T]here is nothing to suggest that the introduction of the statement or questioning
of Thiong regarding the statement would have brought about a different result.

A review of the trial transcript indicates an exhaustive cross-examination by
counsel ofThiong. Counsel elicited that Thiong had made numerous statements
both exculpating and inculpating both defendant Hanzlik and co-defendant
Meldish. Counsel established that Thiong did not make a statement which
inculpated Hanzlik and Meldish until he was given immunity for his participation
in the murder. . . . Thus the jury was keenly aware of the inconsistencies and
discrepancies in the numerous statements made by Thiong.

[C]ounsel attempted to discredit Thiong's August 2007 statement to Det. Tracy,
in which he inculpated both defendants, by introducing two statements made by
Thiong to other detectives in April and August 1999, in which he exculpated both
of them; and by attributing the abrupt tum-around in Thiong' s statement to
improper influence or inducement by Det. Tracy. . . . Both counsel argued that
obviously Det. Tracy had induced Thiong to inculpate the defendants . . . . Thus,
the strategy was to present Thiong' s trial testimony as a manufactured, and hence,
unbelievable departure from his earlier truthful statements.

That position- that there was a complete turnaround in Thiong's account of the
incident once Det. Tracy got involved- would not have been advanced by a
report that showed that Thiong' s account had incrementally changed . ..
SR 12-1S. The First Department unanimously affirmed on April9, 201S, echoing the lower
court's finding

OQ.

prejudice:
9

Case 1:17-cv-06577-AKH Document 42 Filed 02/12/20 Page 10 of 24

[D]efendant has not satisfied the prejudice prongs of either a state or federal
ineffectiveness claim. Defendant has not shown that counsel's failure to use the
statement at issue deprived defendant of a fair trial, or that there is a probability
sufficient to undermine confidence in the outcome that use of the statement would
have led to a more favorable verdict. Under the circumstances, the jury would
likely have perceived the statement as merely another inconsistent statement made
by the witness long before he entered into a deal with the prosecutors. As the
trial actually unfolded, the jury chose to credit the witness's testimony, and
discredit the contradictory earlier narrative. It is not likely that introduction of a
half-consistent, half-inconsistent statement would have altered the jury's analysis.
People v. Hanzlik, 8 N.Y.S.3d 271, 272 (1st Dep't 2015) (quotation marks omitted). The Court
of Appeals denied leave to appeal. See People v. Hanzlik, 25 N.Y.3d 1164 (2015).
2. Second § 440 Motion
On March 28, 2016, after again retaining new counsel-counsel in this present
action-Petitioner filed a second § 440 motion seeking vacatur of her conviction, raising three
main arguments: (a) Gelb was ineffective; (b) the government withheld evidence in violation of
Brady v. Maryland, 373 U.S. 83 (1963); and (c) Petitioner was actually innocent. See SR 346.4
Petitioner contended principally that whether or not Gelb had been given the DDS report: Gelb
received the handwritten notes containing the same information; Gelb failed to cross Thiong on
the notes on the erroneous view that the notes could not be introduced as an exhibit; the assistant
ADA who opposed Petitioner's first § 440 motion had, during that round of § 440 proceedings,
procured an affirmation from Gelb confirming that Gelb's failure to cross Thiong on the notes
was due to his incorrect view as to their inadmissibility, not any strategy 5 ; and that the ADA had

4

While the Supreme Court has not expressly recognized "actual innocence" as a cognizable standalone habeas
claim, see McQuiggin v. Perkins, 569 U.S. 383,392 (2013), such relief is available in New York state habeas
proceedings, see People v. Hamilton, 979 N.Y.S.2d 97, 108 (2d Dep't 2014).
5

Ge1b's affirmation suggests that he believed he could not question Thiong on the handwritten notes because,
in the notes, "the author was unidentified and the document itself was undated." SR 422. This is contrary to
New York and Second Circuit law, which provide that counsel need only have a "good faith" basis for posing
a question on cross-examination. See, e.g., People v. Crawford, 256 A.D.2d 141, 142 (lst Dep't 1998)
(citing, inter alia, People v. Schwartzman, 24 N.Y.2d 241 (1969), cert. denied 396 U.S. 846; United States v.

10

Case 1:17-cv-06577-AKH Document 42 Filed 02/12/20 Page 11 of 24

failed to submit Gelb's affirmation to the court in violation of Brady.
The Bronx County Supreme Court denied Petitioner's motion on August 24,
2016, see SR 472, and denied her motion for reargument on December 8, 2016, see SR 501.
Leave to appeal that decision was denied.
3. Federal Habeas Petition
Petitioner filed the instant federal habeas action on August 29, 2017, claiming
ineffective assistance oftrial counsel, prosecutorial misconduct, and actual innocence. See ECF
No. 1. The government filed an opposition, see ECF Nos. 14, 15, and oral argument was set for
June 19, 2018, see ECF No. 20. Around six weeks before the scheduled argument, Petitioner
submitted a letter notifying the Court that the transcript ofThiong's 2007 plea to Westchester
County drug charges had been unsealed. Petitioner alleged that the unsealed minutes showed
that, despite the government's trial attorney-Bronx ADA Christine Scaccia-denying at trial
that there was any agreement on the part of the Bronx DA's office concerning the disposition of
Thiong's Westchester County charges, there was in fact a three-way agreement between Thiong,
the Westchester DA's office, and the Bronx DA's office. See ECF No. 21, at 1-2. Petitioner
pointed to a passage of the minutes in which Westchester county ADA Kevin Kennedy described
the meeting that took place between, inter alia, his office, the Bronx DA' s office, and Thiong,
shortly before Thiong's plea:
Earlier this morning there was a meeting had in the courthouse between the
representatives of the Bronx District Attorney's Office as well as ... the New
York Police Department. The understanding between all parties, which will
include the Bronx District Attorney's Office, is as follows: The defendant is to
give full and complete cooperation to the Bronx District Attorney's Office in an
ongoing homicide investigation. This shall include but is not necessarily limited
Concepcion, 983 F.2d 369, 391 (2d Cir. 1992). The record reflects that Gelb later asked the government
lawyer with whom he was communicating to amend this affirmation, which led to Gelb filing a second
affirmation that, among other things, no longer included the language indicating that Gelb believed he was not
allowed to introduce the notes. See SR 429.

11

Case 1:17-cv-06577-AKH Document 42 Filed 02/12/20 Page 12 of 24

to his truthful, full testimony before the Bronx County Grand Jury in the near
future. And of course if necessary trial testimony. If his cooperation is
completed, we will, based on a representation of the Bronx District Attorney's
Office that that was so, allow him to withdraw his previously entered plea to
criminal possession of a controlled substance in the fifth degree, have him
withdraw that and just proceed to sentence on the possession. . . . It's
represented by the Bronx District Attorney's Office that they will request a
withdrawal of the charges of the parole violation.
/d. at 2 (quoting David Thiong Plea Tr., ECF No. 33-2, at 4-5) (emphasis added by Petitioner).

Petitioner contrasted this description ofThiong's cooperation arrangement with Scaccia stating
at the trial that any deal with Thiong as to his Westchester drug charges was made under the sole
prerogative of the Westchester DA's office:
The Court: So, the question Ms. Scaccia to you is, whether the deal [between the
Bronx DA's office and Thiong] included this . .. time served and a misdemeanor
in Westchester or not.
Ms. Scaccia: No, they were bringing him up there to take the deal that day.... I
went over there and made the deal on the murder ....
The Court: ... Your understanding was with Mr. Thiong did not include any plea
to a misdemeanor on a Westchester case?
Ms. Scaccia: That was their deal with him. And, the one thing they did ask me if
I had any opposition to it and I said no, he can be sentenced, they can do whatever
they want.
Trial Tr. at 494 (cited at ECF No. 1).
The government filed a response letter noting, inter alia, that because "the plea
had been taken in Westchester County and had been entered under seal and not unsealed until
recently," the Bronx District Attorney had only obtained it "about a week" before Petitioner filed
her letter notifying the Court of its existence. ECF No. 22, at 1.
On May 18, 2018, I issued an order staying the case to allow Petitioner to pursue
a new claim in state court based upon the newly released plea minutes. See May 2018 Order,
ECF No. 23. In the order, I explained that a stay was the proper response to new evidence that
12

Case 1:17-cv-06577-AKH Document 42 Filed 02/12/20 Page 13 of 24

had not yet been considered by the state courts:
[I]n federal habeas proceedings of this kind, I am not permitted to consider
materials that have not yet been reviewed by the state court that adjudicated
petitioner's claim. As the Supreme Court explained in Cullen v. Pinholster, 563
U.S. 170, 181 (2011), "review under§ 2254(d)(1) is limited to the record that was
before the state court that adjudicated the claim on the merits.". . . . I am bound
by this precedent.

!d. at 6-7. I noted that while the plea minutes provided Petitioner with a "colorable" claim, she
would still "ultimately have to demonstrate that, taken cumulatively with the remainder of the
evidence, there is a reasonable probability that the result of her case would have been different."

/d. at 7-8 (emphasis added) (quotation marks omitted). I instructed Petitioner to promptly file a
new claim in state court and cautioned that, for the time being, this "Court expresse[d] no views
on the merits of the underlying petition as it was originally presented." /d. at 2 n.1.
4. Third§ 440 Motion
Petitioner filed her third § 440 motion in June, 2018, citing the unsealed plea
minutes as evidence that Thiong, ADA Scaccia (on behalf of the Bronx DA's office), and the
Westchester DA's office, entered into a "global resolution of all ofThiong' s pending matters[,]
which included his case in Westchester." Cohen Aff. in Support of§ 440 Motion, ECF No. 331, at ~ 16. The government opposed, citing a sworn statement from Scaccia that she had never
asked the Westchester County DA's office to take a particular action on Thiong's Westchester
charges, that her offer of immunity on the murder was independent, and that she never saw the

plea transcript and was thus unaware of comments made therein implying that the Bronx DA' s
office was part of any three-way deal. See Gov't Opp. Mem., ECF No. 36-2, at 33-34.
The Bronx County Supreme Court scheduled a hearing on Petitioner' s motion.
See Nov. 16 2018 Order Granting Hearing, ECF No. 33-3. The court limited the hearing to,
inter alia, questions regarding the extent to which (1) "the Bronx District Attorney's office was
13

Case 1:17-cv-06577-AKH Document 42 Filed 02/12/20 Page 14 of 24

involved in any offers ... in related proceedings," and (2) "any facts not disclosed or belatedly
disclosed affected the ability of the defense to challenge the witness's credibility at trial." /d. at
2. The hearing was held over three days spanning from late January to mid-February 2019.
See Hearing Tr., ECF No. 33-4.
i. Petitioner's case

Petitioner opened by calling her trial counsel, Jonas Gel b. Gelb testified that at
the time of trial, he was aware that Thiong had been given immunity for the murder and that
Thiong was simultaneously facing drug charges in Westchester. /d. at 7:12-21. Gelb testified
that Scaccia had informed him that "the only promise or the only thing she was part of or knew
about was the murder case ... in the Bronx, but she was not part of any sentence that he received
in Westchester." /d. at 7:23-8:1. Gelb recalled that Thiong "was cross examined extensively
about the fact that he received such a light sentence and such an ultimate deal based upon his
record and the charges against him in Westchester." /d. at 8:2-4.
Gelb affirmed that Scaccia indicated to him that "she had no involvement in ...
the disposition of the Westchester County case," id. at 9:7-10, and that ifGelb had known of any
joint cooperation agreement between Thiong and both DA's offices, he would have "used that
information" to "ask[] more questions," id. at 10:25-11 :5, 13:12. However, Gelb conceded he
had "questioned Mr. Thiong quite vigorously regarding the disposition of that Westchester case,
which seemed like the greatest sweetheart deal," id. at 11:10-12, and, when asked on cross, Gelb
was unable to provide examples of additional questions he would have asked on the minutes:
Q: So what else would you have asked him that you didn't have the ability to ask
him, but you didn't know about a deal?
A: Well, I think if I had had, and I believe they were sealed at the time, so we
weren't able to get his plea minutes out of Westchester, that's my recollection,
and if that's the case, I would have gone into that plea and seen what it said.
14

Case 1:17-cv-06577-AKH Document 42 Filed 02/12/20 Page 15 of 24

Q: Okay. I'm going to ask again, sir, what questions would you have asked that
you did not have the ability to ask[?]
A: ... [I]f I had the actual deal exactly what it said, and what promises were
made, I think I would have gone into more detail about it. ... well, you're asking
me what I would have said, so I'm telling you.... Now, if you're asking me
what I would have asked, it depends on what would have been revealed as to the
exact details of the promise.

/d. at 17:11-18:19.
Next, ADA Scaccia was called to testify. Scaccia testified that at the time she
met Thiong, he was already in custody in Westchester, and that Scaccia needed to communicate
with the Westchester DA's office in order to set up a meeting with Thiong. See id. at 36:17-23.
Scaccia recalled speaking with the Westchester DA's office to schedule a meeting with Thiong,
but did not recall details from these conversations. See id. at 37:9-20. Scaccia testified that on
the day that Thiong was set to appear in Westchester court, Scaccia met with Thiong, Thiong's
attorney, Westchester ADA Patrick Moore, and Bronx Detective Tracy, at which time Thiong
was given a "queen for a day" deal to speak freely about the events surrounding the murder.
Scaccia testified that she decided during this meeting that she would like to call Thiong as a
witness in the murder trial ; that she left the meeting before Thiong's plea; and that she did not
attend Thiong's plea. See id. at 46-49.
Scaccia testified repeatedly that there was no agreement on her part that Thiong
was to receive a benefit from the Westchester DA's office on his drug charges. See, e.g., id. at
62:21-22 ("Whatever Westchester County did with Mr. Thiong was Westchester County's deal
with Mr. Thiong."); 67:14-17 ("Q: Did ... Mr. Thiong, during cross examination, state that in
addition to immunity, he had received time served on the drug charge, do you recall that? A:
That was his Westchester deal ... "); 79:23 ("I was not involved in that at all."); 82:5-7 ("Q: And
15

Case 1:17-cv-06577-AKH Document 42 Filed 02/12/20 Page 16 of 24

as far as you were concerned, whatever Westchester wanted to do was up to them? A: Yes.").
Scaccia affirmed that she was not aware that reference was made at Thiong's Westchester plea
hearing to his promised testimony in the homicide trial. See id. at 87:4-15. Finally, Scaccia
testified that, prior to Thiong's plea, she received a call from a Westchester ADA asking whether
it would interfere with Scaccia's prosecution of the homicide if the ADA were to offer Thiong
some kind of a deal on the Westchester drug charges. Scaccia believed this inquiry was made as
a "professional courtesy." See id. at 94:11; id. at 101 :3-5 ("[H]e knows he has a defendant I'm
interested in using as a witness, so he reached out and was asking if I had any objection to it
going forward.").
Next, Murray Richman, the attorney who represented Meldish at trial was called.
Richman testified that, at the time of the trial, Scaccia advised the defense that she had gone to
see Thiong in Westchester County, but that "there was no deal" between her and Thiong as to the
Westchester drug charges. See id. at 118:11-15.
ii. The Government 's case

The government's only witness was Patrick Moore, who was chief of the gang
violence and firearms bureau in the Westchester DA's office at the time ofThiong's plea. See
id. at 131:1-18. Moore testified that he was present at the August 16, 2007 meeting with Thiong

and that he did not recall any discussion with Scaccia at that meeting regarding a disposition of
the Westchester drug charges. See id. at 133:15-17. Moore was asked to review Thiong's case
file from Westchester, and testified that the file indicated that there were "issues" with the case
against Thiong that were recorded before any contact with Scaccia, e.g., a confidential informant
upon which the government would need to rely for prosecution ofThiong's drug charges was not
willing to cooperate. See id. at 134:1-24. Moore testified that in such circumstances, it would
not be unusual to offer the defendant a plea to a lesser charge. See id. at 136. Moore testified
16

Case 1:17-cv-06577-AKH Document 42 Filed 02/12/20 Page 17 of 24

that he was not aware of Scaccia asking him or anyone in the Westchester DA's office "to do
anything for [Thiong] on the Westchester case." Id. at 136:20-22. Moore was not present at
Thiong's actual plea hearing. See id. at 143:5-9.
On cross, Moore was shown notes from the case files of the Westchester DA' s
office. One ofthe notes, made by Kevin Kennedy, the Westchester ADA who was present at
Thiong's plea, said "CI [confidential informant] to provide information regarding a homicide
that took place several years ago in Bronx allegedly by the target in exchange for a reduced plea
and sentence on Westchester drug possession case." Id. at 142:5-8. Moore testified that
Kennedy was the ADA present at Thiong's plea hearing. See id. at 143:8-11.
iii. Ruling

On AprilS, 2019, the Bronx County Supreme Court denied Petitioner' s motion.
The court commented that it was "unsettling" that Scaccia had "attempt[ed] to insinuate during
her summation that she indeed could have offered the defendant something in his Westchester
case in exchange for his testimony, while simultaneously denying the existence of any influence
over the Westchester outcome," and that it was "farfetched" that Scaccia did not recall the details
of her conversation with the Westchester ADA aside from arranging a meeting with Thiong.
April 8, 2019 Decision, ECF No. 33-6, at 14-15. Nonetheless, the court reasoned that while
Thiong's favorable plea in Westchester county might "suggest a potential violation of Brady" if
in fact the prosecution failed to disclose a three-way agreement between the Westchester DA,
Bronx DA, and Thiong, other possibilities were just as likely:
[It is] also conceivable that the two offices had separate agendas, or that the
Westchester DAjust chose to accommodate Bronx without it being a deal. . . .
The only aspects of the situation which have now surfaced are the Westchester
ADA's running notes and the August 16,2007 [sealed plea] transcript, which
reveals the ADA's characterization of the plea to the Westchester j udge. ADA
Scaccia repeatedly affirmed that she was not present at the plea or sentencing of
Thiong during the trial, in her affirmation and at the 440 hearing. She could not
17

Case 1:17-cv-06577-AKH Document 42 Filed 02/12/20 Page 18 of 24

have known what the Westchester prosecutor actually said to the court.

It was not incumbent on the Bronx Assistant District Attorney to explain how
notes that could imply a three way deal were in the Westchester ADA's file unless
of course she knew. The defendants did not call ADA Kennedy. Neither did
defendants call Thiong's attorneys as to the negotiations that ensued after ADA
Scaccia left the Westchester courthouse. A hearing court is left to conjecture
whether the Westchester DA's office acted independently because of issues in
their case, or as a courtesy to the Bronx DA, or for other reasons.

/d. at 11, 14. The court also noted that Petitioner's counsel had "vigorously" attacked Thiong's
credibility at trial due to his deal with the Bronx DA's office and his favorable Westchester plea,
and that further exploration of a three-way deal would not have changed the picture for the jury:
[T]he defense had a full opportunity to cross examine the witness at trial and did
so vigorously. Both defense attorneys during their cross examinations asked
Thiong if his understanding of his cooperation deal included a plea to a
misdemeanor on his Westchester narcotics case and time served plus ninety days
on his violation of parole. Thiong agreed that he received other benefits beyond
immunity. Thiong may have believed based upon the timing of the plea and a
conjoined meeting with both District Attorney's offices that his cooperation
agreement included immunity as well as the Westchester plea as evidenced by his
testimony during the trial. But both defense counsel amply cross examined
Thiong's credibility based upon Thiong's understanding of the various parameters
of the cooperation agreement. In their summations, both counsel attacked
Thiong's credibility based upon his plea deal. The jury was able to consider each
of these issues in conjunction with Thiong's credibility and, nonetheless, found
each of the defendants guilty.

/d. at 12-13 (quotation marks omitted).
iv. Postruling procedural history

The Appellate Division's First Department denied leave Petitioner leave to appeal
on July 23,2019. See People v. Hanzlik, 2019 WL 3294947,2019 N.Y. Slip Op. 75876(U) (1st
Dep' t, July 23, 2019). That October, Petitioner notified the Court of the First Department's
ruling, and I lifted the stay and ordered supplemental briefing. See ECF Nos. 24, 29.

18

Case 1:17-cv-06577-AKH Document 42 Filed 02/12/20 Page 19 of 24

Discussion
Petitioner's federal habeas petition raises three challenges to her conviction: (1)
prosecutorial misconduct; (2) ineffective assistance of counsel; and (3) actual innocence. None
of these claims warrants disturbance of her conviction, for the reasons that follow.
A writ of habeas corpus "shall not be granted with respect to any claim that was
adjudicated on the merits in State court proceedings unless the adjudication of the claim ... (1)
resulted in a decision that was contrary to, or involved an unreasonable application of, clearly
established Federal law, as determined by the Supreme Court of the United States; or (2) resulted
in a decision that was based on an unreasonable determination of the facts in light ofthe
evidence presented in the State court proceeding." 28 U.S.C. § 2254(d). The most recent state
court ruling clearly adjudicated Petitioner's claim ofprosecutorial misconduct on the merits, but
did not address Petitioner's claims of ineffective assistance and actual innocence. Although the
two earlier rounds of state court decisions denying Petitioner's § 440 motions expressly rejected
her ineffective assistance and actual innocence claims, for the avoidance of doubt I assume that
the most recent decision is operative for purposes of review, and review these claims de novo. 6
I begin by rejecting Petitioner's freestanding claim of actual innocence. As the
Second Circuit recently explained: "Actual innocence is not itself a constitutional claim-except

6

The Supreme Court recently held that, in§ 2254 petitions, federal courts are to "'look through' the state
appellate courts' ' unexplained decision[s] to the last related state-court decision that does provide a relevant
rationale."' Scrimo v. Lee, 935 F.3d 103, Ill (2d Cir. 2019) (quoting Wilson v. Sellers, 138 S. Ct. 1188, 1192
(2018)). Here, however, Petitioner-who does not specifically address the correct standard of review in her
most recent round of briefing- seems to suggest that the unsealed plea minutes changed the complexion of her
ineffective assistance claim vis-a-vis the evidence as presented in her earlier § 440 petitions, see, e.g., Reply
Mem. in Support of§ 2254 Pet., ECF No. 39, at 2, making it perhaps arguable that less deference should be
applied than that commanded by AEDPA. Cf Rompi/la v. Beard, 545 U.S. 374, 390 (2005) ("Because the
state courts ... never reached the issue ... we examine this element of the Strickland claim de novo."). The
Court need not resolve this question because, for the reasons stated above-the-line, even under de novo review,
Petitioner's ineffective assistance claim fails.

19

Case 1:17-cv-06577-AKH Document 42 Filed 02/12/20 Page 20 of 24

perhaps when raised in the context of an Eighth Amendment challenge to a capital sentence."

Hyman v. Brown, 927 F.3d 639, 656 n.20 (2d Cir. 2019) (quotation marks omitted). An actual
innocence claim, "[e]ven if successful, ... cannot itself afford [Petitioner] habeas relief from [a]
state conviction," and instead is only capable of-in extraordinary circumstances-"open[ing] a
gateway to federal review of an otherwise procedurally barred" constitutional claim. /d. at 655.
Here, Petitioner's claim is not procedurally defaulted, 7 because it was made within one year of a
"factual predicate" of her claims, i.e., the unsealed plea minutes, and thus the actual innocence
gateway is irrelevant. See 28 U.S.C. § 2244(d)(l)(D).
Despite the convolution ofthe factual and procedural history of Petitioner's
claims of ineffective assistance and prosecutorial misconduct, the legal resolution of these claims
is straightforward: These claims must be rejected for the simple fact that she was not prejudiced
by any of the trial deficiencies she alleges. To succeed on a claim of ineffective assistance or
prosecutorial misconduct, a claimant must show that she was prejudiced. See Strickland v.

Washington, 466 U.S. 668, 687 (1984) (one must show that (1) "counsel's performance was
deficient," and (2) "the deficient performance prejudiced the defense"); Strickler v. Greene, 527
U.S. 263, 281-82 (1999) (to make out a claim under Brady, "[t]he evidence at issue must be
favorable to the accused"; that "evidence must have been suppressed"; and "prejudiced must
have ensued"). To establish prejudice under Strickland, the petitioner must show "that there is a
reasonable probability that, but for counsel's unprofessional errors, the proceeding would have
been different." 466 U.S. at 694. As to prejudice under Brady, we ask if the evidence was
"material," that is, we ask whether "there is a reasonable probability that, had the evidence been

7

The government argues that Petitioner's claims are untimely. See Gov't Opp. Br., ECF No. 15, at 29, Gov't
Supp. Opp. Br., ECF No. 37, at 3. But while the government focuses its efforts on contesting Petitioner's
ability to make a showing of actual innocence, the government ignores the statutory basis for filing a petition
after new evidence is discovered, see 28 U.S.C. § 2254(d)(l)(D), and the resultant significance ofthe plea
minutes being unsealed in the spring of2018.

20

Case 1:17-cv-06577-AKH Document 42 Filed 02/12/20 Page 21 of 24

disclosed to the defense, the result of the proceeding would have been different." United States
v. Orena, 145 F.3d 551, 557 (2d Cir. 1998) (quotation marks omitted). "It is well settled that
where ample ammunition exists to attack a witness's credibility, evidence that would provide an
additional basis for doing so is ordinarily deemed cumulative and hence immaterial." !d. at 559;
see also United States v. Avellino, 135 F.3d 249, 257 (2d Cir. 1998); United States v. Jackson,
345 F.3d 59, 74 (2d Cir. 2003) ("A new trial is generally not required ... when the suppressed
impeachment evidence merely furnishes an additional basis on which to impeach a witness
whose credibility has already been shown to be questionable.") (quotation marks omitted).
The evidence Petitioner claims was either (a) not properly examined by trial
counsel or (b) shrouded by the prosecution, would have been entirely duplicative of evidence and
arguments already put in front of the jury. Petitioner claims that trial counsel was ineffective for
failing to cross Thiong on his third interview with the police, in which he inculpated Meldish but
exculpated Petitioner. But as detailed supra, trial counsel cross-examined Thiong thoroughly, in
the process making it clear to the jury both that Thiong has partaken in an abundance of criminal
conduct, and that Thiong had twice falsely told the police that he knew nothing about the murder.
Trial counsel also ably drew the jury' s attention to a number of weaknesses in the government's
case, ranging from Eileen Brown's delayed identification of Petitioner, to discrepancies as to the
exact timing of the shooting, to the testimony ofFrenchy's employees having not seen Petitioner
on the night ofthe murder, to the absence of physical evidence. As the New York state court
decisions observed, questioning on Thiong's third interview would have been repetitive of the
evidence showing that Thiong had given multiple precursor accounts of the murder that did not
comport with his final story, and may also have undercut the theory that Thiong constructed a
narrative wholly under the influence of Detective Tracy. It was not error to reject a Strickland
claim based upon these facts.
21

Case 1:17-cv-06577-AKH Document 42 Filed 02/12/20 Page 22 of 24

As for the Brady allegations, Petitioner claims that the prosecution concealed
evidence either (a) having to do with Thiong's third interview with police, or (b) Thiong's plea
deal on the Westchester drug charges. 8 To start, I note that, as the state court observed, two
individuals present at the meeting between the Bronx DA's office, Westchester DA' s office, and
Thiong, testified that the Bronx DA's office was not involved in resolving Thiong's Westchester
drug charges. What's more, Petitioner did not call as a wit~ess ADA Kennedy, the ADA whose
comments at Thiong's plea suggested a possible three-way deal and, as a result, predicated the
stay imposed by this Court. Nor did Petitioner introduce testimony from Thiong's counsel or
other parties present at the August 16, 2007 meeting. This, the state court reasoned, precluded a
finding that there was a three-way deal to be concealed. These facts alone support rejection of
the Brady claim concerning an alleged arrangement with the Westchester and Bronx DA's
offices.

See 28 U.S.C. § 2254(e)(l) ("In a proceeding instituted by an application for a writ of

habeas corpus by a person in custody pursuant to the judgment of a State court, a determination
of a factual issue by a State court shall be presumed to be correct. The applicant shall have the

8

Petitioner also seems to attempt a Brady claim based on the failure to disclose Gelb's affirmation, in which
Gelb stated that he believed he could not introduce the handwritten notes documenting Thiong's third
interview with law enforcement at trial. This argument essentially duplicates the claim that it was prejudicial
for Petitioner to conceal evidence ofThiong's interview with the police. For the same reasons, as explained
above-the-line, that withholding of information on Thiong's third interview with police was immaterial, so too
was Gelb's view as to admissibility of such information immaterial. I also note that, while this issue is not
addressed by Petitioner, the Supreme Court has declined to extend Brady to postconviction state
proceedings--the government's alleged failure to disclose Gelb's affirmation took place in the context of
Petitioner's postconviction § 440 motions. See District Attorney's Office for Third Judicial Dist. v. Osborne,
557 u.s. 52, 69 (2009).
Finally, Petitioner makes a secondary Brady claim that the prosecution "failed to correct" Thiong's testimony
that "he did not know if he ever spoke again to law enforcement" after his second interview, Pet. Supp. Mem.,
ECF No. 33, at 7, but this claim is internally contradictory and contrary to the trial transcript, as it is clear that
Thiong simply was unclear on the timing of any further discussions with law enforcement. See Trial Tr. at
488-89. This did not give rise to an duty on the part of the prosecutor to intervene. And in any case, because
this testimony concerned Thiong's much-discussed (in this order) third interview, even if the testimony were
false it would "not rise to the level of a [Constitutional] violation" because there was not a "reasonable
likelihood that the testimony affected the judgment of the jury" or "the outcome of the trial." Mills v. Scully,
826 F .3d 1192, 1195 (2d Cir. 1987).

22

Case 1:17-cv-06577-AKH Document 42 Filed 02/12/20 Page 23 of 24

burden of rebutting the presumption of correctness by clear and convincing evidence.").
But assuming arguendo that this evidence was so concealed, such concealment
was not prejudicial. For one, evidence ofThiong's third interview would not have meaningfully
changed the mix of evidence presented to the jury for the reasons already discussed. And as to
the Westchester drug deal, here too the jury already had the full argument that Petitioner claims
she was deprived of making. Trial counsel's cross underscored the seriousness ofthe charges
against Thiong and made clear that Thiong had been guaranteed immunity on the murder charge.
Not only that: Thiong testified that he understood his plea deals with the Bronx and Westchester
DA's offices to provide not just for immunity on the murder, but for a plea oftime served on his
drug offenses. Whether this deal did or did not involve the Bronx DA's office, the jury was
made aware that Thiong gave his testimony with an expectation of favorable treatment on the
Westchester drug charges. Indeed, trial counsel referred to the favorable Westchester result in a
long closing statement that argued first and foremost that Thiong' s testimony was "purchased."
In short, the "main thrust [the] defense" was to challenge Thiong's credibility, but the "jury was
unimpressed." Jackson, 345 F.3d at 75. To reject the Brady claim was to reasonably apply
federal law as determined by the Supreme Court. See 28 U.S.C. § 2254(d).
To summarize: Even if counsel's performance fell below an objective standard of
reasonableness, and even if the details of a three-way deal and Thiong's third interview with the
police were improperly withheld by the prosecution, counsel' s performance was not prejudicial
and the withheld information was not material. The habeas petition must therefore be denied.
Conclusion
For the reasons stated herein, the petition is denied. As Petitioner has not made a
substantial showing of the denial of a constitutional right, a certificate of appealability will not
issue. See 28 U.S.C. § 2253(c); Matthews v. United States, 682 F.3d 180, 185 (2d Cir. 201 2).
23

Case 1:17-cv-06577-AKH Document 42 Filed 02/12/20 Page 24 of 24

The Clerk is directed to terminate the motion (ECF No. 33) and close this case.
SO ORDERED.
Dated:

New York, New York
February /l., 2020

24

APPENDIX C

SUPR EME COU RT OF THE STAT E OF NEW YOR K
COUNTY OF BRONX
THE PEOP LE OF THE STAT E OF NEW YOR K,

440 Heari ng
DECI SION & ORD ER

-againstInd. # 4344/2007
JOSE PH MEL DISH
KIMB ERLY HAN ZLIK ,
Defendants.

APRIL A. NEW BAUE R, J.:

On Nove mber 5, 2018, this court granted a hearing on post-c
onviction motio ns broug ht by
defendants Josep h Meldi sh 1 and Kimb erly Hanzl ik2 • Pursu ant
to Criminal Procedure Law (CPL )
Procedural Histor y regarding defendant Meld ish:
On February I 6 201 I in Bronx County, the defendant M eld ish
was convicted of murder in the
second degree. On Octob er 18, 201 I , following Justice Webb
er's denial of defendant's CPL 330 motion
to set aside the verdict, the defend ant was sentenced to a term
of imprisonment of twenty-five years to
life.
2

Procedural Histor y regarding defendant Hanzlik:
On February 16, 2011 in Bronx County, the defend ant Hanzl
ik was convicted of murde r in the
econd degree. On March 28, 20 II, after Justice Webb er
denied defendant's CPL 330 motion to set aside
the verdict, she was sentenced to a term ofimprismm1ent of twenty
years to life. On May 15, 2012, the
First Department una11imeusly affmn ed her conviction (Peop
le v. Hanzlik, 95 A.D3d 601 (I st Dept
2012)) . On August 20, 2012, the Court of Appeals denied leave
to appeal the First Depar tment' s decision
(People v. Hanzlik, I 9 NY3d 997 (20 12)). On July I 4, 2013,
the defendant filed her first CPL §440
motion to vacate the conviction on the grounds of ineffective
assistance of counsel because her attorney
fail to cross-examine the coope rating co-cons pirator, David Tbion
g, about a prior inconsistent statement.
On February 20, 2014, defendant's motion was denied as the
court found there was nothing to sugge st
that the introduction of the statement or questioning of Thion
g wou ld have brought about a differe nt
result (citing Harrington v. Richter, 13 J SCt 770 (2011)). On
Decem ber 4, 2014, the defendant filed an
appea l. On AprH 9, 2015, the First Depar tment unanimously
affirmed her conviction (127 AD3d 447 (1st
Dept 20 15)).
-1-

sections 440.1 0( 1)(f) and 440.1 0( 1)(h), the defendants moved to vacate their convictions of

murder

in the second degree based on alleged Brady violations by the Bronx District Attorney's
office.
Defendants alleged that the District Attorney's Office withheld Brady material in the
form of
concealing the extent of its involvement in reaching a plea agreement with cooperating
witness
David Thiong. The defendants had sought and obtained sealed plea minutes from Thiong'
s
Westchester guilty plea on August 16, 2007 in which the Westchester DA's office represented
to the
court in Westchester as follows:
Earlier this morning there was a meeting had in the courthouse between the defendant
and representatives of the Bronx District Attorney's office as well as the New York,
the New York Police Department. The understanding between all parties, which
would include the Bronx District Attorney's Office, is as follows: This defendant is
to give full and complete cooperation to the Bronx District Attorney's Office in an
ongoing homicide investigation. This shall include but is not necessarily limited
to his truthful, full, truthful and full testimony before the Bronx County Grand Jury
in the near future. And of course if necessary trial testimony. If his cooperation
is completed, we will be, we will, based on a representation of the Bronx District
Attorney's Office that that was so, allow him to withdraw his previously entered plea
to criminal possession of controlled substance in the fifth degree, have him withdraw
that and just proceed to sentence on the possession seventh ... (Minutes, Ex E, White

On March 28, 2016, Hanzlik moved a second time to vacate her conviction on the grounds
of
ineffective assistance of counsel or alternatively, to renew and reargue the denial of her prior
motion to
vacate her conviction and to dismiss the indictment on actual innocence grounds. The motion
was denied.
The defendant reargued the denial, claiming the court misapprehended the law. Relying on
the recent
First Department case of People v. Jiminez, 2016 NY Slip Op 05620, the coUit found that
the court in
denying the defendant's appeal and unanimously affirming her conviction, essentiaUy foreclose
d the
defendant's claim of actual innocence. Thiong's interview with the detectives was referred
to as a "halfcon i tent, half-inconsistent statement" that would 'not likely persuade a jury' and the complain
ing
witness's identification testimony was corroboration 'placing the defendant at the scene',
which would
contradict Thiong's statement. The defendan t's factual allegations lacked sufficient merit
to warrant the
exercise of the court's discretion to grant a hearing surrounding use of the Thiong statemen
t as an actual
innocence claim.
In a decision dated August 24, 2016, the court found the defendant failed to meet her burden
of
establishing by clear and convincing evidence that she was actually innocent of the crime
of mtu·der in
the second degree. On October 14, 2016, the First Department denied the defendant permissi
on to
appeal. In a decision dated December 8, 2016, this court denied defendant's motion to reargue
her
September 19, 2016 motion, as defendant simply reiterated the issues argued in ber prior
motion. On
August 29, 2017, defendant petitioned the United States District Court for the Southern District
for a writ
of habeas corpus, which is being held in abeyance pending resolution of the current motion.

-2-

affirmation.)

The assigned Assistant from the Bronx District Attorney's office denied

the existence of a three-way

deal: "My offer was wholly independent of any Westchester County
offer on SCI 440S-2007".
(Affirmation of Christine Scaccia, Ex.l to People's opposition)
Upon review of the documentation submitted and considering the releva

nt statutes and case

law presented in the moving papers, the court conducted a hearing. 3 The
hearing was commenced
on January 28,20 19 and concluded on February 11,201 9. The parties
were given an opportunity
to supplement the hearing with additional memoranda oflaw and each

side filed additional papers.

At the conclusion of the hearing and upon consideration of the testim
ony at the hearing as well as
the trial transcript, court file and legal authority, the defendants' motion

s to vacate their convictions

pursuant to CPL § 440.10(1)(t) and 440.10(1)(h) are denied.

The court reviewed the following submissions regarding the motion:

Defendant Meldish's notice of motion and affirmation of Brend an
White, supporting
documents and Memorandum ofLaw , filed April3 0, 2018;
Defendant Hanzlik's notice of motion and affirmation of Irving Cohen
, supporting
documents and Memorandum ofLaw filed June 13, 2018;
People's Notice of Motion to Rescind Appointment of Special Distric
t Attorney filed June
21, 2018;

3

The court granted a hearing to determine the factual issues involving
defend ant's
motion including 1) the extent to which the Brom< District Attorney's
office was involved in any
offe1·s to the cooperating witness in related proceedings; 2) precisely
what was disclosed
regarding any such offers to defense counsel and in what form and when
the disclosures were
made; and 3) the extent to which any facts not disclosed or belatedly
disclosed affected the
ability of the defense to chaUenge the witness's credibility at trial.
-3-

People's Affirmations in Opposition to defendant Meldish's motion and
Memorandum ofLaw and Exhibits 1-5 filed August 21, 2018;
People's Affirmations in Opposition to defendant Hanzlik's motion and
Memorandum of Law and Exhibits 1-9 filed August 21, 2018;
Defendant Meldish's Reply Memorandum filed September 18, 2018;
Defendant Meldish's Post Hearing Memorandum of Law in support of motion to vacate
pursuant to CPL § 440.10 filed 3/1/2019
People's Post Hearing Submission filed 3/1/2019
Defendant Hanzlik's Post Hearing Memorandum of Law in support of motion to vacate
pursuant to CPL § 440.10 filed 3/4/2019
Complete trial transcript and court file

The defendants seek to vacate the judgmen t of conviction pursuant to CPL § 440.10 based
on the hearing record and the unsealed plea minutes ofThiong from Westchester County on August
16, 2007. Defendant Mel dish claims that in violation of Brady v Maryland, 373 US 83 (1963 ), the
United States Constitution and New York State Constitution, the People failed to disclose the true
nature ofThiong 's cooperation agreement. Defendant Hanzlik concurred and added that the Bronx
ADA was not candid about the agreement she had with David Thiong, and thus violated her Brady
obligation, hindered defense counsel's cross examination and hampered the prior claim defendant
raised of ineffective assistance of counsel.
In opposition, the People contend that they did not make any misrepresentations regarding
Thiong's cooperation agreement. Moreover, the jury had ample information regarding Thiong's
cooperation which the defense attorneys thoroughly used in cross examination and in arguing that
Thiong was compromised by his cooperation. Finally, ifthere was any failure to disclose Brady, it

-4-

would not have changed the outcome of the case.

The Witnesses
During the hearing, counsel for defendant Hanzlik called Jonas Gelb, Esq. Gelb represented
defendant Hanzlik during the hearing and trial in 1999. Gelb had a specific recollection that a
witness at the trial, David Thiong, who was considered an accomplice 4 of the defendants in
committing the murder, cooperated with the People and testified in the grand jury with immunity and
at trial against Meldish and Hanzlik. Gelb recalled that he was made aware during his cross
examination of Thiong, that Thiong had charges pending in Westchester county for sale and
possession of a large quantity of drugs, with a potential maximum sentence of 25 years'
incarceration. Thiong's sentence exposure was significant because ofhis criminal history, and the
fact that Thiong was on parole at the time. 5 Yet he was offered a plea to a misdemeanor and a
minimal sentence if he fulfilled his cooperation deal in the Bronx.
Gelb testified that the Bronx ADA informed both the trial judge and the defense counsel that
she had no involvement in the disposition of the Westchester matter. Gelb asked and was told that
Thiong's deal only involved immunity for the homicide and did not involve any sentence he would
receive on the Westchester case. Gelb testified that in his cross examination ofThiong , he acted
under the assumption that the Westchester District Attorney's office was free to do whatever it

Thiong testified that he was the getaway driver for the defendants.
5

The People introduced four pages of the trial transcript marked People's Exhibit #I to
refresh Mr. Gelb's recollection that Thiong believed that his deal included testimony in the grand
jury and at trial and as part of the package deal in Westchester case he would receive a
misdemeanor and time served (which was eleven months) and immunity on the homicide in the
Bronx. On page 481 in the trial transcript, Thiong indicated that he met with ADA Scaccia and the
only deal he received from the Bronx was immunity and he received a misdemeanor in Westchester
county for testifying in the grand jury and at trial.
-5-

wanted with respect to the plea offer without input from the Bronx

District Attorney's office. Gelb

testified that it would have affected his actions at trial in cross exam

ining Thiong if he knew that the

cooperation agreement entailed the Westchester plea and senten
ce-- because he would have asked
more questions "revealing that his result in Westchester Count
y of such a lenient disposition was
contingent upon his cooperation or testimony against the two
defendants in the Bronx".

Gelb

believed that if Thiong had been asked more questions about the
result of the Westchester case, it
would have impaired Thiong's credibility as a motivated
witness. 6
misdemeanor plea in Westchester County as a "sweetheart deal"

Gelb characterized the

considering the charges Thiong was

facing, the fact that he was on lifetime parole and that he was a
predicate felon.
Meldish's attorney then called Assistant District Attorney Christ

ine Scaccia as his witness.

Scaccia testified that she recalled Thiong being mentioned
in a DDS early in the homicide
investigation before she became involved in the matter. Scaccia
stated that at the time she became
involved in the homicide investigation, Thiong was in custod
y facing drug-related charges in
Westchester County, so she contacted Westchester County to set

up time to meet with Thiong as he

was a potential witness in her Bronx county case. 7 Scaccia also
represented that she never takes
notes and that she did not remember any content from this conve

rsation except that it was to arrange

the meeting. On May 3, 2007, Scaccia learned that Thiong
was an alleged accomplice in the
homicide as his role was the getaway driver. Eventually Scaccia
met with him on August 16,20 07,

6

The trial transcript (480 et seq.) reveals that Gelb extensively cross
examined Thiong
about his Westchester County plea to a misdemeanor, attempting
to suggest that it was part of his
deal of testifying for the People in the homicide.
Scaccia explained that she needed permission from the Westchester
County District
Attorney's office as well as the defendant's attorney, Marilyn Reade
r, to pull Thiong out to speak
with him. Westchester County District Attorney's office contacted
Thiong's counsel and set up the
meeting that took place on August 16, 2007.
-6-

a day where Thiong also had a court appearance scheduled in Westchester
an NYPD detective, Thiong, Thiong's counsels Robin Bauer and Marily

County Court. Scaccia,

n Reader, and ADA Moore,

a member of the Westchester County District Attorney's office were presen
t for the meetin

g in the

Westchester County courthouse. Thiong executed a "queen for a day"
proffer and informed the
parties about his role in the homicide as well as the defendants' involv
ement.
Scaccia indicated that there was no agreement that Thiong would receiv
e a benefit in the
Westchester county case in exchange for his cooperation in the Bronx.

Scaccia testified that the only

agreement between Thiong and the Bronx District Attorney's office was
that Thion

g would receive

immunity for his role in the homicide investigation, and in exchange
he would testify in the grand
jury and if necessary at trial. Scaccia was not present in the court when
Thiong took his plea in
Westchester and she stated that she did not follow up with respect to the

outcome of the Westchester

case or the parole violation. After the meeting, Scaccia and her detect
ive left. Thiong's case
appeared on the calendar in Westchester later that day. The plea minute
s were sealed by the court
after Thiong took his plea.
Scaccia insisted that she did not ask Westchester County to reduce the
charges Thiong was
facing in Westchester in return for his cooperation in the Bronx. Scacc
ia testified that during the
proffer with Thiong she did not discuss any offer or deal in the Westchester
mention of the charges pending in Westchester during the proffer, and

case; that there was no

that she did not discuss with

Thiong receiving any benefit as to parole. 8 Essentially she maintained
that whatever Westchester
chose to do was 'Westchester's deal'. Prior to calling Thiong as a witnes
s at trial, Scaccia learned

8

The only contact ADA Scaccia indicated that she had with parole was to
inform parole
that Thiong was going to cooperate by testify at trial as is required when
any parolee testifies at trial.

-7-

that he did receive a time serve d sentence and was viola
ted on parole. Scaccia testified that as a
matter of professional courtesy, ADA Moore from Westchest
er asked her if she had any opposition
to offering Thiong a plea in the narcotics case. Scaccia
said she told ADA Moor e to do whatever
he wanted to do because the Bron x case was unrelated to the

Westchester case. 9 In addition, Scaccia

testified she never obtained the minutes from Thiong's plea.
Counsel for defendant Mel dish also called as a witness in

the hearing Murray Richman, Esq.,

Hanzlik's trial attorney. Rich man learned some time leadi
ng up to the trial that the People were
going to call Davi d Thion g as a cooperating witness.
Durin g the course of the trial, Richm an
testified that he requested Brad y from ADA Scaccia inclu
ding any and all deals that Thiong made
with the ADA. He said Scacc ia advised him that she went
to see Thion g

in Westchester County but

there was no deal on the Westchester case. Richman recal
led cross examining Thiong regarding any
deals Thiong had with the ADA for his testimony. After
Thiong's testimony, he stated, there was
a sidebar before the court regarding any arrangements
made betw een Bron x county and Thiong.
Again, Scaccia represented that she did not make a deal
involving the Westchester case and had
nothing to do with the plea there. Richman testified that
he had not seen a transcript of the plea.
Richman indicated that the minutes of this plea would have

been impo rtant to cross examine Thiong

to impeach his credibility. 10
After the defendants rested , the People called ADA Moor

e as their witness. Moore has been

9

ADA Scaccia stated that she offered immunity because Thion
g was the getaway driver
and never entered the location wJ1ere the homicide took place
. The information Thiong proffered
was consistent with what ADA Scaccia already knew about
the case.
10

As shown in the trial transcript at pages 447 449-5 1,453
,445- 458 471-474, Mr.
Richman extensively cross examined Tluong about his West
chester County plea to a misdemeanor
as part of his deal to testify for the People in the homi cide,
and how incompatible the Westchester
sentence was considering his criminal record, his predicate
status and the pend ing felony charges.
-8-

in the Westchester DA's office for 32 years and is currently the Chiefo fthe Gang
Violen
Bureau. Moore testified that he along with an investigator from his office, two attorne
ys

ce and Gun

for Thiong,

ADA Scaccia and an NYPD Detective were present for Thiong's proffer session
. ADA Moore
recalled the Westchester case was not discussed during the proffer; only immun

ity in the Bronx case

was discussed. On March 3, 2007, he first became aware of the Bronx interest
in Thiong. Moore
testified that in April of2007 , the Chief ofNarc otics (Tom Luzio) made an offer
before he was in
contact with ADA Scaccia to allow Thiong to plead to criminal possession of

controlled substance

in the fifth and seventh degrees with the hope that the defendant would withdra
w his plea on the
felony and be sentenced on the misdemeanor. A favorable offer was made becaus
e of'issu es' in the
case. ADA Moore testified that it was not usual at that time to offer a misdem
eanor to defendants
who were charged with possession with intent to sell, but was not aware of anyone

from the Bronx

seeking favor on the Westchester case for Thiong's cooperation or testimony. Moore
was confronted
on cross examination by notations made by ADA Kevin Kennedy on May 8,
2007, "CI to provide
info regarding homicide in exchange for reduced plea on Westchester narcoti
cs case." ADA
Kennedy was not presen t for the proffer on August 16, 2007 and only appeared

in court for the plea.

Legal Analysis
In order to set aside a verdict based upon newly discovered evidence, the defend
ant must
establish that there was evidence which was discovered since the trial, and
could not have been
discovered prior to trial, is not cumulative and does not merely impeach or contrad

ict the record but

would probab lychan gether esultif anewtr ial is granted. People v Wainwright,
285 AD2d3 58, 360
(1st Dept 2001), citing People v Salemi, 309 NY 208,21 9 (1955).
The duty of a prosecutor to disclose exculpatory material includes the disclosure

-9-

of evidence

impeaching the credibility of a prosecutor's witness, whose testimony may
be determinative of
innocence or guilty. See People v Baxley, 84 NY2d 208 (1994). To establish
a Brady violation in
this context, a defendant must show that the evidence not disclosed was
favorable as either
exculpatory or impeaching in nature, the evidence was suppressed by the prosecu

tion, and prejudice

arose because the suppressed evidence was material, in that there exists a reasona

ble possibility that

it would have changed the result of the proceedings. The First Department in the
case of the People

v Sibadan, 240 AD2d 30, 34 (1st Dept 1998), held that a prosecutor's duty to disclos

e Brady material

applies to evidence affecting credibility of government witnesses, includi
ng evidence of any
agreement or promise oflenie ncy given to a witness in exchange for favorable

testimony against an

accused. The disclosure obligation arises only where the prosecutor and the witness
have reached
an understanding in which the witness' cooperation has been exchanged for some
quid pro quo on
the part of the prosecutor (People v Novoa, 70 NY2d 490,49 7 (1987)), or where
there is any other
indication that the witness's cooperation was bargained for, directly or indirec
tly. See People v

Piazza, 48 NY2d 151, 163 (1979).
Two recent appellate opinions address these issues and reach different conclus
ions. See

People v. Lalonde, 160 AD 3d 1020 (3d Dept 20 18); People v. Giuca, 158 AD 3d
642 (2d Dept 2018),
lv. to appeal grante d 31 NY3d 1117 (June 28, 2018). In People v. Lalonde, 160
AD3d at1028, the
court rejected the defendant's CPL§440 claim without a hearing because the defend
ant was aware
ofthe witness's cooperation agreement and was free to cross examine the witness

about it. The court

emphasized that even if the prosecutor did not disclose the full extent of a three
way agreement and
that constituted a Brady violation, the witness's testimony did not go "wholly
unimpeached". The
strength of the prosecution's case also factored into the court's decision.
In People v. Giuca, 158 AD3d 642, in contrast, the Second Department
vacated the
-10-

defendants's conviction, finding that factual information which could be
constr
Brady material, notwithstanding how the promise was formed or labeled

ued as a promise was

. While the evidence in that

CPL§440 hearing did not demonstrate an express promise between the
witness and the District
Attorney's office, it left a strong inference of the expectation of a benefi
t, and

the court determined

that information should have been put before the jury. The conviction
was vacated due to the
prosecutor's failure to convey the tacit understanding between the prosec
would receive leniency despite his poor performance in a drug program

utor and the witness that he

because he agreed to testifY

against the defendant at trial.
This case presents a different permutation of similar facts, with the added
wrinkle of more
than one District Attorney's office being involved. Assistants from
the two District Attorney's
offices met after a telephone conversation to arrange a meeting.

The defendant was facing

significant charges in Westchester. The meeting was arranged to includ
e the Westchester DA's
office; it was not just between the Bronx DA and the witness. The
Westchester ADA had the
opportunity to be present for the "queen for a day" disclosures. With the
Westchester DA present,
the Bronx DA agreed to give the witness immunity for a homicide in exchan

ge for his testimony in

the grand jury and at trial. The defendant did not immediately agree. The
Bronx ADA and NYPD
detective left. The Westchester DA was left with the witness and his
attorneys. A favorable plea
ensued, which the Westchester DA justified to the court as an accom
modation to a Bronx
cooperating witness. The witness cooperated with the Bronx DA.
When arranged in this way, the facts here suggest a potential violation of

Brady akin to what

was present in People v. Giuca, 158 AD 3d 642. However also conceivable
that the two offices had
separate agendas, or that the Westchester DA just chose to accommodat
e Bronx without it being a
deal. Any role played by Thiong's Westchester defense counsel is unkno

-11-

wn. In addition, nearly all

of these facts were known to the defense counsel at the time of the defendants' trial.
of the situation which have now surfaced are the Westchester ADA's running

The only aspects

notes and the Augus t

16, 2007 transcript, which reveals the ADA's characterization of the plea to the

Westchester judge.

ADA Scaccia repeatedly affirmed that she was not present at the plea or sentenc
ing of Thiong
during the trial, in her affirmation and at the 440 hearing. She could not have
known what the
Westchester prosecutor actually said to the court. An ADA is not obligated to

turn over minutes to

which she does not (yet) have access. See People v. Fishman, 72 NY2d 884
(1988). Moreover,
although Thiong's Westchester plea was discussed during the trial, neither defense
counsel requested
the plea minutes or objected to the absence of the minutes. 11
Further, the defense had a full opportunity to cross examin e the witness at trial
and did so
'vigorously'.

Both defense attorneys during their cross examinations asked Thiong
if his

understanding of his cooperation deal included a plea to a misdemeanor
on his Westchester
narcotics case and time served plus ninety days on his violati on of parole. Thiong
agreed that he
received other benefits beyond immunity. Thiong may have believe d based upon
the timing of the
plea and a conjoined meeting with both District Attorney's offices that his cooper
ation agreement
included immunity as well as the Westchester plea as evidenced by his testimo
ny during the trial.
But both defense counsel amply cross examined Thiong's credibility based
upon Thiong's
11

Meldish's attorney Murray Richman had requested documents from August of 1999
of
Thiong's Bronx prosecution in which Thiong went to trial and was convicted of
two counts of A-2
narcotics felonies and one count of a B narcotics felony. (Tria l transcript p. 388.)
Later (p. 492)
Richman claimed there was a Brady violation based on the Westchester case because
the prosecution
represented that the only deal the Bronx District Attorney's office made with Th
iong was immunity
for the Bronx homicide. Rkhma n a!Jeged that Thiong was also promised time served
on the
Westchester case (which was 11 months) for a misdemeanor plea and 90 days on
his violation of
parole to run consecutive. The People represented that was an offer made by Westch
ester after
negotiations with Thio.ng's attorney and had nothing to do with her Bronx case.
Ald1ou gb addressed
on the record, neither counsel requested that the minutes of the plea ofthe Westch
ester case or the
Putnam case in which Thiong was serving his sentence at the time of the triaL
-12-

understanding of the various param eters of the coop
counsel attacked Thiong's credibility base d upon his

eration agreement. In their summ ation s, both

plea deal. 12 The jury was able to cons ider each

of these issues in conjunction with Thio ng's credi
bility and, nonetheless, found each of the
defendants guilty. In this motion, the defendants failed
to establish how further disclosure woul d
have been material and not cumulative to impeachm
ent. See People v Richards, 184 AD2 d 222,
222-223 (1st Dept 1992), lv denied 80 NY2 d 1029;
People v Sibadan, 240 AD2 d 30, 35 (1st Dept
1998). In addition, the defendants have not demo nstra
ted that there is a reasonable poss ibilit y or
probability that the outco me of the trial woul d have
been different.
The defen dants ' real conte ntion --tha t the Bron x DA
intentionally conc ealed a three way
agreement--was not born e out by the facts addu ced
at the hearing. The Peop le informed defen se
counsels ofTh iong 's coop erati on agree ment prior to

trial.

the Bronx DA's offic e aske d West chest er coun ty prose

13

Ther e was no show ing that anyone in

cutors to take any actio n with respe ct to the

Westchester felony narco tics case or Thio ng's viola
tion of parole. ADA Moo re was prese nt as a
moderator durin g the proff er sessi on and both he and
ADA Scac cia testified that the West ches ter
case was not discu ssed.
The West ches ter District Attorney's file notes indic
was a plea to crim inal poss essio n of a contr olled subst

ate that in Apri l, 2007 , the offer to Thio ng

ance in the fifth and seve nth degrees, and "no

12

In the trial transcript at pages 1069 - 1071, Gelb attac
ked the Thiong's veracity by
comparing his statements to the act of bartering: "Tell
us that Joey and Kim did it" (p. 1069, 1. 22)
and ""you're going to get out of jail free card in exch
ange for your testimony here" (p. 1070, l. 1920). Then Richman reinforced that Thiong is not to
be believed as he has a motive to lie as an
accomplice facing significant time but who gets out
of jail only because he testifies for the People
against the defendants under a cooperation agreement
(p. 1091-1092, 1103).
13

The cour t notes that prior to any interaction with Thio
ng and someone from the Bron x
District Attorney's offic e, Thiong was already in custo
dy for eight months. An Assistant in
Westchester already noted that Westchester was inclin
ed to reduce counts on the indictment prior to
any interaction between Thiong and the Bronx Distr
ict Attorney's office ..

-13 -

position" on sentencing. On May 3, 2007, there is a refere
nce to a reduced sentence if Thiong
successfully cooperated, presumably with the Bronx, altho
ugh there is
23, 2007 a lengthier set of notes indicates "speaking with Chris

no explicit notation. On May

tine Scaccia", that Thiong is alleged

to be the get away driver in the Bronx, and the same offer
to be made ("(1 )CPCSS 220.06/5 2 Y2 +
2 PRS + (2) CPCS 7 220.03 option open re coop"). The Augu
st 16, 2007 court minutes reflect that
on May 23, 2007, Thiong was offered a plea to a two count
superior court

information of criminal

possession of a controlled substance in the fifth and seven
th degrees. The Westchester DA's
sentence position was two and one half years' incarcerati
on with post release supervision on the
felony count and would leave the possession seventh count

open based upon cooperation.

ADA Scaccia apparently did not inform the defense couns
el of the conversations and offer
being made in Westchester, but the question is why.

s

The Westchester DA's position was

significantly different after the proffer meeting, but again,
the question is why. It is not cl~ar what
precipitated the Westchester DA's positions. It was not incum
bent on the Bronx Assistant District
Attorney to explain how notes that could imply a three way

deal were in the Westchester ADA's file

unless of course she knew. The defendants did not call ADA
Kennedy. Neither did the defen

dants

call Thiong's attorneys as to the negotiations that ensued
after ADA Scaccia left the Westchester
courthouse. A hearing court is left to conjecture wheth
er the Westchester DA's office acted
independently because of issues in their case, or as a courtesy

to the Bronx D A, or for other reasons.

Not much light was shed on these questions at the 440 hearin
g.
There are some unsettling aspects of the Bronx ADA 's cond

uct in this matter, including her

attempt to insinuate during her summation that she indee
d could have offered the defendant

-14-

something in his Westchester case in exchange for
his testimony, 14 while simultaneously denying
the existence of any influence over the Westchester
outcome before the trial judge. The ADA was
obliged to reformulate her statements to the jury after
an objection. Second, while she might not
remember the entire conversation or conversations, the

fact that the ADA herse lf called the Assistant

handling the Westchester case directly to arrange
a meeting about getting cooperation in a two
defendant homicide but cannot recall discussing anyth

ing except arranging the meeting is farfetched.

Conclusion
The court finds that the defendants did not show there

was willful misconduct on the part of

the People to conceal the truth. See People v Williams,
7 NY3 d 15, 1920 (2006). The defendants
failed to demonstrate a reasonable possibility that furth
er disclosure of the parameters ofTh iong 's
cooperation deal woul d have changed the verdict. See
People v Richards, 184 AD2 d at 222-223.
Moreover, most of the documentary proo f that defen
dants rely on in support of their motion and
claim that the People failed to disclose the full exten
t of their cooperation agreement with Thiong
does not constitute new evidence as contemplated by

CPL § 440.10, since the majority of those facts

were known to defendants at the time of trial.
Accordingly, although the defendants established that
since the trial, standing alone they are cumulative and
the record but would not likely change the result if a

Thiong's plea minu tes were discovered

could merely be used to impe ach or contradict

new trial was granted. The defendant's motions

pursuant to Criminal Procedure Law (CPL) sections
440.10(1)(f) and 440.10(1)(h) to vacate their
convictions of murd er in the second degree are denie
d.

14

"Ifl had want ed to given him a deal for seven grams
of crack I would have no problem
telling you that."
-15 -

This decision shall constitute the order of this court.

ENTER ,
Dated: Bronx, New York
April 8, 2019

-16-

APPENDIX D

:.>!',.

>

Case 1:17-cv-06577-AKH Document 23 Filed 05/18/18 Page 1 of 9
USDC SUNY ,
·DOCUMENT
;
tr--··~~

II

-~~ECTRONICALL¥

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK

--------------------------------------------------------------

FILED,

;-(j'(!r- ,,
)(
~·~

- --

~-·-

~

'

-·u.,.:n:_ 6/tr/to_\ $, -··/ ..

-~------­

KIMBERLY HANZLIK,
Petitioner,

OPINION AND ORDER
STAYING HABEAS PETITION

-against17 Civ. 6577 (AKH)
JOSEPH JOSEPH, Superintendent Bedford Hills
Correctional Facility,
Respondent.

-------------------------------------------------------------- )(
ALVIN K. HELLERSTEIN, U.S.D.J.:
Petitioner Kimberly Hanzlik ("Petitioner"), currently incarcerated at the Bedford
Hills Correctional Facility in New York, brings this counseled petition for a writ ofhabeas
corpus under 28 U.S.C. § 2254. In 2011, petitioner was convicted of second-degree murder in
New York state court and was sentenced to an indeterminate term oftwenty years to life in
prison. After the petition was filed and came fully briefed, petitioner's counsel received new
evidence in the form of recently unsealed plea minutes from the prosecution's central
cooperating witness in the case against petitioner. See Letter from Irving Cohen, ECF 21. In
light of this new evidence, and for the reasons that follow, the Court enters a stay and abeyance
of the petition so that petitioner may pursue her claim based on this new evidence in state court.
Background

This petition concerns the 1999 murder of Joseph Brown, who was shot and killed
at Frenchy's Bar in the Bronx. After the case went cold for nearly a decade, Petitioner and her
alleged accomplice, Joseph Mel dish ("Meldish"), were convicted by a jury of second-degree
murder in 2011. What follows is a brief recitation ofthe facts relevant to the Court's disposition.

:\

Case 1:17-cv-06577-AKH Document 23 Filed 05/18/18 Page 2 of 9

A.

Factual and Procedural Background
According to the government's theory of the case, Meldish set out on March 21,

1999 to murder Thomas Brown after the two had a dispute over a loan. On the mistaken belief
that Joseph Brown was actually his brother Thomas, Meldish entered Frenchy's Bar in the
Bronx, shot and killed Joseph in the crowded bar, and fled in a car driven by David Thiong, a
local drug dealer. In interviews conducted immediately after the crime, Thiong twice refused to
provide information on his role in the shooting. On a third occasion, Thiong apparently told
detectives that he drove Meldish to Frenchy's Bar on the night in question, but that petitioner
was not present at the time. 1
After sitting dormant for nearly a decade, the case was assigned to Detective
Tracey, a New York Police Department cold case detective. During his investigation, Tracey
turned up two key pieces of evidence that led to the convictions of petitioner and Meldish. First,
facing drug charges in Westchester County, Thiong agreed to testify against petitioner and
Meldish. Thiong testified at the trial that because Frenchy's Bar was crowded on the night in
question, petitioner entered first to scout the victim's location. According to Thiong, once
petitioner identified the victim, she returned to the car and relayed the information to Meldish,
who traced petitioner's path into the bar and carried out the shooting. It is undisputed that
Thiong's testimony was crucial to the government's case. Second, Joseph Brown's wife, who
was at Frenchy's Bar that night, identified petitioner as having been present at the bar
immediately prior to the shooting, corroborating Thiong's account. 2

meeting, which was memorialized in a DDS document drafted by the detective on the case, largely underpins
the original petition currently before the Court. Petitioner argues that her trial counsel was constitutionally
ineffective for failing to cross examine Thiong based on this document, and for relying instead on the two previous
meetings with police that exculpated both Meldish and petitioner. In light of the stay and abeyance entered in this
case, the Court expresses no views on the merits of the underlying petition as it was originally presented.
2
Eileen Brown, Joseph Brown's wife, did not mention seeing anyone suspicious before the shooting until she met
with Detective Tracey in 2007, approximately eight years after the shooting. The parties dispute whether her
testimony was reliable and consistent with Thiong's, but there is no question that her testimony was crucial to the
government's case against petitioner.
1 This

2

Case 1:17-cv-06577-AKH Document 23 Filed 05/18/18 Page 3 of 9

Largely based on this evidence, petitioner was convicted by the jury of seconddegree murder on February 16, 2011, and was sentenced by Justice Webber to an indeterminate
term of twenty years to life in prison. 3 The Appellate Division unanimously affirmed
petitioner's conviction on May 15,2012, People v. Hanzlik, 945 N.Y.S.2d 229 (App. Div. 2012),
and the New York Court of Appeals denied her application for leave to appeal on August 20,
2012, People v. Hanzlik, 19 N.Y.3d 997 (2012).
On June 25,2013, petitioner sought review ofher conviction in New York state
habeas proceedings, pursuant to N.Y. Crim. Proc. § 440.10, principally arguing that her trial
counsel was ineffective for failing to cross examine Thiong with his third statement to police,
described above, which inculpated Meldish and exculpated petitioner. The New York Supreme
Court denied the motion on February 20, 2014, see SR 8-17,4 and the Appellate Division
unanimously affirmed the denial on April 9, 2015, People v. Hanzlik, 8 N.Y.S.3d 271 (App. Div.
20 15), holding that petitioner did not receive constitutionally deficient assistance of counsel
during her trial. The New York Court of Appeals denied petitioner's application for leave to
appeal on June 19,2015. People v. Hanzlik, 25 N.Y.3d 1164 (2015).
After retaining new counsel, Petitioner filed a second state habeas petition on
March 28, 2016. In addition to the ineffective assistance claim, the second§ 440 petition also
argued that the prosecutor withheld evidence in violation of Brady v. Maryland, 373 U.S. 83
( 1963 ), and that petitioner was actually innocent. 5 The Bronx Supreme Court denied the motion
on August 24,2016, see SR 472-79, and this petition followed.

Meldish was convicted of second-degree murder and sentenced to an indeterminate term of25 years to life in
prison.
4
References to "SR" refer to the State Court Record submitted by respondent. See Response, ECF 14.
5 Unlike federal courts, which have not explicitly recognized a freestanding claim of actual innocence in federal
habeas proceedings, see McQuiggin v. Perkins, 569 U.S. 383, 392 (2013) ("We have not resolved whether a prisoner
may be entitled to habeas reliefbased on a freestanding claim of actual innocence."), such relief is available in New
York state habeas proceedings, see People v. Hamilton, 979 N.Y.S.2d 97, 108 (App. Div. 2014) ("Thus, we
conclude that a freestanding claim of actual innocence may be addressed pursuant to CPL 440.10(l)(h), which
provides for vacating a judgment which was obtained in violation of an accused's constitutional rights."). However,
3

3

Case 1:17-cv-06577-AKH Document 23 Filed 05/18/18 Page 4 of 9

B.

New Evidence
In a letter dated May 9, 2018, petitioner's counsel raised new evidence central to

petitioner's claim. See Letter from Irving Cohen, ECF 21. The letter states that on May 4, 2018,
petitioner's counsel received- for the first time-an unsealed transcript of a guilty plea entered
by Thiong in Westchester County on drug charges prior to petitioner's trial. According to a
separate letter submitted by respondent on May 14,2018, both parties received the transcript
from the Bronx District Attorney's Office in early May 2018. See Letter from Lisa E.
Fleishmann, ECF 22, at 1. Apparently the Bronx District Attorney's Office recently received the
unsealed transcript as part of petitioner's post-judgm ent motions. !d. Because the transcript
surfaced recently, this evidence was not before the state court when it considered petitioner's
Brady claim in her second § 440 petition. Taken with records from the trial, the transcript of
Thiong's plea casts doubt on petitioner's state court proceedings and requires the Court to enter a
stay and abeyance of this petition to allow petitioner to exhaust her new claims in state court.
1.

Backgroun d
A central issue at petitioner's trial was Thiong's credibility. He was the

prosecutio n's star cooperating witness, and his testimony placed petitioner right at the heart of
Joseph Brown's murder. According to Thiong, petitioner scouted Joseph Brown's location in the
crowded bar and reported that location to Meldish, who carried out the shooting. Together with
the testimony of Eileen Brown, the victim's wife, Thiong's testimony was crucial to the
prosecutio n's case.
One of petitioner's central defense strategies was to impeach Thiong's credibility
by arguing that his testimony was tainted by the grant of immunity on the Bronx murder charge.

the Supreme Court has recognized that "a credible showing of actual innocence may allow prisoner to pursue his
constitutional claims (here, ineffective assistance of counsel) on the merits notwithstanding the existence of a
procedural bar to relief." !d.

4

Case 1:17-cv-06577-AKH Document 23 Filed 05/18/18 Page 5 of 9

But petitioner also attempted to connect Thiong's cooperation in the murder case to his plea to
misdemeanor drug charges in Westchester County. During the trial, petitioner's trial counsel
sought discovery of any materials related to Thiong's plea deal with the Westchester County
District Attol'I\ey's Office. See Letter from Irving Cohen, ECF 21, Ex. 4, at 493. During a
colloquy with the Court, Assistant District Attorney Scaccia represented that the Westchester
plea deal, in which Thiong pled down to a misdemeanor drug charge, was "not any deal I made
with him, that's what Westchester gave him on this case." Id. The Court then asked more
directly: "So, the question Ms. Scaccia to you is, whether the deal included ... the time served
and a misdemeanor in Westchester or not." Id. at 494. Ms. Scaccia responded: "That was their
deal with him." Id. (emphasis added). In short, the prosecutor represented to the Court that
Thiong's plea deal on drug charges in Westchester County was unrelated to his cooperation in
the murder trial.
2.

Thiong's Plea Transcript
Thiong's plea minutes, which were recently unsealed and delivered to petitioner's

counsel only weeks ago, demonstrate that this was not accurate. During Thiong's plea hearing in
Westchester County, the judge described the plea agreement as follows:
The understanding between all parties, which would include the
Bronx District Attorney's Office, is as follows: This defendant is
to give full and complete cooperation to the Bronx District
Attorney's Office in an ongoing homicide investigation. This shall
include but is not necessarily limited to his truthful, full, truthful
and full testimony before the Bronx County Grand Jury in the near
future. And of course if necessary trial testimony. If his
cooperation is completed, we will be, we will, based on a
representation of the Bronx District Attorney's Office that that was
so, allow him to withdraw his previously entered plea to criminal
possession of controlled substance in the fifth degree, have him
withdraw that and just proceed to sentence on the posses.sion
seventh.

5

Case 1:17-cv-06577-AKH Document 23 Filed 05/18/18 Page 6 of 9

See Letter from Irving Cohen, ECF 21, Ex. 1, at 5. During the plea, Thiong's counsel stated that
"one of the reasons he's pleading today is with the understanding that he's going to receive full
immunity on the Bronx case." Id. at 7. It was also agreed that "once [Thiong] testifie[d] before
the grand jury" in petitioner's case, he would be released on bail in the Westchester County drug
case. Id. at 8. The deal also included a condition that "if things [fell] apart in the Bronx case ...
Mr. Thiong would have the right to withdraw his plea" in Westchester. Id. at 9. Finally, during
his allocution, Thiong was asked whether he understood what his "expectations [were] with
regard to the Bronx District Attorney's Office and what your sentencing commitments would
be," and he responded in the affirmative. Id. at 17.
These portions ofThiong' s plea transcript indicate that, contrary to the
prosecutor 's representations to the New York Supreme Court, Thiong's cooperation was secured
through a global plea agreement that covered the Westchester County drug charges and the
Bronx murder case against petitioner. But these materials, which clearly bear on Thiong's
credibility, were not disclosed to petitioner before trial, and were apparently not revealed until
years after petitioner's conviction and multiple rounds of appellate review.
Discussion

Petitioner urges the Court to consider this new evidence in evaluating her petition,
both as "a separate ground for granting the writ," and as evidence reinforcing her claim that she
is actually innocent. 6 See Letter from Irving Cohen, ECF 21, at 4. But in federal habeas
proceedings of this kind, I am not permitted to consider materials that have not yet been
reviewed by the state court that adjudicated petitioner's claim. As the Supreme Court explained

In a letter dated May 14, 2018, respondent argues that the newly discovered plea transcript simply "evidences that
Thiong's cooperation agreement was more generous than the prosecutor had represented at trial. But proof that
Thiong had a greater incentive to testify is not affirmative proof of petitioner's innocence." Letter from Lisa E.
Fleischmann, ECF 22, at 2. Although the Court has reservations about this position, as explained herein, my review
is limited to the evidence that was before the state court that adjudicated petitioner's claim.

6

6

Case 1:17-cv-06577-AKH Document 23 Filed 05/18/18 Page 7 of 9

in Cullen v. Pinholster, 563 U.S. 170, 181 (2011), "review under§ 2254(d)(1) is limited to the
record that was before the state court that adjudicated the claim on the merits." The Supreme
Court reached this conclusion based on the text of§ 2254(d)(l) and "the broader context of the
statute as a whole, which demonstrates Congress' intent to channel petitioners' claims first to the
state courts." !d. at 181-82 (internal quotation marks omitted) (quoting Robinson v. Shell Oil
Co., 519 U.S. 337, 341 (1997)). I am bound by this precedent.

Thus, the proper course is to stay and abey these habeas proceedings to allow
petitioner "to present to the state court [her] Brady claim," including the new materials contained
in Thiong's plea transcript. Gonzalez v. Wong, 667 F.3d 965, 980 (9th Cir. 2011). This is
similar to the path followed by the Ninth Circuit in Gonzalez v. Wong, see id., and advanced by
Justice Breyer in his concurring opinion in Pinholster, in which he wrote that a petitioner "can
always return to state court presenting new evidence not previously presented," Pinholster, 563
U.S. at 206 (Breyer, J., concurring in part and dissenting in part). Similar to the situation the
Ninth Circuit faced in Gonzalez, petitioner "raised and the state court explicitly rejected a Brady
claim," and "the suggestion that [petitioner] has presented a 'new claim' inherently invites
questions regarding exhaustion." Gonzalez, 667 F.3d at 979.
With the inclusion of this new evidence, petitioner has a colorable-and
potentially meritorious-claim under Brady v. Maryland, 373 U.S. at 87, which requires a
prosecutor to turn over potentially exculpatory evidence to the defense before trial, and Giglio v.
United States, 405 U.S. 150, 153-54 (1972), which extended the Brady rule to impeachment

evidence. Of course, petitioner will ultimately have to demonstrate that, taken cumulatively with
the remainder of the evidence, there is a "reasonable probability" that the result ofher case

7

Case 1:17-cv-06577-AKH Document 23 Filed 05/18/18 Page 8 of 9

would have been different. Kyles v. Whitley, 514 U.S. 419,434-3 5 (1995). But whether
7
petitioner can do so must be resolved in the first instance by the state court.

Finally, the stay and abey process adopted here is the same one that the Supreme
Court recognized in Rhines v. Weber, which considered a habeas petition with unexhausted
claims. 8 544 U.S. 269, 278 (2005). In Rhines, the Supreme Court held that "if the petitioner had
good cause for his failure to exhaust, his unexhausted claims are potentially meritorious, and
there is no indication that the petitioner engaged in intentionally dilatory litigation tactics[,] ...
the district court should stay, rather than dismiss," the petition. !d. Because petitioner was
unaware ofThiong' s plea transcript, which was only recently unsealed and turned over to
petitioner's counsel, and because petitioner has a potentially meritorious claim, the stay and abey
process is the appropriate course. Doing so reflects "petitioner 's interest in obtaining federal
review ofhis claims," id., and preserves the state's role as the initial arbiter of habeas claims, see
Pinholster, 563 U.S. at 181-82.

Finally, as the Supreme Court explained in Rhines, I retain discretion to structure
the stay in a manner that reflects the "timeliness concerns" of the federal habeas statute. Rhines,
544 U.S. at 277-78. Accordingly, the stay is conditioned on petitioner filing her Brady claim in
state court within 30 days of the filing of this Order. If petitioner wishes to renew this petition
following the completion of the state court's review, she must do so within 30 days after the state
court proceedings are exhausted.

The § 440 court may also wish to consider whether sanctions or other relief is appropriate based on the serious
allegation of prosecutorial misconduct.
8
Petitioner's claim is not, strictly speaking, an unexhausted claim covered by Rhines v. Weber, for as the Ninth
Circuit implicitly recognized in Gonzalez, petitioner's claim also rests on recently discovered new evidence
presented for the first time to the federal habeas court. Gonzalez, 667 F.3d at 980.

7

8

Case 1:17-cv-06577-AKH Document 23 Filed 05/18/18 Page 9 of 9

Conclusion
the petition
For the reasons stated herein, the Court enters a stay and abeyance of
stay is conditioned on
to allow petitioner to pursue her unexhausted claims in state court. The
of this Order, and
petitioner pursuing relief in the state court within 3 0 days ofthe filing
the state court
petitioner may move to renew the petition, if necessary, within 30 after
proceedings are exhausted.

SO ORDERED.
Dated:

May,J il, 2018
Ne1Y~rk, New York

~K.~~
United States District Judge

9

APPENDIX E

SUPREME COURT OF THE STATE OF NEW YORK
COUNTY OF BRONX T-33
THE PEOPLE OF THE STATE OF NEW YORK,
DECISION & ORDER
-againstInd.# 4344/2007
KIMBERLY HANZLIK,
Defendant.

APRIL A. NEWBAUER, J.

Defendant Kimberly Hanzlik has moved to reargue the Court's prior decision dated
August 24, 2016 denying her motion for an order pursuant to Criminal Procedure Law
(CPL) sections 440.1 0(1 )(h) and 440.20 to vacate a conviction of Murder in the Second
Degree and sentence of an indeterminate prison term of twenty-five years to life. 1
The court reviewed the following submissions regarding pending motion:

Defendant's notice of motion and affirmation by Irving Cohen and legal argument
dated September 19, 2016 and September 18, 2016, respectively;

Affirmation in Opposition~ by Michael Barsky dated October 14, 2016.

The defendant's principal claim is that her trial attorney failed to use on cross
examination a prior inconsistent statement made by David Thiong, a key witness, which
exculpates the defendant. This Court denied the defendant's motion of actual
innocence based on Thiong's pre-trial statement In addition, this Court denied
defendant's motion to renew and reargue the decision of the court (Webber, J.),
denying a prior CPL §440 motion to vacate her conviction of Murder in the Second
Degree and dismiss the indictment.
1

-1-

After reviewing the documentation submitted and considering the relevant statutes and
case law, the defendant's motion is denied.
Procedural History
On February 15, 2011 in Bronx County, the defendant was convicted of murder in
the second degree. On March 28, 2011, the defendant was sentenced to a term of
imprisonment of twenty years to life after Justice Webber denied defendant's CPL 330
motion to set aside the verdict. ·On May 15, 2012, the First Department unanimously
affirmed her conviction (People v. Hanzlik, 95 A.D.3d 601 (1st Dept. 2012)). On August
20, 2012, the Court of Appeals denied leave to appeal the First Department's decision
(People v. Hanzlik, 19 NY3d 997 (2012)).

As indicated in the procedural history section of the previous decision, on July 14,
2013, Gerald McMahon filed the defendant's first CPL §440 motion to vacate the conviction
on the grounds t~at the trial attorney rendered ineffective assistance of counsel by failing
to cross-examine a cooperating co-conspirator, David Thiong, about a prior inconsistent
statement. In the statement to detectives, Thiong claimed defendant Hanzlik was not
present when co-defendant Meldish committed the murder. 2 On February 20, 2014, the
defendant's motion to vacate her conviction was denied by Justice Webber as there was

2

1n Thiong's statement to detectives, he says that he and the other co-defendant
dropped Hanzlik off at her house before proceeding to the bar where Joseph Brown was killed.
3

The court suggested that although Thiong's trial testimony was contrary, it was
corroborated by the victim, who testified that she observed a female 'who looked like Hanzlik' in
the bathroom mirror before the shooting, and who had identified Hanzlik from a six person
photo array as the person she saw in the bar. Justice Webber also reviewed trial counsel's
failure to use the statement under an objective standard and determined there were viable
strategic reasons for not using the statement. Coupled with the defense attorney's robust cross
examination of Thiong and overall competent and vigorous representation of the defendant, the
court found the process fair as a whole (see People v. Benevento, 91 NY2d 708 (1998), and
saw no reason to justify holding a hearing.
-2-

nothing to suggest that the introduction of the statement or questioning of Thiong would
have brought about a different result (citing Harrington v. Richter, 131 S.Ct. 770 (2011)).
On December 4, 2014, the defendant filed an appeal to the First Department on
ineffective assistance of counsel grounds. On April 9, 2015, the First Department
unanimously affirmed her conviction (People v. Hanzlik, 127 AD3d 447 (1st Dept. 2015)) 4 •
On March 28, 2016, Hanzlik moved a second time through current counsel to vacate her
conviction on the grounds that her trial attorney rendered ineffective assistance of counsel
or alternatively, to renew and reargue Justice Webber's denial of her motion pursuant to
Criminal Procedure Law section 440 to vacate her conviction and to dismiss the indictment
on the grounds of actual innocence.
In response, Michael Barsky, Esq., acting as a Special District Attorney in Bronx
County, filed an affirmation opposing the defendant's CPL §440 motion, arguing that the
trial judge and the First Department had already considered defendant's claims and

4

The First Department held:

It was objectively reasonable to impeach the witness by means of the statements that
exculpated both defendants but not by means of the statement that treated them
differently. The statement at issue essentially cut both ways. While it might well have
been reasonable to use this statement, it would also be reasonable to avoid revealing to
the jury that in 1999 the witness made a statement that was at least partly consistent
with his trial testimony, and that was arguably made before the motive to falsify arose or
fully ripened. In other words, it was not unreasonable to adopt a strategy that sharply
contrasted the witness's 1999 exculpation of both defendants and his radically different
trial testimony. In any event, defendant has not satisfied the prejudice prongs of either a
state or federal ineffectiveness claim. Defendant has not shown that counsel's failure to
use the statement at issue deprived defendant of a fair trial, or that there is a "probability
sufficient ,to undermine confidence in the outcome" (Strickland, 466 US at 694) that use
of the statement would have led to a more favorable verdict. ... It is not likely that
introduction of a half-consistent, half-inconsistent statement would have altered the
jury's analysis .
The Court added: ... "as we noted on defendant's direct appeal (citation omitted), the testimony
of [Thiong] was corroborated by an eyewitness who placed defendant at the scene." On June
19, 2015, the Court of Appeals denied leave to appeal the First Department decision. People v.
Hanzlik, 25 NY3d 1164 (2015).
-3-

rejected them; the defendant received effective assistance of trial counsel as well as prior
counsel for the CPL § 440 motion; that since there were no new facts in defendant's
current CPL § 440 motion, the Court should not revisit the issue again and grant a hearing;
and, finally, that defendant's motion to dismiss on actual innocence grounds should be
denied because the trial testimony placed her at the scene as an active participant5 of the
crime moments prior to her co-defendant pulling the trigger killing Joseph Brown.
After careful consideration, this Court denied the motion. In doing so, it noted that
in applying the test articulated in People v. Jiminez, 2016 NY Slip Op 05620 to new
affidavits secured after the conviction, this Court viewed the documents as merely
competing against the testimony of eyewitnesses who testified the defendant shot the
victim. 6 This Court concluded that the defendant's factual allegations lack sufficient merit
to warrant the exercise of the court's discretion to grant a hearing surrounding use of the
Thiong statement as an actual innocence claim. 7
The testimony at trial was that Hanzlik, Thiong and Meldish went to Hanzlik's house
and she entered her home and returned to the car that Meld ish and Thiong were all seated in
with a duffle bag which was given to Meld ish just prior to him removing a mask and gun. They
drove to Frenchy's bar together. She entered the bar and returned to the car and informed
Meldish where the deceased was seated. Meldish exited the vehicle and enter Frenchy's with
the mask and gun. She remained inside the car during the shooting and direct Thiong not to
leave the location without Meldish. Together they left the location and Thiong dropped Meldish
and Hanzlik off together at another location after the shooting. The decedent's wife identified
Hanzlik looked like the female that was inside the bathroom of Frenchy's prior to the shooter
entering the bar.
5

6

_l_n considering the test the court conducted in Jiminez, the Appellate Division

essentially foreclosed the defendant's claim of actual innoce'nce on Thiong's interview with the
detectives by previously referring to this evidence as a "half-consistent, half-inconsistent
statement" that wou,ld 'not likely persuade a jury' and characterizing the complaining witness's
identification testimony as corroboration in 'placing the defendant at the scene', which would
contradict Thiong's statement.
Contrary to the defendant's contention that the results of the polygraph test is
indicative of the defendant's innocence, the Court of Appeals has specifically determined that
the results of polygraph examinations are not reliable. People v. Shedrick, 66 NY2d 1015
((1985), rearg. denied 67 NY2d 758 (1986). Therefore, as all reliable evidence must be
7

-4-

Thereafter, in a motion dated August 24, 2016, the defendant reargues the denial
of the motion to vacate the conviction and to dismiss the indictment asserting that it was
error to deny the motion without holding a hearing as there were sufficient facts submitted
for the Court to warrant a hearing.

In addition, the defendant claims that the Court

misapprehended the law as it has developed in rendering its decision. 8 In opposition, the
Special Prosecutor responded that the defendant's arguments are meritless as the current
claims raise neither a factual nor legal basis for vacating a conviction or setting aside the
sentence.
Conclusions of Law
Civil Practice Law and Rules section 2221 (d) provides that a motion to reargue must
specifically state that the court overlooked or misapprehended the facts or the law in
determining the prior motion but must not include any new facts or issues not offered on
the prior motion. See Phillips v. Oriskany, 394 N.Y.S.2d 941 (4th Dept. 1977); see also

People v. Bachert, 69 N.Y.2d 593, 597 (quoting Simpson v. Loehmann, 21 N.Y.2d
990(1968)); Mariani v. Dyer, 193 A.D.2d 456, 458 (1st Dept. 1993). Whether to grant a
motion for leave to reargue under Civil Practice Law and Rules sections 2221 is within the
sound discretion of the court. SeeAipertv. Wolf, 194 Misc.2d 126 (Civ. Ct. N.Y. Cty2002).
In her motion to reargue, the defendant contends that the Court erred in deciding
not to conduct a hearing pursuant to In re Troy Anthony Davis, 2010 WL 3385081 (S.D.Ga
2010) which is controlling on the analysis of claims of "actual innocence." The defendant

considered in an actual innocence claims pursuant to Hamilton, the results of the polygraph test
would not be admissible and not grounds for defendant's claim.
8

In his motion, the defendant concedes that he failed to cite or provide the Court with
the relevant law on the prior CPL§ 440 motion on which he is relying in his current motion to
reargue.

-5-

erroneously argues that this case stands for the proposition that a court is obligated to hold
a hearing to assess the viability of a claim of actual innocence in post-conviction cases.
Rather, In re Davis articulated that the standard needed to be shown by a defendant was
clear and convincing evidence that no reasonable juror would have convicted her in the
light of the new evidence. Here, the defendant did not present an offer of proof to meet
this standard and warrant a fuller exploration by the Court. Instead, she raises only mere
doubt as to her guilt which the jury has previously heard and rejected.

9

Contrary to defendant's assertions, the Court was well aware of this case and
considered its persuasiveness in rendering its prior decision. However, this Court is guided
by People v. Hamilton, 115 AD3d 12 (2d Dept 2014), in which the Second Department on
January 15, 2014 held that a defendant seeking to vacate a judgment of conviction may
be entitled to relief on a free-standing claim of actual innocence. 10

Shortly thereafter, the

First Department explained that CPL §440.1 0(1 )(h) embraced a claim of actual innocence
in People v. Jiminez, 2016 NY Slip Op 05620, 2016 WL 3919161 (1st Dept. 2016) and
advised that the Hamilton standard should be viewed along the more general standard
applicable on any motion to vacate a conviction under CPL§440.10.
Criminal Procedure Law § 440.30(4)(a) provides in pertinent part that "upon
considering the merits ofa motion, the court may deny it without conducting a hearing if
the moving papers do not allege any ground constituting a legal basis for the motion."

9

The defendant provided a self serving affidavit alleging that she is innocent and that
she has taken and passed a polygraph test. The defendant wants this Court to conduct a
hearing to explore the credibility of the critical witnesses involved in the trial and to allow the
defendant to testify that she was not present at the crime scene and this is corroborated by the
fact that she past a polygraph test.
10

Actual innocence means factual innocence, not merely legal insufficiency of guilt.
Hamilton, 115 AD3d at 23; Bousley v. US, 423 US 614, 623-24 (1998).

-6-

Thus, motion papers must contain sworn allegations of facts and any hearsay statement
in support of CPL §440 motions are not probative evidence. See People v. Simpson, 120
AD3d 412 (1st Dept. 2014); People v. DeVito, 287 AD2d 265 (1st Dept. 2001). A claim of
actual innocence must be based upon reliable evidence which was not presented at the
defendant's trial. People v. Hamilton, 115 AD3d at 23 (citing Schlup v. Delo, 513 US 298,
324 (1995)). "A prima facie showing of actual innocence is made out when there is 'a
sufficient showing of possible merit to warrant a fuller exploration' by the court." /d. at 27

(quoting Goldbum v. Klem, 510 F3d 204, 219 (2002), cert. denied 555 US 850 (2008)); see
also People v. Woods, 120 AD3d 595 (2d Dept 2014)(motion to vacate based upon an
actual innocence claim properly denied without a hearing); People v. Caldavado, 116 AD 3d
877,878 (2d Dept 2014)(motion to vacate based upon an actual innocence claim properly
denied without a hearing).
Guided by the general standard applicable on motions to vacate as well as
considering the test conducted in the recent First Department case of People v. Jiminez
the new affidavits provided in defendant's motion merely compete against the testimony
of eyewitnesses who testified the defendant shot the victim. /d.

As indicated in this

Court's previous decision, the First Department, in denying the defendant's appeal and
unanimously affirming her conviction, essentially foreclosed the defendant's claim of actual
innocence on Thiong's interview with the detectives by previously referring to this evidence
as a "half-consistent, half-inconsistent statement" that would 'not likely persuade a jury' and
characterizing the complaining witness's identification testimony as corroboration in 'placing
the defendant at the scene', which would contradict Thiong's statement. The defendant's
factual allegations lack sufficient merit to warrant the exercise of the court's discretion to

-7-

grant a hearing surrounding use of the Thiong statement as an actual innocence claim.
See People v. Jiminez, 2016 NY Slip Op 05620.

The Court is governed by Civil Practice Laws and Rules section 2221 which
dictates that such motion for leave to reargue must be based upon matter of fact or law
allegedly overlooked or misapprehended by the court. C.P.L.R. § 2221(d). The Court
reviewed the moving papers, documents in support thereof and relevant legal authority.
In its decision dated August 24, 2016, the Court found the defendant failed to meet her
burden of establishing by clear and convincing evidence that she is actual innocent of the
crime of murder in the second degree for which the trial jury found her guilty in 2011.

In

her current motion to reargue, the defendant simply reiterates exactly the same issues as
were argued in his prior motion. The Court in its August 24, 2016 decision and order
considered and specifically rejected these claims.

Since the defendant has not

demonstrated that this Court misapprehended any of the relevant facts that were before
it or misapplied any controlling principles of law to warrant reversal of the decision, the
defendant's motion for leave to reargue is denied. Boboyev v. Gomez, 304 A.D.2d 600,
601 (2d Dept. 2003).
. Accordingly, for all of the foregoing reasons, the defendant's motion is denied in its
entirety.
ENTER,
Dated:

Bronx, New York
December 8, 2016

-8-

APPENDIX F

SUPREME ·coURT OF THE STATE OF NEW YORK
Cc;>UNTY OF BRONX T-33.
THE PEOPLE OF THE STATE OF NEW YORK,
DECISION & ORDER

-against- .
Ind. # 4344/2007
KIMBERLY HANZLIK,

Defendant.

APRIL A. NEWBAUER, J.

Procedure
Kimberly Hanzlik has moved for an order pursuant to Criminal
Defendant
.
.
Law (CPL) sections 440.1 0(1)(h) and 440.20 to vacate a conviction of Murder in the
Second Degree and sentence of an indeterminate prison term of twenty-five years to life.
The defendant's principal claim is that hertrial attorney failed to use on cross exami'nation
a prior inconsistent statement made by David Thiong, a key witness, which exculpates the
defendant. In the alternative, the defendant moves to renew and reargue the decision of
the court (Webber, J.), denying her prior CPL §440 motion to vacate her conviction .of
Murder in the Second Degree and dismiss the indictment.. Finally, the motion asserts
grounds of actual innocence based on Thiong's pre-trial statement.
The court reviewed the following submissions regarding the motion: .

Defendant's notice of motion and affirmation by Irving Cohen and legal argument
dated March 28, 2016 with Exhibits A~ I;

People's Affirmation in Opposition dated August 5, 2016 and
-1-

"

Memorandum of Law filed by Spec.ial District Attorney Michael Barsky;
Defense counsel's Reply Memorandum dated August 12, 2016.

After reviewing the documentation submitted and considering the relevant statutes and
case law, the defendant's motion is denied.

Procedural History
On February 1·5, 2011 before Justice Webber in Supreme Court, Bronx County, the
defendant was convicted of murder in the second degree for acting in concert with her codefendant Joseph Meld ish in the killing of Joseph Brown on March 21, 1999. On February.
25, 2011, the defendant's attorney filed a CPL § 330 motion seeking to set aside the
verdict of the jury. On March 28, 2011, Justice Webber denied the motion. The defendant
was sentenced to a term of imprisonment of-twenty years to life. The defendant filed a
· timely notice of appeal. On May 15,2012, the First Department unanimously affirmed her
conviction (People v. Hanzlik, 95 A.D.3d 601 (1st Dept. 2012)). On August 20, 2012, the
Court of Appeals denied leave to appeal the First Department's decision (People v.

Hanzlik, 19 NY3d 997 (20 12)).
On July 14, 2013, Gerald McMahon, a new attorney, filed a CPL §440 motion to
vacate the conviction on the ground~ that the trial attorney rendered ineffective assistance
of counsel by failing to cross examine a cooperating co-conspirator, David Thiong, about
a prior inconsistent statement. In the statement to detectives, Thiong claimed defendant
1
Hanzlik was not present when co-defendant Meld ish committed the murder. On February

In Thiong's statement to detectives, he says that he and the other co-defendC]lnt
dropped Hanzlik off at her house before proceeding to the bar where Joseph Brown was
killed.
1

c-2-

/

20, 2014, Justice Webber denied defendant's motion to vacate her conviction, ruling there
was nothing to suggest that the introduction of the statement or questioning of Thiong
would have brought about a different result (citing Harrington v. Richter, 131 S.Ct. 770
(2011)). The court suggested that although Thiong's trial testimony. was contrary, it was
corroborated by the victim, who testified that she observed a female 'who looked like
Hanzlik' in the bathroom mirror before the shooting, and who had identified Hanzlik from
a six person photo array as the person she saw in the bar. Justice Webber also reviewed
trial counsel's failure to use the statement under an objective standard and determined
there were viable strategic reasons for not using the statement. Coupled with the defense
attorney's robust cross examination of Thiong and overall competent and vigorous
representation of the defendant, the court found the process fair as a whole (see People
v. Benevento, 91 NY2d 708 (1998), and saw no reason to justify holding a hearing.

On December 4, 2014, the def(3ndant filed an appeal to the First Department on
ineffective assistance of counsel grounds. On April 9, 2015, the First Department
unanimously affirmed her conviction (People v. Hanzlik, 127AD3d 447 (1st Dept. 2015)).
The First Department held:

It was objectively reasonable to impeach the witness by means of the statements
that exculpated both defendants but. not by means of the statement that treated
them differently. The statement at issue essentially cut both ways. While it might
well have been reasonable to use this statement, it would also be reasonable to
avoid revealing to the jury that in. 1999 the witness made a statement that was at
least partly consistent with his trial testimony, and that was arguably made before
the motive to falsify arose or fully ripened. In other words, it was not unreasonable
. to adopt a strategy that sharply contrasted the witness's 1999 exculpation of both
defendants and his radically different trial testimony. In any event, defendant has
not satisfied the prejudice prongs of either a state or federal ineffectiveness claim.
Defendant has not shown that counsel's failure to use the statement at issue
deprived defendant of a fair trial, or that there is a "probability sufficient to
undermine confidence in the outcome" (Strickland, 466 US at 694) that use of the
statement would have led to a more favorable verdict. . . . It is not likely that
-3-

introduction of a half-consistent, half-inconsistent statement would have altered the
jury's analysis.
The Court added: ... "as we noted on defendant's direct appeal (citation omitted), the
testimony of [Thiong] was corroborateo by an eyewitness who placed defendant at the
scene." On June 19, 2015, the Court of Appeals denied leave to appeal the First
Department's decision. People v. Hanzlik, 25 NY3d 1164 (2015).

Hanzlik now moves a second ti·me through new counsel, Irving Cohen, Esq., to
vacate her conviction on the grounds that her trial attorney rendered ineffective assistance
of counsel or alternatively, to renew and reargue Justice Webber's denial of her motion
pursuant to Criminal Procedure Law se~tion 440 to vacate her conviction of Murder in the
2
Second Degree and to, dismiss the indictment on the grounds of actual innocence.

On April18, 2016 pursuant to County Law section 701.1 (b),. Michael Barsky, Esq. was
appointed as a Special District Attorney, Bronx County, to represent the People of the State
of New York in this matter because the new District Attorney of the Bronx, Honorable Darcel
D. Clark, had previously sat on the First Department bench and was a member of the panel
that ruled on the defendant's prior appeal. In preparing to -respond to the defendant's current
440 motion, Mr. Barsky stated he reviewed the trial transcript and realized that he previously
worked in the Bronx District Attorney's office at the same time as the decedent's widow. Mr.
Barsky informed

defend~nt's

counsel in writing of that fact and that he did not perceive a

conflict. Defendant moved to have Mr. Barsky barred from continuing as

th~

prosecutor as

a result of this familiarity. In a decision dated August 9, 2016, this Court denied defendant's

New counsel also maintains that Gerald McMahon should have requested a hearing as
part of the first section 440 motion.
2

-4-

motion for recusal.

3

On Au~ust 5, 2016, the People through Michael Barsky filed an affirmation opposing
the defendant's CPL §440 motion, arguing that the trial judge and the First Department had
already considered defendant's claims and rejected them. In addition, Barsky claimed that.
the defendant received effective assistance of trial counsel as well as prior counsel for the
CPL § 440 motion and motions on appeal. Moreover, the prosecutor argued that since
there were no new facts in def~ndant's current CPL § 440 motion, the Court should not
revisit the issue again and grant a hearing.

Finally, the prosecutor contended that

defendant's motion to dismiss on actual innocen~ce grounds should be denied because the
trial testimony placed her at the scene as an active participant4 of the crime moments prior
to her co-defendant pulling the trigger killing Joseph Brown.
I

In deciding the motion, this Court concluded that as the def~ndant f~iled to
demonstrate any· conflict or potential conflict and there is no appearance of impropriety or
substantial risk of an abuse of confidence, the defendant's motion to recuse Mr. Barsky as the
Special District Attorney for the Bronx District Attorney's Office is denied. See Matter of
Schumer v. Holtzman, 60 NY2d 46, 55(1983); People v. Zimmer, 51 NY2d 390 (1980); People
v. Shinkle, 51 NY2d 417 (1980); see also People v. Gentile, 153 Misc.2d 986 (Sup. Ct. Queens
Cty. March 23, 1992). See also People v Torturica, 23 AD3d 1040 (4th Dept. 2005)(prosecutor
not ·disqualified even though victim's boyfriend was related to an employee of the office absent
a showing by defendant that he suffered actual prejudice or there was a substance risk of an
abuse of confidence). Mr. Barsky was not privy to any confidential conversations with Ms.
Brown or 'with the defendant nor did he received any confidential information from Ms. Brown
or the defendant. See, e.g. People v. English, 88 NY2d 30 (1996); People v. Abar, 99 NY2d 406
.
(2003); Shinkle, 51 NY2d 417 (1980).
3

4

The testimony at trial was that Hanzlik, Thiong and Meld ish ·went to Hanzlik's house
and she entered her home and returned to the car that Meld ish and Thiong were all seated in
with a duffle bag which was given to Meldish just prior to him removing a mask and gun. They
drove to Frenchy's bar together. She entered the bar and returned to the car and informed
Meldish where the deceased was seated. Meldish exited the vehicle and enter Frenchy's with
. the mask and gun. She remained inside the car during the shooting and direct Thiong not to
leave the location without Meldish. Together they left the location and Thiong dropped Meldish
and Hanzlik off tqgether at another location after the shooting. The decedent's wife identified
Hanzlik looked like the female that was inside the bathroom of Frenchy's prior to the shooter
entering the bar.
-5-

Conclusions of Law
The defendant raised most of the same central issues in her prior CPL §440 motion.
The defendant's, arguably new claims are: of actual innocence based on the exculpatory
statement by Thiong; the fact that the trial attorney may not have had the typewritten form
of the statement, through the People's Brady or ~osario violation ,or because he
overlooked it; the trial attorney's statement that if he had the typewritten DD5 version at trial
he would have used it in cross examination; and the co-defendant's attorney's sworn
statement that the decision not to use the statement was not one of strategy between the
parties as posited by Justice Webber. As detailed below, none of the new material merits
the court's consideration at a hearing.
In the decision dated February 20,2014, Justice Webber denied defendant's motion
to vacate her conviction. The defendant then filed an appeal to the First Department on
December 4, 2014, raising an ineffective assistance of counsel claim on the ground that
her attorney failed to cross examine the co-conspirator, David Thiong, about the same prior
inconsistent statement referenced here. On April 9, 2015, the First Department
v. Hanzlik, . 127 AD3d447(1stDept. 2015)).
unanimously affirmed her conviction. (People
.

Both the Supreme Court of Bronx County and the First Department rejected defendant's
claims, finding that trial counsel was effective. Considering the findings and analysis by
the First Department, it matters not for the purposes of this motion whether counsel failed
to cross examine the witness because he did not have or recognize the typewritten
statement, or because he chose n.ot to. 5 The new material and argument counsel proffers ·
Th e. typewritten DD5 memorializes the detective's handwritten notes, which were turned
over to the defense. There is no Rosario violation and no demonstrated Brady violation. See
People v. Serrano, 184 AD2d 1094 (1st Dept_ 1~92); People v. Whitaker, 165 AD2d 775 (1st
Dept 1990).
5

-6-

would not sufficiently elevate the statement's significance under the Appellate Division's
framework. A court must deny a motion to vacate a judgment when the ground or issue
raised "was previously determ.ined on the merits ... upon a motion or proceeding in a federal
court; unless since the time of such determination there has been a retroactively effective
change in the law controlling such issue." CPL § 440.1 0(3)(b). Because the defendant has
not presented any new facts that would change the court's prior determination (see CPLR
§2221 (e)) or demonstrated that the Court overlooked or misapprehended the relevant facts
or misapplied the controlling law towarrant reversal of the decision (CPLR §2221 (d)), the
defendant's motion for leave to renew or reargue is denied.

Actual Innocence Claim
In a case of first impression, on January 15, 2014, the Appellate Division, Second
Department held that a defendant seeking to vacate a judgment of conviction may be
entitled to relief on a free-standing claim of actual innocence. People v. Hamilton, 115
AD3d 12 (2nd Dept. 2014). Actual innocence means factual innocence, not merely legal
insufficiency of guilt. Hamilton, 115 AD3d at 23; Bousley v. US, 423 US 614, 623-24
(1998). The claim of actual innocence must be based upon reliable evidence which was
not presented at the defendant's trial. Hamilton at 23 (citing Schlup v. Delo, 513 US 298,
324 (1995)). "A· prima facie showing of actual innocence is made out when there is 'a
sufficient showing of possible merit to warrant a fuller exploration' by the court." Hamilton
at 27 (quoting Goldbum v. Klem, 510 F3d 204, 219 (2002), cert. denied 555 US 850
(2008)).
In People v. Jiminez, 2016 NY Slip Op. 05620, the First Department agreed that

-7-

CPL§440.1 0(1 )(h) embraces a claim of actual innocence. Further, the court advised that
'
.
the Hamilton standard should be viewed along the more general standard applicable on
any motion to vacate a conviction under CP~§440.1 0.

In applying that test to new

affidavits secured after the conviction, the court viewed them as merely competing against
the testimony of eyewitnesses who testified the defendant shot the victim. /d.

in

Considering the test the court conducted

Jiminez, the Appellate Division

essentially foreclosed the defendant's claim of actual inriocence on Thiof"!g's interview with
the detectives by previously referring to this evidence as a "half-consistent, halfinconsistent statement" thatwould 'not likely persuade a jury' and characterizing the
complaining witness's identification testimony as corroboration in 'placing the defendant
at the scene', which would contradict Thiong's statement. The defendant's current factual
allegations thus lack sufficient merit to warrant the exercise of the court's discretion to grant
a hearing surrounding use of the Thiong statement

~s

an actual innocence1claim. The

Court summarily denies the motion for the reasons stated above.

Conclusion
The defendant's motion is denied in its entirety.

ENTER,.
Dated:

Bronx, New York
August 24, 2016

,fi

~
-8-

orable April A. Newbauer

APPENDIX G

Gonzalez, P.J., Mazzarelli , Saxe, Manzanet-D aniels, Clark, JJ.
1476614767

The People of the State of New York,
Respondent ,

Ind·. 4344/07

-againstKimberly Hanzlik,
Defendant- Appellant.
Gerald J. McMahon, New York, for appellant.
Robert T. Johnson, District Attorney, Bronx (Robert R.
III of counsel), for respondent .

S~ndusky,

Order, Supreme Court, Bronx County (Troy K. Webber, J.),
entered on or about February 20, 2014, which denied defendant' s
CPL 440.10 motion to vacate her judgment of conviction ,
unanimousl y affirmed.
The court properly denied defendant' s motion to vacate her
conviction on the ground of ineffectiv e assistance of counsel.
Defendant received effective assistance under the state and
federal

s~andards

(see People v Benevento, 91 NY2d 708, 713-714

{1998]; Strickland v Washington , 466 US 668 [1984]).
At trial, defense counsel impeached the principal
prosecutio n witness by showing that within a few months of this
1999 homicide, the witness made several statements that
completely exculpated both defendant and her codefendan t.

The

defense establishe d that it was not until 2007, after a motive to
11

falsify had arisen, that the witness inculpated the two
defendants .

However, in her CPL article 440 motion, defendant

faulted trial counsel for failing to use another statement, which
was also made by the witness in 1999, and which exculpated
defendant but inculpated the codefendan t.
Trial counsel's lack of recollectio n makes it impossible to
determine whether he failed to notice this statement, which was
undisputed ly disclosed as Rosario material, or consciousl y chose
not to use it as a matter of strategy.

Defendant asserts that

trial counsel was ineffectiv e in either event.
It was objectivel y reasonable to impeach the witness by
means of the statements that exculpated both defendants but not
by means of the statement that treated them differentl y.
statement at issue essentiall y cut both ways.

The

While it might

well have been reasonable to use this statement, it would also be
reasonable to avoid revealing to the jury that in 1999 the
witness made a statement that was at least partly consistent with
his trial testimony, and that was arguably made before the· motive
to falsify arose or fully ripened.

In other words, it was not

unreasonab le to adopt a strategy that sharply contrasted the
witness's 1999 exculpatio n of both defendants and his radically
different trial testimony.
In any event, defendant has not satisfied the prejudice
12

prongs of either a state or federal ineffectiveness claim.
Defendant has not shown that counsel's failure to use the
statern~nt

at issue deprived defendant of a fair trial, or that

there is a "probability sufficient to undermine confidence in the
outcome" (Strickland, 466 US at 694) that use of the statement
would have led to a more favorable verdict.

Under the

circumstances, the jury would likely have perceived the statement
as merely another inconsistent statement made by the witness long
before he entered into a deal with the prosecutors.

As the trial

actually unfolded, the jury chose to credit the witness's
testimony, and discredit the contradictoiy earlier narrative.

It

is not likely that introduction of a half-consistent, halfinconsistent statement would have altered the jury's analysis.
Moreover, as previously discussed, use of the additional
statement could have been counterproductive.

Finally, as we

noted on defendant's direct appeal (95 AD3d 601 [1st Dept 2010],
lv denied 19 NY3d 997 [2012]), the testimony of this witness was

corroborated by an eyewitness who placed defendant at the scene.
THIS CONSTITUTES THE DECISION AND ORDER
OF THE SUPREME COURT, APPELLATE DIVISION, FIRST DEPARTMENT.
ENTERED:

APRIL 9, 2015

e:SLL
DEPUTY CLERK

13

APPENDIX H

REC'D FEB 24 2014
SUPREfytE COURT OF THE STATE OF NEW YORK
COUNTY OF BRONX: PAR TH9 2

-----------------·X

------------~-----------------·-·-:----------·--------

THE PEOPLE OF THE STATE OF NEW YORK
·DEC ISIO N AND ORDER
Ind. No. 4344/07

-against-

KIMBERLY HANZLlK

11

Defendant.

---------------.-------------------------;,.-----------------X
------------J.:
WEBBE~

s for an order pursuant to CPL
Defendant. by Notice of Motion dated July 11. 201 3, move
ber 4, 2013, the People filed papers in
§ 440.10 to vacate her judgen1ent of conviction. On Octo
were heard on November 26,2013 .
oppo sitiot \to the defendant's motion. Oral ~gun1ents

,

.

P'roc edura t 1.-"ttstory

the Seco nd
. Defendant was charged by indictn1ent with Murder in
."~:~-!6.25[ 1]). It

Degr ee {PL§

lik ~fting with
was alleged that on or about Match 21, 1999~ defendant Hanz

h Brown. The sole charg e of Murder in the
. :·~e:fendant Joseph MeJdish caused the death of Josep
10:.201 Land on February 16. 2011.,
Second Degree was submitted to the jury on February

e of Motion dated February 23, 20 t 1,
the jury returned a verdict of guilty. Defendant, by Notic

jury verdi ct rendered on the grounds that:
moved pursuant to CPL § 330.30 [ 1] to set aside the
for the jury to ~onclude that she acted
( 1) the defendant lacked the mental culpability necessary
in the Seco nd Degree; (2) the Court erred in
with Joseph Meldish to cQmmit the crime of Murder
as loo"ing like the ski ma5k worn by the
aJlowing into CV·i4ence a ski mask which was testified to
graph
shooter; (3) the Court esTed in allowing into evidence a photo

oflhe defendant Hanzlik: (4)

of law~ and (5) the credible evidence
the testimony of Eileen ~fO."Wn was incredible as ~matter
doubt. On March 17. 2011. this Court
did not establish defen daqt' s guilt beyond a rey~n~btc

denied defendant's n1otion.
On or about March I I. 2011, a direct appeaJ was taken to ihe Appellate Division, First
establish the
Department. The defendant argued that ( 1) the evidence was legally jnsufftcient to
weight of the
.defendant con1n1itted Murder in the Second Degree; (2) the verdict was against the
d that
evidence; (3) testimony about paperwork from non-testifying detectives that indicate
s'• or ~'persons of
defendant, co-defendant Meldish, and accomplice David Thlong, were ~'suspect

interest'~ should have been excluded as inadmissible hearsay; (4) the

prosecutor knowingly

to either of
introduced testimony about physical evidence that was unconn"~ted to the crime, or

rly sought
the defendants, for the sole purpose of misJeadlng the jury: {5) the prosecutor imprope
should
to appeal to the jurors· emotions; and (6) the defendanfs sentence was excessive and
conviction
have been reduced. The Appellate Division unanimously affim1ed the defend anfs
1
l2J~ lv to
and declined to reduce the sentence (People v Hanzlik, 95 AD 3d 60 I [I ~ Dept 20

appeal denied 19 NY 3d 997[20121).

d
Defendant now moves to vacate the conviction on the grounds that her attorney rendere
Thiong..
ineffective assistance of counsel by failing to cross-examine the co-conspira(or, David
did not
about a prior inconsistent statement. Specifically defendant claims that her trial attorney
a 111eeting
question Thiong about a complaint follow-up report memorializing un interview JI·om
on September t 4! 1999.

Det~ndant

argues that counsel tailed to .do so because either he failed to

ted
see it, or because he was afraid of introducing it to evidence in that it would have inculpa

co-defendant Joseph Mel dish~ even though it would have helped defendant.

Testimony at Trial
her
Eileen Bro\vn testitied that on March 21, 1999 at approximately 2:30a.m.~ she and
2

Restaurant. 3392 East
·hl.t· d, Joseph Brown, were in th~ back bar area of Frenchy~s Bar and
••

#

~

Brown was leaning
Tremont Avenue in Bronx County. At the time of the shooting, Joseph
Ms. Brown, at some ·
-agttinst a bar stool and Ms. Brown was standing to his side. ·According to
lot of people were
p()int she heard "a lot of noise, like a scuftle. getting loud and rowdy. A
g around."'' A man
making a lot of noise, louder than usual. People were moving fast and runnin
out a gun. He
who was wearing all black including a black ski mask approached and pulled
ed thre'v Ms. Brown up
stated, ·~this is for you mother -fuck~r'" and began firing shots. The deceas
Brown ran into the
against the door tb the left which was th~ entrance to the ladies· romn. Ms.
longer heard shots,
ladies· room and remained there. Shots contint~ed to ring out. When she no
she came out to find her husband lying on the floor dead.
in the ladies
Ms. Brown testified that prior to the shooter entering the bar, she had been
sh~ belOl1ged at
room. There. she observed a female who she testified ··did not look lik~

Frenchy~s. ~...

the
In Court, Ms. Brown testified that while the defendant Hanzlik looked like

not be sure as the
female she sa'v in the ladies roon1 earlier the night of the shooting~ she could
defendant now looked different.

he was asked
David Thiong testitied that on March 21, 1999 at approximately 2:00 a.n1.,

by defendant Meldish to drive Meldish and defendant Hanzlik to

Frenchy~s

bar. When they

As she entered the car.
entered Thiong.,s car~ defendant Hanzlik was carrying a duflle-like bag.
she gave the

bag~

defendant Meldish. When they arrived at Frenchy's., Thiong over heard a

nudged Hanzlik and
discussion between Meldish and Hanzlik. 1l1iong testified that Meldish
out the whispering.
statect ··go ahead .•, They then began whispering. Thiong could not make
stated to defendant
After son1e tin1e Hanzlik entered the bar. When she ~turned to the car, she
3

recall what
Meldish that Brown was seated on a particular stool at the bar. Thiong could not
ng to
stool she stated, however, he recalled that Hanzlik did state a particular stool. Accordi
gun from the
·Thiong. Meld ish~ who was wearing all black. then removed a black ski n1ask and
heard shots
duffle-like bag~ placed the ski mask on his face and proceeded into the bar. Thiong
to the car
tired. He testified that he was told by Hanzlik not to drive off. Meldish soon returned
short distance
and directed that he and Hanzlik be taken to the Crosby Cabs which was located a
g the incident.
away. Thiong admitted n1aking nurncrous prior inconsistent staten1ents regardin
d in the
He adn1itted that at some point he stated that neither Meldish or Hanzlik were involve
shooting.
Detective Charles Villani testified that on March

29~

1999. he recovered a duffie bag

cutTently a
containing ten1ale clothing, shirts and a ski n1ask. Detective Christopher Munger..
of the large
Special Agent with FBI., testitied that in Pebruary of 200 1~· he came· into possession
including
duffle bag. referred to by Det. ViJlai1i, which contained a number of pieces of clothing
cold case of the
a ski mask. Retired detective Kevin Tracy testified that he had been assigned the
tile,
hon1icide of Joseph Brown in 2006. Pursuant to the assignment he reviewed the ease
Det. Tracy
reviewed documents and re·intcrviewed various witnesses including Eileen Bro\vn.
ely sent to
aJso retrieved from Det. Munger,s possession, a ski mask .. The ski mask was ultin1at
the lab fbr DNA testing.

Discussion
ln sustaining his burden of showing ineffective assistance of counsel. detendant ;'bears
Hobo!, 84
the high. but·den of demonstrating that [she] was deprived of a fair trial"(People v

assistance of
N. Y.2d 1Oi I~ 1022 [1 995]). "(M]ere losing tactics·· do not constitute ineffective
4

counsel (People v Satte1:field, 66 NY2d 796, 798 [1985], quoting People v Baldi, 54 NY2d 137,
146 ( 1981 ]). No defendant is enti.tled to perfect counsel or a perfect trial (Strickland v

fJiashington, 466 US 668.. 684 [ 1984]~ People v Aiken. 45 NY2d 394.. 398 [1978)). This Court's
function is not '•to second guess whether a course chosen by defendant's counsel was the best trial
strategy. or even a good onet so long as defendanr was aftbrded n1ean.ingtuJ representation'~

(Satterfield, 66 NY2d at 799-800; see alro People 11 Benevent(), 91 NY2d 708, 712 {1998]).
Rather, counsel's assistance will be considered effective if~·it reflects an objectively reasonable
and legitimate trial strategy under the circumstances and evidence presented•' (People 1-' Berroa,
99 NY2d 134.. 138 (2002]). In othct words, in the face of a daim that tria) counsel could have
been n1ore efficacious~ the dispositive issue "is not whether defendant's representation could have

b<..-en better but whether it was. on the

whole~

constitutionally adequate•· (People v Borell, 12

NY3d 365, 370 [2009]) .
Here, defendant aJ leges that her triaf attorney rendered ineffective assistance by failirtg to
cross-examine Thiong about a statement contained on a police complaint follow-up report frozn
September 1999. First, there is nothing to suggest that the introduction of the statement or
questioning of Thiot1g regarding the statement would have brought about a different result.
Defendant has failed
hav~

to

establish a substantial like! ihood that use of lhe repOrt in question would

brought about a different trial result (see 1lttrrington v Ri~hler. 13 J S Ct 770. 792 [20 1l] [in

evaluating whether the outcome of the trial would have heen different but for counsel's aileged
error~ ·~the

likelihood of a different result must be suhstantial, not just conceivable··]~ see also

People,. Benevento, 91 NY2d at 714 [prejudice c01nponent focuses on the c'fairness of the

process as a whole'l

5

Thiong's tria] testimony was corroborated by Eileen Brown. Thiong testified that Hanzlik
had entered the bar prior to MeJdish and had returned to the car with inforn1ation as to where a

n1ale individual was seated in the bar. Ms. Brown testified that she observed a female who
looked like Hanzlik in the ladies" room shortly before the shooter entered the bar. Ms. Brown
identified a photograph of Hanzlik as Hanzlik appeared in 2007 as the fe1nale she saw in the bar.
In su1n and substance~ tl)e prior staten-tent by Thiong was that on the night of the incident
he met with co-defendant Meldish. Early the next morning, fvfeldish asked Thiong to daive him
to a bar. Meldish entered the bar and returned a short time biter· and asked that Thiong drive to

defendant Hanzlik's hon1e. Sometime later.. he and Meldish, without defendant Hanzlik then
went to Frenchy's bar. Meld ish exited the car~ ente1~cd the bar, whereupon Thiong then heard
about five shots.

~1cJdish

then exited Frenchy's Bar. entered the

v~hicle

holding a pistol and told

Thiong to stay qui~t. TI1iong then drove Meldish back to defendant Hanzlik's home where
defendant Hanzlik entered the vehicle and Thiong drove defendant and Meldish to a taxi service.

,,..·here both Hanzlik and Meldish exited the vehicle.
A review of the trial transcript indicates an exhaustive cross-exan1ination by counsel of
Thiong. Counsel elicited that Thiong had made numerous statements both exculpating and
inculpating both dc::fendant Hanzlik and co-detendant Meldish. Counsel established that Thiong

•

did not make a statem~nt which inculpated Hanzlik and Mcldish until he \vas given immunity
for his purticipation in the murder. Parenthetically! counsel tbr defendant MeJdish also conducted
an exhaustive cross-examination ofThiong establishing that for a substantial period of time
Thiong never even told police that he and Meldish 'vent to
involved in the shooting at

Fr~nchy's.

Frenchy's~

nor that Meldish was

Thus the jury was keenly a\vare of the inconsistences and

6

discrepancies in the nun1erous statements n1ade by Thiong.
e by counsel
The People argue that there was a common defense or approach to the defens
for Hanzlik and counsel tbr Meldish. The question is whether

an o~jectively reasonable strategy

in1material (see
was pursued by defense counseJ; triaf counse rs suhjec:til·e r~CLc;oning is
was totally
SCttterjield, 66 NY2d at 798·800). Fron1 an objective standpoint, the strategy
sizing his
reasonable. Defcns~ counsel sought to attack the credibility ofThiong~ empha

crimina)

his attempts to obtain
background, the nmnerous inconsistt:nt statc1nents made b)' hin1 as well as
in suggesting that the
a benefit for his testimony. Further, there \\~as a C0111n1onality of purpose
investigating detective, Det.

Tracey~

fed or suggested to 1-hiong what statements he should make

ant Meldish.
to taw enforcen1ent in order to inculpate both defendant Hanzlik and defend
to Det. Tracy, in
Both counse l attempted to discredit Thiong•s Augus t 2007 statement
by Thiong to other
which he inculpated both defendants. by introducing two statcn1ents n1ade

and by attributing the
detectives in AprH and August 1999, in which he exculpated both ofthen1;
1ent by Det. Tracy.
abntpt turn-around in Thiong's statement to improper influence or inducen
failure to document
Highlighted was the lack of documentation by Det.. Tracy, in particular his
l argued that
his interviews with Thiong until after "'a deal'., had been struck. ·Both counse
that it was when Dct.
obviously Det. Tracey had induced Thiong to inculpate the defendants in
everything was put
Tracy entered the case. that '~au of a sudden .. he had thi~ magical effect and
together.~· As

such.. according to the defendants.

Thiong~s statements

inculpating delendants

trial testimony as a
was the result of""a purchase ... Thus. the strategy was to present Thiong's

l staten1cnts.
manufactured. and hence.. unbelievabJe, departure from his earJier truthlu

7

defense. stating, --....
While defense contends that there shouJd not have been a mutual

ng more than to separate
"No right thinking criminal defense attorney would want to do anythi
is nothing to suggest
Hanzlik from Meldish. not to join thcn1 in a n1utual defense''--·· there

that

e l' A-1cGee, 20 NY3d 513
there cannot or should not be a commonality of purpose (see Pet>pl
ble given the facts of the
[20 13 ]). Here, the defense set forth was certainly reasonable and plausi
ed with the benefit of
case. The strategy pursued need not be the best one that can be assess
hindsight (see e.g.

P~op/e

,. Turner, 5 NY 3d 4 76 [2005]; People v Benewtnto. 91 NY2d 708,

ant has failed to
714-715: Pe()p/e v &lldi.. 54 NY2d at 146-147). Thus, defend

~·demonstrate

the

alleged deticient
absence of strategic or other lcgitinmte explanations'" for counsel's

v

representation (People Cahan, 5 NY3d 143. J 52 {2005]).
in question which
Defendant further argues that either trial counsel did not read the report
had been turned over to

him~

or trial counse) intentionally chose not to use it tbr tear of

con1n1itted nnlltiple murders
offending co·defendant. Joseph Mcldish (who was aJJcgcd to have
entation was
in the pasl}. In either event~ according to defendant, counsel's tcpres

ineffective and

no str~tegic or tactical
without mty strategic or tactical explanation, and that there can be
First, there is no credible basis
explanation tbr trial counsel's tailure to use the report in question.
for such an argument. More imponantly, as stated above there appea

rs to have been a viable,

. had trial counsel
plausible stratet,ry employed by counseL As suggested by the People
quest1on~d

ut the position that
Thiong about the r~port in question. it would have severely underc

Br<Jwn until nJ1er Det. Tracy
Thiong hud not implicat~ either defendant ·in the murder of Joseph
there was a complete
became involved in the case sev~n years Jater. That posit ion- that
involved - would not have
turnaround in Thiong's account of the incident once Oct. Tracy got

ental1y changed aJong
been advanced by a report that showed that Thiong's account had increm
8

the way.
The Court of AppeaJs has held that an ineffective assi.stance of counsel claim brought
and the
under CPL ·§ 440.10 can be denied without a hearing when the ''the evidence, the law
reveal
circumstances of a particular case, vie\ved together and as of the tin1e of representation.
tional right to
that meaningful representation was provided {and that thereby] defendant's constitu
O).If: when
the effective assistance of counsel has been satisfied'~ (Su/lerfil!/d, 66 NY2d at 798-SO
trial strategy
considered ··objectively, the trclnst..-ript anJ the subn1issions reveal the existence of a
••to probe
that might well have been pursued by a reasonably competent attorney," then a hearing
counsel's
the actual reasons in the mind of trial counse1 for that decision.'; is unnecessary, since
hsubjective reasons ·tor his choice of this strategy in this case [are]

imnlaterjar~

[id.]. This court

best trial
should not ·'second-guess whether a course chosen by defendant's counsel was the
str~tcgy.

[id.].
or even a good one.. so long as defendant was afforded meaningful representation""

This Court is satisfied that defendant reeeived effective assistance from her trial counseL
Defendant
Preliminarily, it is noted that this Court observed the pertbmulllce of trial counsel.
She has not
tailed to demonstrate ineffective assistance of counsel under the federal constitution.
, and
shown that (1) counsel's representation fell below an objective standard of reasonableness
offers even
(2) {s] he suffered prejudice (s~e Strickland, 466 US at694). The Ne\V York standard
gr~Ltter protecti on

to defendants than the federal standard (s11e Ct.tban .. 5 NY3d nt I 56). Tt) prevail

on a state claim of ineffective assistance of CClunset a delendant n1ust demonstrate
atto~ney

that his

failed to provide meaningful representation. Defendant has failed to satisfy either

@se.
stnndard itJ.~~S.
.. .t'f·

Ip support ofber argument, defendant cites p,~op/,·

'J Ccm/t~wt. 83 AD3d 857 (2d Dept

3d ~94{2d
2011]. People v Arnold, 8~ AD3d ) 330 [3d Dept2011 ), and People v Clarke, 66 AD
9

Dept 2009}. In Ctmtat:e and Arnold.. the Courts found that there was no conceivable reason not to
question witnesses about prior exculpatory inconsistent statements. In Clarke. the Court found
that "defense counsel engaged in an inexplicably prejudicial course of conduct throughout the
trial ... the cumulative etlect of which was to deprive the defendant of the effective assistant.:~ of
cot.lJ1sel and his right to a tair trial" [Ccmtt~ve.. 83 AD3d at 858-859: Arnold. 85 AD3d at
1332-1334; Clarke, 66 AD3d at 697}. Here, the record reflects a legitimate tactical and strategic
reason not to explore that staten1ent. fut1her. the dTect of nut doing so in no wa,y compromised

the defendant's right to a fair trial (Caban, 5 NY3d at 143, 152; see also Strickland~ 466 US at
688; Baldi. 54 NY2d at 137; Benevenlo 91 NY2d at 708; People v
1

Ford~

86 NY2d 3~7[1995]).

This opinion constitutes the decision. opinion and order of the Court.

Dat~d:

February 20, 2014
Bronx~

Troy K.

N.Y.

10

i

APPENDIX I

U.S. CONST. amend. VI provides the following, in pertinent part:
In all criminal prosecutions, the accused shall enjoy the right … to have the
Assistance of Counsel for his defence.
U.S. CONST. amend. VIII:
Excessive bail shall not be required, nor excessive fines imposed, nor cruel
and unusual punishments inflicted.
U.S. CONST. amend. XIV:
All persons born or naturalized in the United States, and subject to the
jurisdiction thereof, are citizens of the United States and of the state wherein
they reside. No state shall make or enforce any law which shall abridge the
privileges or immunities of citizens of the United States; nor shall any state
deprive any person of life, liberty, or property, without due process of law; nor
deny to any person within its jurisdiction the equal protection of the laws.
New York State Criminal Procedure Law Section 440.10
1. At any time after the entry of a judgment, the court in which it was
entered may, upon motion of the defendant, vacate such judgment upon the
ground that:
(a) The court did not have jurisdiction of the action or of the person of the
defendant; or
(b) The judgment was procured by duress, misrepresentation or fraud on the
part of the court or a prosecutor or a person acting for or in behalf of a court
or a prosecutor; or
(c) Material evidence adduced at a trial resulting in the judgment was false
and was, prior to the entry of the judgment, known by the prosecutor or by
the court to be false; or
(d) Material evidence adduced by the people at a trial resulting in the
judgment was procured in violation of the defendant's rights under the
constitution of this state or of the United States; or
(e) During the proceedings resulting in the judgment, the defendant, by
reason of mental disease or defect, was incapable of understanding or
participating in such proceedings; or

(f) Improper and prejudicial conduct not appearing in the record occurred
during a trial resulting in the judgment which conduct, if it had appeared in
the record, would have required a reversal of the judgment upon an appeal
therefrom; or
(g) New evidence has been discovered since the entry of a judgment based
upon a verdict of guilty after trial, which could not have been produced by the
defendant at the trial even with due diligence on his part and which is of
such character as to create a probability that had such evidence been received
at the trial the verdict would have been more favorable to the defendant;
provided that a motion based upon such ground must be made with due
diligence after the discovery of such alleged new evidence; or
(g-1) Forensic DNA testing of evidence performed since the entry of a
judgment, (1) in the case of a defendant convicted after a guilty plea, the
court has determined that the defendant has demonstrated a substantial
probability that the defendant was actually innocent of the offense of which
he or she was convicted, or (2) in the case of a defendant convicted after a
trial, the court has determined that there exists a reasonable probability that
the verdict would have been more favorable to the defendant.
(h) The judgment was obtained in violation of a right of the defendant under
the constitution of this state or of the United States; or
(i) The judgment is a conviction where the arresting charge was under
section 240.37 (loitering for the purpose of engaging in a prostitution offense,
provided that the defendant was not alleged to be loitering for the purpose of
patronizing a person for prostitution or promoting prostitution) or 230.00
(prostitution) or 230.03 (prostitution in a school zone) of the penal law, and
the defendant's participation in the offense was a result of having been a
victim of sex trafficking under section 230.34 of the penal law, sex trafficking
of a child under section 230.34-a of the penal law, labor trafficking under
section 135.35 of the penal law, aggravated labor trafficking under section
135.37 of the penal law, compelling prostitution under section 230.33 of the
penal law, or trafficking in persons under the Trafficking Victims Protection
Act (United States Code, title 22, chapter 78); provided that
(i) a motion under this paragraph shall be made with due diligence, after
the defendant has ceased to be a victim of such trafficking or compelling
prostitution crime or has sought services for victims of such trafficking or
compelling prostitution crime, subject to reasonable concerns for the safety of
the defendant, family members of the defendant, or other victims of such
trafficking or compelling prostitution crime that may be jeopardized by the

bringing of such motion, or for other reasons consistent with the purpose of
this paragraph; and
(ii) official documentation of the defendant's status as a victim of trafficking,
compelling prostitution or trafficking in persons at the time of the offense
from a federal, state or local government agency shall create a presumption
that the defendant's participation in the offense was a result of having been a
victim of sex trafficking, compelling prostitution or trafficking in persons, but
shall not be required for granting a motion under this paragraph;
(j) The judgment is a conviction for a class A or unclassified misdemeanor
entered prior to the effective date of this paragraph and satisfies the ground
prescribed in paragraph (h) of this subdivision. There shall be a rebuttable
presumption that a conviction by plea to such an offense was not knowing,
voluntary and intelligent, based on ongoing collateral consequences,
including potential or actual immigration consequences, and there shall be a
rebuttable presumption that a conviction by verdict constitutes cruel and
unusual punishment under section five of article one of the state constitution
based on such consequences; or
(k) The judgment occurred prior to the effective date of this paragraph and
is a conviction for an offense as defined in subparagraph (i) or (ii) of
paragraph (k) of subdivision three of section 160.50 of this part, in which case
the court shall presume that a conviction by plea for the aforementioned
offenses was not knowing, voluntary and intelligent if it has severe or
ongoing consequences, including but not limited to potential or actual
immigration consequences, and shall presume that a conviction by verdict for
the aforementioned offenses constitutes cruel and unusual punishment under
section five of article one of the state constitution, based on those
consequences. The people may rebut these presumptions.
2. Notwithstanding the provisions of subdivision one, the court must deny a
motion to vacate a judgment when:
(a) The ground or issue raised upon the motion was previously determined
on the merits upon an appeal from the judgment, unless since the time of
such appellate determination there has been a retroactively effective change
in the law controlling such issue; or
(b) The judgment is, at the time of the motion, appealable or pending on
appeal, and sufficient facts appear on the record with respect to the ground or
issue raised upon the motion to permit adequate review thereof upon such an
appeal. This paragraph shall not apply to a motion under paragraph (i) of
subdivision one of this section; or

(c) Although sufficient facts appear on the record of the proceedings
underlying the judgment to have permitted, upon appeal from such
judgment, adequate review of the ground or issue raised upon the motion, no
such appellate review or determination occurred owing to the defendant's
unjustifiable failure to take or perfect an appeal during the prescribed period
or to his unjustifiable failure to raise such ground or issue upon an appeal
actually perfected by him; or
(d) The ground or issue raised relates solely to the validity of the sentence
and not to the validity of the conviction.
3. Notwithstanding the provisions of subdivision one, the court may deny a
motion to vacate a judgment when:
(a) Although facts in support of the ground or issue raised upon the motion
could with due diligence by the defendant have readily been made to appear
on the record in a manner providing adequate basis for review of such ground
or issue upon an appeal from the judgment, the defendant unjustifiably failed
to adduce such matter prior to sentence and the ground or issue in question
was not subsequently determined upon appeal. This paragraph does not
apply to a motion based upon deprivation of the right to counsel at the trial
or upon failure of the trial court to advise the defendant of such right, or to a
motion under paragraph (i) of subdivision one of this section; or
(b) The ground or issue raised upon the motion was previously determined
on the merits upon a prior motion or proceeding in a court of this state, other
than an appeal from the judgment, or upon a motion or proceeding in a
federal court; unless since the time of such determination there has been a
retroactively effective change in the law controlling such issue; or
(c) Upon a previous motion made pursuant to this section, the defendant
was in a position adequately to raise the ground or issue underlying the
present motion but did not do so.
Although the court may deny the motion under any of the circumstances
specified in this subdivision, in the interest of justice and for good cause
shown it may in its discretion grant the motion if it is otherwise meritorious
and vacate the judgment.
4. If the court grants the motion, it must, except as provided in subdivision
five or six of this section, vacate the judgment, and must dismiss the
accusatory instrument, or order a new trial, or take such other action as is
appropriate in the circumstances.

5. Upon granting the motion upon the ground, as prescribed in paragraph
(g) of subdivision one, that newly discovered evidence creates a probability
that had such evidence been received at the trial the verdict would have been
more favorable to the defendant in that the conviction would have been for a
lesser offense than the one contained in the verdict, the court may either:
(a) Vacate the judgment and order a new trial; or
(b) With the consent of the people, modify the judgment by reducing it to one
of conviction for such lesser offense. In such case, the court must re-sentence
the defendant accordingly.
6. If the court grants a motion under paragraph (i) or paragraph (k) of
subdivision one of this section, it must vacate the judgment and dismiss the
accusatory instrument, and may take such additional action as is appropriate
in the circumstances.
7. Upon a new trial resulting from an order vacating a judgment pursuant
to this section, the indictment is deemed to contain all the counts and to
charge all the offenses which it contained and charged at the time the
previous trial was commenced, regardless of whether any count was
dismissed by the court in the course of such trial, except (a) those upon or of
which the defendant was acquitted or deemed to have been acquitted, and (b)
those dismissed by the order vacating the judgment, and (c) those previously
dismissed by an appellate court upon an appeal from the judgment, or by any
court upon a previous post-judgment motion.
8. Upon an order which vacates a judgment based upon a plea of guilty to an
accusatory instrument or a part thereof, but which does not dismiss the
entire accusatory instrument, the criminal action is, in the absence of an
express direction to the contrary, restored to its prepleading status and the
accusatory instrument is deemed to contain all the counts and to charge all
the offenses which it contained and charged at the time of the entry of the
plea, except those subsequently dismissed under circumstances specified in
paragraphs (b) and (c) of subdivision six. Where the plea of guilty was
entered and accepted, pursuant to subdivision three of section 220.30, upon
the condition that it constituted a complete disposition not only of the
accusatory instrument underlying the judgment vacated but also of one or
more other accusatory instruments against the defendant then pending in
the same court, the order of vacation completely restores such other
accusatory instruments; and such is the case even though such order
dismisses the main accusatory instrument underlying the judgment.

9. Upon granting of a motion pursuant to paragraph (j) of subdivision one of
this section, the court may either:
(a) With the consent of the people, vacate the judgment or modify the
judgment by reducing it to one of conviction for a lesser offense; or
(b) Vacate the judgment and order a new trial wherein the defendant enters
a plea to the same offense in order to permit the court to resentence the
defendant in accordance with the amendatory provisions of subdivision one-a
of section 70.15 of the penal law.
New York State Penal Section 125.25
A person is guilty of murder in the second degree when:
1. With intent to cause the death of another person, he causes the death of
such person or of a third person; except that in any prosecution under this
subdivision, it is an affirmative defense that:
(a) (i) The defendant acted under the influence of extreme emotional
disturbance for which there was a reasonable explanation or excuse, the
reasonableness of which is to be determined from the viewpoint of a person in
the defendant's situation under the circumstances as the defendant believed
them to be. Nothing contained in this paragraph shall constitute a defense to
a prosecution for, or preclude a conviction of, manslaughter in the first degree
or any other crime. (ii) It shall not be a "reasonable explanation or excuse"
pursuant to subparagraph (i) of this paragraph when the defendant's conduct
resulted from the discovery, knowledge or disclosure of the victim's sexual
orientation, sex, gender, gender identity, gender expression or sex assigned at
birth; or
(b) The defendant's conduct consisted of causing or aiding, without the use
of duress or deception, another person to commit suicide. Nothing contained
in this paragraph shall constitute a defense to a prosecution for, or preclude a
conviction of, manslaughter in the second degree or any other crime; or
2. Under circumstances evincing a depraved indifference to human life, he
recklessly engages in conduct which creates a grave risk of death to another
person, and thereby causes the death of another person; or
3. Acting either alone or with one or more other persons, he commits or
attempts to commit robbery, burglary, kidnapping, arson, rape in the first
degree, criminal sexual act in the first degree, sexual abuse in the first
degree, aggravated sexual abuse, escape in the first degree, or escape in the

second degree, and, in the course of and in furtherance of such crime or of
immediate flight therefrom, he, or another participant, if there be any, causes
the death of a person other than one of the participants; except that in any
prosecution under this subdivision, in which the defendant was not the only
participant in the underlying crime, it is an affirmative defense that the
defendant:
(a) Did not commit the homicidal act or in any way solicit, request,
command, importune, cause or aid the commission thereof; and
(b) Was not armed with a deadly weapon, or any instrument, article or
substance readily capable of causing death or serious physical injury and of a
sort not ordinarily carried in public places by law-abiding persons; and
(c) Had no reasonable ground to believe that any other participant was
armed with such a weapon, instrument, article or substance; and
(d) Had no reasonable ground to believe that any other participant intended
to engage in conduct likely to result in death or serious physical injury; or
4. Under circumstances evincing a depraved indifference to human life, and
being eighteen years old or more the defendant recklessly engages in conduct
which creates a grave risk of serious physical injury or death to another
person less than eleven years old and thereby causes the death of such
person; or
5. Being eighteen years old or more, while in the course of committing rape
in the first, second or third degree, criminal sexual act in the first, second or
third degree, sexual abuse in the first degree, aggravated sexual abuse in the
first, second, third or fourth degree, or incest in the first, second or third
degree, against a person less than fourteen years old, he or she intentionally
causes the death of such person.
Murder in the second degree is a class A-I felony.

